<html>
<title> - OVERSIGHT HEARING ON INVESTIGATING THE HEALTH AND SAFETY RISKS OF NATIVE CHILDREN AT BIE BOARDING SCHOOLS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


 INVESTIGATING THE HEALTH AND SAFETY RISKS OF NATIVE CHILDREN AT BIE 
                           BOARDING SCHOOLS

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

        SUBCOMMITTEE FOR INDIGENOUS PEOPLES OF THE UNITED STATES

                                OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         Thursday, May 16, 2019

                               __________

                           Serial No. 116-17

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-445 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="76061936150305021e131a065815191b58">[email&#160;protected]</a>        



        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
      

                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                                
                                
                                ------                                

        SUBCOMMITTEE FOR INDIGENOUS PEOPLES OF THE UNITED STATES

                        RUBEN GALLEGO, AZ, Chair
                PAUL COOK, CA, Ranking Republican Member

Darren Soto, FL                      Don Young, AK
Michael F. Q. San Nicolas, GU        Aumua Amata Coleman Radewagen, AS
Debra A. Haaland, NM                 John R. Curtis, UT
Ed Case, HI                          Kevin Hern, OK
Matt Cartwright, PA                  Vacancy
Vacancy                              Rob Bishop, UT, ex officio
Vacancy
Raul M. Grijalva, AZ, ex officio

                                
                                
                              ------------                                
                              
                              
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 16, 2019...........................     1

Statement of Members:
    Cook, Hon. Paul, a Representative in Congress from the State 
      of California..............................................     3
        Prepared statement of....................................     4
    Gallego, Hon. Ruben, a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona, prepared statement.......................    70

Statement of Witnesses:
    Casey, Tiyana, Youth Advocate, National Indian Education 
      Association, Portland, Oregon..............................    38
        Prepared statement of....................................    40
    Cruz, Mark, Deputy Assistant Secretary, Policy and Economic 
      Development--Indian Affairs, U.S. Department of the 
      Interior, Washington, DC...................................    31
        Prepared statement of....................................    32
        Questions submitted for the record.......................    33
    Karzon, Celeste, Former Teacher, Chemawa Indian School, 
      Salem, Oregon..............................................     5
        Prepared statement of....................................     6
    Keith, Treasa, Parent of Former Student Melissa Abell, 
      Chemawa Indian School, Salem, Oregon.......................    12
        Prepared statement of....................................    13
    Moody-Jurado, Sonya, Former Chair, Chemawa School Board, 
      Salem, Oregon..............................................    35
        Prepared statement of....................................    36
    O'Renick, Joy, Former Teacher, Chemawa Indian School, Salem, 
      Oregon.....................................................    13
        Prepared statement of....................................    16
    Willis, Beatrice, Parent of Former Student Marshall Friday, 
      Chemawa Indian School, Salem, Oregon.......................     9
        Prepared statement of....................................    10

Additional Materials Submitted for the Record:
    Bonamici, Hon. Suzanne, a Representative in Congress from the 
      State of Oregon, prepared statement........................    22
    Espino, Anita: Testimony for the Record from Former Chemawa 
      Indian School Employee.....................................    71
    List of documents submitted for the record retained in the 
      Committee's official files.................................    72
    Schrader, Hon. Kurt, a Representative in Congress from the 
      State of Oregon, prepared statement........................    25

    Submissions for the Record by Representative Schrader

        Letter from Oregon Delegation to Principal Deputy 
          Assistant Secretary of Indian Affairs John Tahsuda, 
          November 14, 2017......................................    50
        Response Letter from Principal Deputy Assistant Secretary 
          of Indian Affairs John Tahsuda, April 16, 2018.........    52
        Letter from Oregon Delegation to Principal Deputy 
          Assistant Secretary of Indian Affairs John Tahsuda, 
          June 8, 2018...........................................    54
        Letter from Oregon Delegation to Department of Education 
          Secretary Betsy DeVos, June 8, 2018....................    56
        Letter from Oregon Delegation to Indian Health Service 
          Director Michael Weahkee, June 8, 2018.................    58
        Response Letter from the Department of Education, 
          September 18, 2018.....................................    59
        Response Letter from the Indian Health Service, July 10, 
          2018...................................................    60
        Response Letter from the Department of the Interior, 
          March 15, 2019.........................................    62
        Letter from Reps. Schrader and Bonamici to Natural 
          Resources Committee for Hearing Request, April 12, 2019    65
                                     


 
   OVERSIGHT HEARING ON INVESTIGATING THE HEALTH AND SAFETY RISKS OF 
                NATIVE CHILDREN AT BIE BOARDING SCHOOLS

                              ----------                              


                         Thursday, May 16, 2019

                     U.S. House of Representatives

        Subcommittee for Indigenous Peoples of the United States

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 1334, Longworth House Office Building, Hon. Ruben Gallego 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gallego, Soto, Haaland, Grijalva; 
and Cook.
    Also present: Representatives Schrader and Bonamici.

    Mr. Gallego. Welcome. The Subcommittee for Indigenous 
Peoples of the United States will now come to order.
    The Subcommittee is meeting today to hear testimony on 
investigating the health and safety risks of Native children at 
BIE boarding schools. Under Committee Rule 4(f), any oral 
opening statements at hearings are limited to the Chairman and 
the Ranking Minority Member. Therefore, I ask unanimous consent 
that all other Members' opening statements be made part of the 
hearing record if they are submitted to the Clerk by 5 p.m. 
today.
    I also ask unanimous consent for the Oregon Congressional 
Representatives Kurt Schrader and Suzanne Bonamici to join us 
on the dais to provide questions for the witnesses. Hearing no 
objection, so ordered.

   STATEMENT OF THE HON. RUBEN GALLEGO, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Gallego. Good morning, and a warm welcome to all of our 
witnesses, and thank you for traveling here. We are here today 
to get answers about how we can better protect the health and 
well-being of Native students attending BIE boarding schools.
    Let's be clear. Our country has a long, horrific history 
when it comes to Native American children's attendance at 
boarding schools. For a period of over 100 years, Federal 
Indian education policy partially consisted of forcefully 
abducting Native children from their homes and sending them to 
far-off federally funded boarding schools meant to assimilate 
and exploit them.
    It is with keen awareness of this shameful history that we 
convene this hearing today to get answers about the Chemawa 
Boarding School in Oregon State and hear from witnesses about 
how we can better protect Native students from across the 
Nation.
    Chemawa Indian School is one of the oldest continually 
operating boarding schools in the United States. Over many 
years, its mission shifted from assimilation to prioritization 
of culturally competent care and curriculum for students and 
families who see the school as an opportunity to escape 
difficult home lives or the challenges of attending a school on 
a reservation. Students at the school originate from as many as 
80 tribes, with one-third of students hailing from my home 
state of Arizona.
    We are here today because of the extremely disturbing signs 
that Chemawa is not fulfilling its obligation to properly care 
for the health and well-being of its students. As of June 2018, 
four current and former Chemawa students have died.
    Though no two of these student stories are identical, the 
testimony we will hear today reflects disturbing trends at 
Chemawa, including: a lack of sufficient care for students' 
health and mental health, including outright negligence; ill-
advised and harmful disciplinary policies, including a high 
rate of suspension and expulsion; and school policies to 
discourage transparency and accountability.
    I am heartbroken that we need to be here today, and that it 
has taken so long for some of our witnesses who have lost loved 
ones to get answers. That ends now. We have a legal and, more 
importantly, a moral responsibility to keep Native children 
safe.
    I want to keep this short so we can honor the stories of 
the students' families and former staff, and others who have 
traveled a long way to share their words with us. Before I turn 
it over to my Ranking Member, I want to express a special thank 
you to my colleagues, Representatives Schrader and Bonamici, 
who helped bring this issue to my attention starting last year, 
and who have fought to protect Native students. My hope today 
is that we begin to get the answers needed to protect Native 
students attending all BIE boarding schools, including Chemawa.
    I would now like to recognize the Ranking Member, Mr. Cook, 
for his opening statement.

    [The prepared statement of Mr. Gallego follows:]
 Prepared Statement of the Hon. Ruben Gallego, Chair, Subcommittee for 
                Indigenous Peoples of the United States
    Good morning to you all, and a warm welcome to all our witnesses 
here today. Thank you for traveling here.
    Let's be clear, our country has a deeply rooted, sometimes 
horrifying, history with Native Americans and boarding schools. From 
children being forcibly abducted from their homes to children choosing 
to attend these schools.
    The role of Congress and this Subcommittee is to ensure that proper 
oversight is provided for tribal programs this includes programs that 
affect Native children.
    Today's hearing is one that we should not be having, not in a 
physical sense but on moral grounds. Today, we will investigate the 
health and safety risks of Native children at BIE boarding schools.
    Our hearing will look more in depth about what is happening at the 
Chemawa Indian School, one of the oldest continuously operating 
boarding schools in the United States. Students from this school come 
from 17 states with more than a third coming from Arizona.
    Some students attend boarding schools to get away from difficult 
home lives or continue a legacy of generations of relatives, who have 
attended the school. Although each reason varies for attendance, 
boarding schools are sometimes viewed as a haven or an escape from a 
rather challenging upbringing on the reservation.
    Yet, as of June 2018, four current and former Chemawa students have 
died from reported negligence toward health concerns, lack of mental 
health services, and ill-advised suspensions and expulsions leading to 
later accidents.
    I would like to keep this opening statement short, so we can honor 
the stories of the student's families and former staff, who traveled a 
long way to share their words with us.
    A special thank you to our colleagues, who brought our attention to 
the various issues surrounding this school. My hope today is that we 
begin to get the answers needed to protect Native students attending 
BIE boarding schools.
    I would now like to recognize the Ranking Member, Mr. Cook, for his 
opening statement.

                                 ______
                                 

 STATEMENT OF THE HON. PAUL COOK, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Cook. Thank you, Mr. Chairman. And thank you to our 
witnesses for being here today. I know several of you have 
traveled a long distance to be with us, and a number of us make 
that cross-country flight every week and it is no fun.
    In today's hearing, we will discuss the serious challenges 
facing schools that provide education to Native American and 
Alaskan Native students, specifically at one of the four off-
reservation boarding schools in Salem, Oregon, an Indian school 
which is operated by the Bureau of Indian Education.
    In 2017, the Oregon Public Broadcasting released a series 
reporting on tragic events that many of our witnesses will be 
discussing. In recent years, Congress has learned a great deal 
about the disgraceful conditions impacting Native American 
schools and, obviously, the education that is with it. The 
Education and Labor Committee began exploring this crisis and 
held hearings from 2015 to 2018, which revealed very appalling 
details.
    The Government Accountability Office has also released 
several reports over the last decade documenting that 
disorganized bureaucracy and poor communication make it 
difficult, if not impossible, for these schools to receive the 
services and support they desperately needed.
    The purpose of today's hearing should not be about 
assigning blame to any one person or administration. There is 
plenty of blame to go around, I guess. My hope is that we can 
understand the root causes, if we can get there, of these 
persistent challenges--because it is over and over again, from 
my readings--and focus on fixing the problem and achieving 
better results.
    I encourage my colleagues that we do not shift away from 
the primary focus, which is the education of children that are 
attending or have attended a Bureau of Indian Education 
boarding school. Instead, Congress should focus on fixing the 
problem and aiding the administration in ensuring the schools 
are safe and fully staffed by qualified individuals who can 
provide the best education and environment for these children.
    I myself have been an educator, although many of my 
colleagues can't believe I can read or write. And the subject 
is very, very sensitive to me because of my background. Many 
students came to this school for a quality, culturally relevant 
education in a safe environment, and I know that everyone in 
this room can agree that this is what we want and what every 
young student deserves.
    I am pleased to have a representative from the Department 
of the Interior here today, and I am looking forward to working 
with both the Administration as well as the Committee that has 
jurisdiction over Indian education. Thank you, Mr. Chairman.

    [The prepared statement of Mr. Cook follows:]
Prepared Statement of the Hon. Paul Cook, Ranking Member, Subcommittee 
              for Indigenous Peoples of the United States
    Thank you, Chairman Gallego, and thank you to our witnesses for 
being here today. I know several of you traveled a distance to be with 
us.
    In today's hearing, we will discuss the serious challenges facing 
schools that provide education to Native American and Alaska Native 
students, specifically at one of the four off-reservation boarding 
schools in Salem, Oregon, the Chemawa Indian School which is operated 
by the Bureau of Indian Education.
    In 2017, Oregon Public Broadcasting released a series reporting on 
tragic events that many of our witnesses today will be discussing.
    In recent years, Congress has learned a great deal about the 
disgraceful conditions impacting Native American schools. The Education 
and Labor Committee began exploring this crisis, and held hearings from 
2015-2018, which revealed absolutely appalling details.
    The Government Accountability Office has also released several 
reports over the last decade documenting that the disorganized 
bureaucracy and poor communication make it difficult, if not 
impossible, for these schools to receive the services and support they 
desperately need.
    The purpose of today's hearing should not be about assigning blame 
to any one person or administration. There is plenty of blame to go 
around. My hope is that we can understand the root causes of these 
persistent challenges and focus on achieving better results.
    I encourage my colleagues to avoid political distractions that 
would merely shift the focus away from the children who are currently 
attending, or have attended, a Bureau of Indian Education boarding 
school. Instead, Congress should focus on aiding the Administration in 
ensuring schools are safe and fully staffed by qualified individuals 
who can provide the best education and environment for these children.
    Many students came to the Chemawa school for a quality, and 
culturally relevant, education in a safe environment. I know that 
everyone in this room can agree that this is what every young student 
deserves.
    Additionally, I am pleased to have a representative from the 
Department of Interior here today.
    I am looking forward to working with both the Administration as 
well as the Committee that has jurisdiction over Indian education.
    Thank you, Mr. Chairman.

                                 ______
                                 

    Mr. Gallego. Thank you, Ranking Member Cook.
    I would like to now welcome our distinguished witnesses on 
Panel 1. Our first witness for this panel is Ms. Celeste 
Karzon--I apologize if I say any names inappropriately--a 
former teacher at the Chemawa Indian School and an Anishinaabe 
woman from the Bay Mills Indian Community. Next is Ms. Beatrice 
Willis, parent of former Chemawa student Marshall Friday, and 
enrolled member of the Northern Arapaho Tribe.
    Then we have Ms. Treasa Keith, parent of former Chemawa 
student Melissa Abell and an Alaska Native of the Athabascan 
Tlingit and Haida Tribes. And finally, we have Ms. Joy 
O'Renick, former teacher at the Chemawa Indian School and long-
time educator.
    Let me remind the witnesses that under our Committee Rules, 
they must limit their oral statements to 5 minutes, but their 
entire statement will appear in the hearing record. When you 
begin, the lights on the witness table will turn green. After 4 
minutes, the yellow light will come on, and once you hit 5 
minutes, please stop. That means the red light has come on. I 
will also allow the entire panel to testify before Members 
begin questioning the witnesses.
    The Chair now recognizes Ms. Celeste Karzon.

  STATEMENT OF CELESTE KARZON, FORMER TEACHER, CHEMAWA INDIAN 
                     SCHOOL, SALEM, OREGON

    Ms. Karzon. Subcommittee Chairman Gallego and Ranking 
Member Cook, thank you for inviting me to testify before you 
this afternoon. My name is Celeste Karzon, and I am a member of 
the Bay Mills Indian Community in Brimley, Michigan. I worked 
as a teacher at Chemawa Indian School for almost 6 years. From 
the moment I was offered a position at Chemawa, there were red 
flags that it was not a healthy, functioning school.
    On the first day of school, I was still waiting to learn 
about my teaching load and schedule. I had no roster and no 
teaching materials, no ability to prep. Students wandered the 
building without direction. The first day of that first year 
was a signal of things to come.
    I felt particular concern for the well-being of students at 
Chemawa. They suffered from depression, isolation, loneliness, 
and homesickness on a regular basis. Though the school had 
access to behavioral health services from the Indian Health 
Service, which was on our campus, students were limited in 
their ability to request and receive help. Sadly, one student 
who was actively suicidal was discharged from school rather 
than given wraparound services. When she returned home, she was 
successful in her suicide attempt.
    Supervisors at the school focused on liability rather than 
high-quality instruction and a healthy learning environment. 
They seemed to operate based on fear of BIE sanctions rather 
than on what was best for creating a healthy school climate. 
The result was a loss of the human element that is so critical 
to effective and impactful education.
    High-level supervisors were based in Albuquerque and were 
detached from the students and faculty they were supposed to 
oversee. It broke the line of communication and hampered 
authentic supervisions. Despite these and other warning signs, 
I was fully committed to my teaching position and, frankly, 
honored to be teaching Native students, which is deeply 
personal to me. This is what I set out to do and is what kept 
me at Chemawa.
    I always received exemplary teaching reviews. My teaching 
practice was never under scrutiny. In fact, I was a teacher 
whose classroom was showcased when high-profile visitors, such 
as our supervisors from Albuquerque, would come in. But I was 
personally unsettled and uncomfortable with the school.
    I was particularly disturbed by how little student well-
being and safety was emphasized. School culture was broken or 
absent. For example, students were filming fights in the dorms 
and posting them on YouTube without consequence. I was very 
concerned about their safety, and raised this issue with my 
supervisor.
    Rather than address the fighting, the response was an 
emphasis on the division between the dorms and academics. 
Teachers, including me, were told to stay out of dorm life. 
This was a typical response to any concern. A bureaucratic 
division of responsibilities and strict chain of command 
prevented us from reaching any solutions to any problem, no 
matter the size.
    Dorm safety in particular was a siloed issue that teachers 
were not to speak about. If we tried to, it was interpreted as 
calling into question the professionalism and training of the 
dorm staff. The issue of student safety in the dorm was never 
discussed in faculty meetings or openly. In fact, my supervisor 
directed all staff to refrain from sending e-mails or otherwise 
trying to start a conversation about student safety.
    I was highly concerned with the lack of ethics at the 
school. In one instance, I came under pressure to change an 
11th grade English student's grade from an F to a D. When I 
requested to meet with the family rather than change the grade, 
a guidance counselor sat in on the meeting with the student's 
transcript. I saw that not only had he passed my class on the 
transcript, but he was getting credit for two additional 
English classes that he did not take.
    On another occasion I was harassed when I refused to sign 
documents saying I was in special education meetings that I 
never attended. My refusal to partake in unethical and illegal 
behavior regarding students with disabilities turned me into a 
target of the special education department. My complaints to my 
supervisor, my first contact in a strict chain of command, went 
unanswered despite repeat follow-ups.
    Whether it was in regards to harassment from a hostile co-
worker, or concerns about troubled students, or major 
infrastructure issues such as a leaky roof and a freezing 
classroom in the winter, I followed the chain of command with 
as much fidelity as possible.
    I first went to my supervisor and then to her direct 
supervisor, the superintendent. He informed me that he was not 
allowed to communicate with or provide supervision to my 
supervisor, and therefore his hands were tied. Our area 
director was never available and school board meetings were 
closed to faculty.
    With no other place to turn, I decided to send an e-mail to 
the deputy director of the BIE. In response, I got a letter of 
reprimand, and this is when the retaliation began. I was forced 
into professional isolation from other faculty because I was 
afraid that if I complained about anything, I would have 
further disciplinary measures taken against me.
    These boarding schools were founded to ``kill the Indian 
and save the child.'' While much has changed, unfortunately at 
some of these schools we are not even saving the child.
    Thank you for providing me with this opportunity.

    [The prepared statement of Ms. Karzon follows:]
 Prepared Statement of Celeste Karzon, Former Teacher, Chemawa Indian 
                                 School
    Subcommittee Chairman Gallego and Ranking Member Cook, thank you 
for inviting me to testify before you this afternoon. My name is 
Celeste Karzon and I am a member of the Bay Mills Indian Community in 
Brimley, Michigan. I worked as a teacher at Chemawa Indian School, a 
Bureau of Indian Education (BIE) boarding school located in Salem, 
Oregon, for almost 6 years. This school is one of four boarding schools 
that is run by the BIE and not by a tribe or tribal organization. 
Chemawa educates and houses approximately 280 students from at least 13 
tribes.
    From the moment I was offered a position at Chemawa there were red 
flags that it was not a healthy, functioning school. On the first day 
of school I was still waiting to learn about my teaching load and 
schedule. I had no roster and no teaching materials. Students wandered 
the building without direction. The first day of that first year was a 
signal of things to come.
    As a teacher, typically you're given a schedule and guidance on 
coursework so you can develop a curriculum over the summer months. Yet 
each year at Chemawa the other teachers and I didn't know what we were 
teaching until the first day of school or sometimes later. That meant 
there was absolutely no time to prep our curricula. The first weeks of 
school were always chaotic.
    I felt particular concern for the well-being of students at 
Chemawa. They suffered from depression, isolation, loneliness, and 
homesickness on a regular basis. Though the school had access to 
behavioral health services from the Indian Health Service which was on 
our campus, students were limited in their ability to request and 
receive help. Sadly, one student who was actively suicidal was 
discharged from school rather than given wraparound services. When she 
returned home, she was successful in her suicide attempt.
    Supervisors at the school focused on liability rather than high-
quality instruction and a healthy learning environment. They seemed to 
operate based on fear of BIE sanctions rather than on what was best for 
creating a healthy school climate. High-level supervisors were based in 
Albuquerque and were detached from the students and faculty they were 
supposed to oversee. It broke the line of communication and hampered 
authentic supervisions. The result was a loss of the human element that 
is so critical to effective and impactful education.
    Despite these and other warning signs, I was fully committed to my 
teaching position and frankly, honored to be teaching Native students, 
which is deeply personal to me. This is what I set out to do, and it 
was what kept me at Chemawa.
    I always received exemplary teaching reviews--my teaching practice 
was never under scrutiny. I was a high performing teacher with 
documented accolades and glowing reviews from supervisors for student 
academic growth and helping students achieve years of advancement. In 
fact, I was a teacher whose classroom was showcased when high-profile 
visitors such as our supervisors from Albuquerque would come in.
    But I was personally unsettled and uncomfortable with the school.
    I was particularly disturbed by how little student well-being and 
safety was emphasized--school culture was broken or absent. For 
example, students were filming fights in the dorms and posting them on 
YouTube without consequence. I was very concerned about their safety 
and raised this with my supervisor. Rather than address the fighting, 
the response was an emphasis on the division between the dorms and 
academics--teachers, including me, were told to stay out of the dorm 
life. This was a typical response to any concern--a bureaucratic 
division of responsibilities and strict chain of command prevented us 
from reaching any solutions to any problem, no matter the size.
    Dorm safety in particular was a siloed issue that teachers were not 
to speak about. If we tried to, it was interpreted as calling into 
question the professionalism and training of the dorm staff. The issue 
of student safety in the dorm was never discussed in faculty meetings 
or openly. In fact, my supervisor directed all staff to refrain from 
sending e-mails or otherwise trying to start a conversation about 
student safety.
    I was highly concerned with the lack of ethics at the school. In 
one instance, I came under pressure to change a 9th grade English 
student's grade from an F to a D. When I requested to meet with the 
family rather than change the grade, a guidance counselor sat in on the 
meeting with the student's transcript. I saw that not only had he 
passed my class on the transcript, but he was getting credit for two 
additional classes that he did not take.
    On another occasion, I was harassed when I refused to sign 
documents saying I was in special education meetings that I never 
attended. My refusal to partake in unethical and illegal behavior 
regarding students with disabilities turned me into a target of the 
special education department. My complaints to my supervisor, my first 
contact in a strict chain of command, went unanswered despite repeated 
follow-ups.
    Whether it was in regards to harassment from a hostile coworker or 
concerns about troubled students, or major infrastructure issues such 
as a leaky roof and freezing classroom in the winter, I followed the 
chain of command with as much fidelity as possible. I first went to my 
supervisor and then to her direct supervisor, the superintendent. He 
informed me that he was not allowed to communicate with or provide 
supervision to my supervisor, and therefore his hands were tied. Our 
area director was never available and school board meetings were closed 
to faculty.
    With no other place to turn, I decided to send an e-mail to the 
Deputy Director of the BIE, describing these and other very serious 
issues at Chemawa. In response, I got a letter of reprimand on 
Department of the Interior letterhead for breaking the chain of 
command. This is when the retaliation began.
    My direct supervisor stopped speaking to me. This was 3 years into 
my 6-year tenure. My classroom was moved to the only room at the school 
without windows. No other teachers were moved. School staff started 
rumors about my mental health status and I heard through the grapevine 
that staff were also discussing behind my back that I should quit.
    After the reprimand letter, I had no voice. I was forced into 
professional isolation from other faculty because I was afraid that if 
I complained about anything, I would have further disciplinary measures 
taken against me. What was worse, all the underlying problems as 
Chemawa that I had raised were completely ignored. Students still 
fought in the dorms, staff still made unethical decisions about 
students and the buildings were falling apart.
    Three years later, I was offered a 1-year position with Portland 
Public Schools--an opportunity to transition out of Chemawa in what was 
a tight job market. I sought and received my supervisor's approval to 
take the position in October 2014. I was hesitant about a mid-year 
departure and suggested that staying at Chemawa was an option, too. She 
encouraged me to leave.
    I then received a letter from the Teacher Standards and Practices 
Commission, the governing body of teacher licensure for the state of 
Oregon, in January 2015. It was filed by my former superintendent and I 
was subsequently investigated for my mid-year departure and the amount 
of notice I gave Chemawa. I was questioned in the spring of 2015, just 
as I began looking for a permanent teaching position for the 2015-16 
school year.
    Each application asked about the status of my teaching license, and 
mine was under investigation. It prevented me from getting a job for 
the 2015-2016 school year. My former supervisor admitted in her 
interview that she had assured me I could take the position without any 
repercussions. Ultimately, the investigation was resolved in my favor 
but not before hurting my career. I believe Chemawa employees filed the 
complaint in retaliation to prevent me from getting a new job.
    I am now teaching high school at a charter school in Washington, DC 
and it is going really well, but because of retaliation, I have endured 
some very significant personal and professional hardships.
    Stepping away from my personal experience, one of the biggest 
problems with Chemawa in my opinion is that oversight is too far 
removed from the local needs of the school. We, the teachers at the 
school, were trying to run a school with real students but were 
hampered by layers of bureaucracy and disconnect.
    If I could make a few recommendations to improve conditions at 
Chemawa, I would start with the following: ensure that the supervisory 
chain of command has more physical proximity to the location of the 
schools; that supervisors are more involved in the day-to-day 
operations of the schools; that those in administrative positions 
contribute to the daily operations of the school. Our chain of command 
was so far removed from the school that the concerns teachers and staff 
raised were not experienced, observed or felt by our leadership. 
Furthermore, the closer links on the chain of command spent a 
tremendous amount of energy trying to shield leadership from some very 
serious issues, to the detriment and harm of students.
    I would also recommend the integration of teaching faculty, dorm 
staff, behavioral health staff and others who can provide a better 
safety net to students, many of whom we know are in trouble. We must 
ensure that the students who are entrusted to us get the most exemplary 
integrative services that can be provided, including academic, 
behavioral, medical and any other kinds of services and supports they 
need.
    These boarding schools were founded to ``kill the Indian and save 
the child.'' While much has changed, unfortunately, at some of these 
schools, we are not even saving the child. Institutions of learning for 
Native American youth should nurture the minds, bodies, and souls of 
its students. We can and must do better for our students.
    Thank you for providing me with the opportunity to share my 
experience today. I am happy to answer any questions you may have.

                                 ______
                                 

    Mr. Gallego. Thank you.
    The next witness, we will have Ms. Beatrice Willis.

STATEMENT OF BEATRICE WILLIS, PARENT OF FORMER STUDENT MARSHALL 
          FRIDAY, CHEMAWA INDIAN SCHOOL, SALEM, OREGON

    Ms. Willis. Mental and behavioral health issues are a 
neglected area at Bureau of Indian Education-run schools for 
Native American students. And when the schools are aware of 
these problems, many of the parents are never informed. This is 
what happened to my son, Marshall Everett Friday III, a student 
at Chemawa Indian School during all four of his high school 
years.
    He was sent home several times for behavioral health-
related issues, and attended other public schools in Washington 
and Oregon as well. Many of the write-ups he received were said 
to be bogus by many of the school staff. Many said that 
Marshall had most likely been singled out.
    There were many more severe issues with Marshall. He was 18 
years old when he died in Tualatin, Oregon on May 30, 2017, 
just 2 weeks after his high school graduation from Chemawa. 
Unknown to me, Marshall was suffering from severe depression 
with suicidal ideations and had been hearing voices telling him 
to hurt himself since 2014.
    Marshall had told me he was on medication for depression 
and anxiety, and the school and clinic never informed me of 
anything different. Our family believes he turned to drugs 
because he could not get his medications, and he was using air 
duster to get relief from the mental issues affecting him. 
Marshall also suffered from untreated ADHD, although the school 
knew that he had this disorder.
    Marshall died from a toxic amount of the chemical found in 
air duster, which caused him to have a massive heart attack. I 
found him turned on his side, face-down, in his room at 10:14 
p.m. He died at 5:26 a.m. the following morning. He was brain-
dead before he reached the hospital.
    Marshall was using other drugs as well as air duster to 
lessen the effects of his mental conditions. Marshall had 
medication refills for his issues sitting at the Indian Health 
Service clinic the Friday before he died. The clinic refused to 
send those pills to him, and we lacked the funds to go down and 
pick them up that day. We live less than 50 miles from Chemawa.
    Marshall finished school early in March and would go back 
to walk with his class on May 12. In early April, Marshall was 
told by the school he could not attend prom or any other 
functions at the school, public or private, since he was no 
longer a student there, although other alumni are allowed to 
attend any public events. Marshall was told he could not even 
be involved in Senior Week activities at the school.
    That same week in April, Marshall was sent to the hospital 
for abusing air duster as well as cited by police for abusing 
the chemical. Marshall would have four police contacts and two 
emergency room visits where he was found unresponsive on the 
side of the road within a 1-month period.
    The school was not totally at fault. I had set up an 
evaluation for Marshall at a local substance abuse center but 
had accidentally told him to go to the wrong center on his 
appointment date. We never made another appointment. I believed 
he had stopped. All the odors and all the signs associated with 
use, police calls, emergency room visits, scrapes and bruises 
he had when he was using, were gone.
    During his junior year, Marshall had suffered from chest 
pains while running track, although it was not known to myself 
until Marshall told me. The school never called. He was later 
sent to a facility in Keizer, Oregon to receive tests on his 
heart, and I have never been told what facility or what the 
results of those tests were still.
    Marshall suffered from a massive heart attack that left him 
brain-dead and his organs slowly dying and giving out over the 
course of the night of May 29-30. After being revived three 
times, we decided to let him go. His heart rate would not stay 
up high enough to keep him alive.
    Marshall is buried at Friday Cemetery in Ethete, Wyoming. 
The results of his autopsy showed he had an open heart murmur. 
I remember the staff at the school told me on one occasion that 
when a parent allows their child to attend Chemawa, they 
basically make their child a ward of the court and the school 
becomes parentis ad litem, or the child's guardian, while they 
were in school.
    In BIE boarding schools for Native American students, they 
must justify a need to go by getting permission from their 
Tribal Social Services. The school also makes them apply for 
Medicaid in order to use any outside facilities for medical 
treatment besides the clinic there in Keizer.
    Since Marshall's death, proposed Federal legislation is now 
being drafted, and hopefully presented to the U.S. legislature 
in the near future, to help protect students with mental and 
behavioral health issues. Our family hopes to see a memorial 
scholarship fund and a small business grant program put in 
place.
    Baldwin, Crocker & Rudd of Lander, Wyoming are drafting the 
bill and are leading the promotion of the draft, along with our 
family. It is to be called the Marshall Friday Plan and is to 
help children with behavioral health issues and their families 
to know more about them. Myself, the tribal lawyers, Lee 
Spoonhunter, Chairman of our Tribe, and Andrea LeBeau-Clifford 
hope to be here to present that.
    [Speaking Native language]. Thank you for your time.

    [The prepared statement of Ms. Willis follows:]
   Prepared Statement of Beatrice Willis, Parent of Marshall Friday, 
                former student at Chemawa Indian School
    Mental and behavioral health issues are a neglected area at Bureau 
of Indian Education run boarding schools for Native American students, 
today. And, when the schools are aware of these problems, many parents 
are never informed.
    This is what happened with my son, Marshall Everett Friday II who 
was a student at Chemawa Indian School during all four of his high 
school years, although he was sent home several times for behavior-
related issues and also attended other public schools in Washington and 
Oregon. Many of the write-ups he received were said to be bogus by many 
school staff as well as Ted Mack, former Superintendent at the school, 
who said Marshall was singled out.
    But there where more severe issues related to my son. Marshall was 
18 years old when he died in Tualatin, Oregon. He died May 30, 2017, 
just 2 weeks after his graduation from Chemawa.
    Unknown to me, Marshall was suffering from severe or manic 
depression with suicidal ideations and had been hearing voices telling 
him to hurt himself since 2014. Marshall had told me he was on 
medication for depression and anxiety and the school and clinic never 
informed me of it. He turned to drugs because he could not get his 
medications and he used air duster to get relief from the mental issues 
affecting him.
    Marshall also suffered from untreated ADHD although the school knew 
he had this disorder.
    Marshall died from a lethal amount of the chemical found in air 
duster, 1,1-difluoroethane, which caused him to have a massive heart 
attack. I found him turned on his side, face down in his room at 10:14 
p.m., and he died at 5:26 a.m. the following morning. He was brain dead 
before he reached the hospital.
    Our family believes Marshall was using other drugs as well as air 
duster to lessen the effects of his mental conditions. Marshall had 
medication refills for his issues sitting at the Indian Health Clinic 
the Friday before he died. The clinic refused to send those pills to 
him and we lacked funds to get gas to pick them up, less than 50 miles 
from our Tualatin home.
    Marshall finished school early in March and would go back to walk 
with his class on May 12, 2017. In early April, Marshall was told by 
the school he could not attend prom or any other functions at the 
school, public or private, since he was no longer a student there. 
Although other alumni are allowed to attend public events, Marshall was 
told he could not.
    That same week in April, Marshall was sent to the hospital for 
abusing air duster as well as cited by police for abusing the chemical. 
Marshall would have four police contacts and two emergency room visits 
in the time he was using in less than a 1-month period.
    The school is not totally at fault. I had set up an evaluation for 
Marshall at a local substance abuse center but accidentally told him to 
go to the wrong center on his appointment date. We never made another 
appointment as Marshall said he quit huffing and he no longer exhibited 
the signs of use and I believed he had stopped. All the odors 
associated with use, police calls, emergency room visits and scrapes 
and bruises he had when he was using were gone.
    During his junior year, Marshall had suffered from chest pains 
while running track. Although it was not known to myself until Marshall 
told me. He was later sent to a facility in Kaiser, Oregon for heart 
tests by the Indian Health Service clinic utilized by Chemawa, although 
I was ever informed of the results of those tests and still do not know 
what center of hospital he was sent to for them.
    Marshall suffered a massive heart attack that left him brain dead 
and his organs slowly giving out during the course of the night of May 
29-30, 2017. After being revived three times, chest bones broken and 
his family seeing tubes sticking out of all different parts of his 
body, the decision was made to let him go. His heart rate had continued 
to drop and medications could not keep it high enough.
    Results of Marshall's autopsy showed an open heart murmur the 
clinic used by the school knew about, as well as our family, according 
to records obtained from the school, all of which have been submitted 
for your review.
    Ryan Cox, of the school told me on one occasion that when a parent 
allows their child to attend Chemawa they basically make their child a 
ward of the court and the school becomes parentis ad litem or the 
child's guardian while attending the school. In BIE boarding schools 
for Native Americans, students must justify a need to go to these 
schools by getting permission from their tribally run Child Protection 
Services.
    Chemawa does not feel the need to inform parents of mental or 
behavioral health conditions due to that reason and to the fact that 
all children in Oregon are able to apply for medical insurance through 
the state at the age of 15, according to Ryan Cox. He also said the 
school has a requirement that all students at the school must apply for 
Medicaid, and use the Indian Health Service clinic located in Kaiser, 
Oregon or to receive any medical services outside of the clinic.
    All other schools in the Nation, besides those run by BIE, are 
required to inform parents of their children's mental or behavioral 
health issues if they are known by the school but unknown to the 
parents.
    Marshall is buried at Friday Cemetery in Ethete, Wyoming.
    After Marshall's death Federal legislation is now being drafted to 
present to the U.S. Legislature to help protect students with these 
issues when they leave school or are no longer in an educational 
setting.
    I hope to someday set up a memorial fund in his memory to help 
provide scholarships to any former college or vocational student who 
have no way to return on their re-enter into higher education program. 
I also envision the memorial fund to be a source of small business 
grants on our home reservation, Wind River in Central Wyoming for 
tribal members there, both Northern Arapaho and Eastern Shoshone. 
Baldwin, Crocker, & Rudd would be in charge of the dispersing all 
monies from the Marshall Friday Memorial Scholarship and Small Business 
Grant Program. They are currently the lawyers for the Northern Arapaho 
Tribe.
    Marshall, his siblings and I are all enrolled members of the 
Northern Arapaho Tribe.
    Baldwin, Crocker, & Rudd of Lander, Wyoming, are drafting the bill 
and are leading the promotion of the draft, along with the family of 
Friday.
    The focus is to keep families informed of their children's issues 
so they can better help their children deal with them. ``The Marshall 
Friday Plan'' will be presented by Baldwin, Crocker, & Rudd; Lee 
Spoonhunter, chairman of the Northern Arapaho Tribe; Andrea LeBeau-
Clifford, Wyoming State Legislator; myself, Beatrice Irene Martel-
Willis, mother of Marshall E. Friday III; and his siblings, Marisha 
Evette Friday, Chester John Friday and Robert Earl Friday.
    Anyone wanting more information on the proposed Federal legislation 
can contact Andy Baldwin, Berthenia Crocker, or Kelly Rudd, of Baldwin, 
Crocker, & Rudd. For more history see ``Life and Death at Chemawa 
Indian School,'' by Rob Manning of Oregon Public Broadcasting.
                              bibliography
``Today's Remaining Native American Boarding Schools Are a Far Cry from 
Their History''; wyomingpublicmedia.org (last visited May 3, 2019).

``How Boarding Schools Tried to `Kill the Indian' Through 
Assimilation''; History.com (last visited April 30, 2019).

Rob Manning, Life and Death at Chemawa Indian School, Oregon Public 
Broadcasting (October 2017, 9:20 p.m.), https://www.opb.org/news/
series/chemawa/chemawa-indian-school-student-safety-salem-oregon/.

The Marshall Friday Plan, U.S. Legislature, (future proposed 
legislation); Andy Baldwin; Rudd, Kelly; Baldwin, Crocker, & Rudd; 
Lander, WY (April 2019).

                                 ______
                                 

    Mr. Gallego. Thank you for your testimony.
    Next we will have Ms. Treasa Keith.

  STATEMENT OF TREASA KEITH, PARENT OF FORMER STUDENT MELISSA 
          ABELL, CHEMAWA INDIAN SCHOOL, SALEM, OREGON

    Ms. Keith. My name is Treasa Keith. My daughter was Melissa 
Abell. She passed away at the Chemawa dorm room on December 14, 
2014. It was her senior year, and--I cannot read this. I have 
just got to speak how I feel.
    We had a really hard time after finding out. It is hard to 
get that phone call that your child is no longer alive and you 
need to go see her. But when we got there and we got no 
information other than they really didn't know what happened. 
Later on I had requested the autopsy reports. We had requested 
the police reports, anything we could, and later on found out 
that my daughter laid there struggling for her life.
    Her roommates and her friends ran to try to find staff. 
Staff was nowhere to be found. They went back to try to help 
her again. And then they went to try to find staff again, which 
they finally successfully found staff, and that staff member 
then called over the CB--whatever kind of code they use. The 
other staff members said that it was a code for a fight. So, 
while my daughter laid there fighting for her life, everybody 
thought that was a fight in her dorm room and not that it was a 
medical emergency.
    I wish my husband was here because he remembers so much 
more than I do. While we were there, we were asked if we were 
going to be taking any kind of legal action. And at the time, I 
was just, ``No.'' I mean, I was in a state of shock. And they 
told us that was a good thing because it might be the end of 
Chemawa if we did.
    And in the past 4 years, we have tried contacting people. 
We have tried doing legal things and stuff. And not knowing 
where I can go or what we can do, it was more people thought 
that I wanted to sue Chemawa. It is not about money. There is 
no amount of money that will make me feel better.
    What will make me and Melissa's family and her friends and 
other children and parents at Chemawa feel better is to better 
their trainings, better their schooling on their health, their 
safety, things like that. My heart goes out to the girls who 
were there that were trying to save my daughter's life because 
no child should have to see that. No child should have to be 
put in that position.
    The safety of our kids, that is our future. We were raised 
that you teach your children and you honor your elders. And I 
just don't feel that they were there for my daughter. And the 
more I see, the more I don't think--changes need to be made.
    And I would like to thank you for having this because I 
feel like, finally, something might be done. Something might 
come to light. And it is a good place for the kids because the 
kids need that. But they need to be safe. They need to be cared 
for. Thank you.

    [The prepared statement of Ms. Keith follows:]
          Prepared Statement of Treasa Keith, grieving mother
    This is extremely emotional for me. I am here today because we lost 
our daughter Melissa Abell December 14, 2014 while she was attending 
Chemawa Indian School. When she left for her Senior year she was in 
good health. This devastation has changed our lives forever.
    While we were there to see our daughter's lifeless body, we were 
asked many questions. The one that concerns me most is ``Are you going 
to take legal action?'' on the response no, their response was if we 
did it would more than likely be the end of Chemawa. Why even say 
something like this!
    I don't understand why it was hard for her roommates to find help 
and why it took so long. The other girls should not have had to search 
for staff more than once. Staff should have had a better code to call 
for help, instead the other staff thought it was a fight. Not a medical 
emergency! If there isn't proper staff for all the students, then there 
should not be as many students.
    The minutes in delay resulted in Melissa's death. While her friends 
watched and tried to help. It broke my heart even more to read the 
police report, to hear step by step what took place while our daughter 
was fighting for her life! Melissa had more friends by her side helping 
her than there was staff.
    As soon as I was contacted about this hearing, I felt relieved. 
Thinking, finally someone is going to make a change!! No more of our 
children should die due to negligence of the schools!
    I am not a good writer, so I am going to start speaking from my 
heart.
    Thank you.

                                 ______
                                 

    Mr. Gallego. Thank you, Ms. Keith.
    Our final witness on this panel is Ms. Joy O'Renick.

   STATEMENT OF JOY O'RENICK, FORMER TEACHER, CHEMAWA INDIAN 
                     SCHOOL, SALEM, OREGON

    Ms. O'Renick. Thank you, Chairman Gallego and Ranking 
Member Cook.
    I have heard it said that institutions get the exact 
results they are organized to get. Nothing could be more true 
of Chemawa Indian School. In many ways, Chemawa's boarding 
school status gives it the ideal situation to ensure 
outstanding education and opportunity for Native American 
youth. Unlike many schools, Chemawa doesn't face the challenge 
of educating students who go home to traumatic or unstable home 
environments each night.
    That is not to understate the difficulties that many 
Chemawa students bring with them to school, including chemical 
dependency, lack of previous education, family trauma, and 
legal troubles. Despite these complex circumstances, Chemawa 
truly can and should be a refuge for students, where they can 
focus on creating opportunities for themselves through 
education. However, the low expectations and inconsistency of 
school administration and a murky accountability system have 
created an organization at Chemawa that repeatedly sets 
students up to fail--or worse.
    Students often come to Chemawa with drug and alcohol 
dependency. Many of my students shared with me that they had 
been in treatment multiple times before ninth grade. Because of 
this reality for students, it is the administration's 
responsibility to plan for needs by investing in counseling, 
medical support, and consistent supervision. None of these 
exist for Chemawa students, and administration cites lack of 
funding as the reason, though they spend freely on less urgent 
expenses.
    Instead of receiving needed support, students are expected 
to simply detox on campus, sometimes from years of daily use, 
and any behaviors that accompany this process can be used as 
strikes against them toward expulsion. Additionally, 
chemically-dependent students are poorly supervised and faced 
with ever-changing rules, setting them up to fail and often to 
seek relief through accessing drugs or alcohol on campus.
    Even prescription medications, including for significant 
psychiatric and physical needs, go unfilled for weeks at a time 
each fall, endangering students and those around them. 
Ironically though, the administration refuses to support 
students in recovering from addiction, drug use is often the 
grounds used to send students home once the school receives a 
full year's funding for them on ``count day'' in late winter.
    Although Chemawa exists to provide a high-quality education 
and home away from home for Native American students, few 
students who start the year at Chemawa remain until May. In 
2009, 36 percent of students were sent home before the end of 
the school year. In 2011, one of my English classes went from 
28 students to 6 students between ``count day'' and year's end. 
I find it difficult to imagine the backlash most public schools 
would receive if they expelled 36 percent of their students in 
1 year.
    This begs the question: Why is such a result acceptable at 
a Native school? Students are sent home for reasons that are 
unclear to students and staff, and without due process. In 
January 2011, one of my most promising students, Flint Tall, 
was sent home for arguing with the school counselor. This was 
despite his incredible gains in academics and behavior, and a 
recent nomination into Honors English.
    I, and other staff, advocated for Flint, but the 
administration ignored our pleas and those of his mother. A few 
weeks later, we received word that Flint had been killed in a 
car accident. Later, I learned that he had not been allowed 
back in school at Pine Ridge--partially due to Chemawa's 
reports from what we understood--and had spent weeks aimlessly 
until he finally lost his life in a drunk driving accident at 
15. The response from many staff members: Get used to it. This 
happens all the time.
    Students who experience harm while under Chemawa's care are 
treated with indifference. In my first 2 months at Chemawa, one 
of my Special Education students arrived to my class sobbing. 
When we spoke in the hall, she told me that she had been raped 
on campus the night before. Not only that, her attacker was the 
boy sitting directly behind her in my classroom.
    I later learned that she had reported her attack to the 
Chemawa administration the night before. Admin had not provided 
her counseling or medical treatment, had not separated her from 
her alleged attacker, and stated that they were not giving 
credibility to her report because she was Special Education and 
probably confused.
    The principal and counselor at the time quickly put her and 
her alleged attacker on planes back to their respective 
reservations rather than investigating or supporting the 
students, denying the young lady nearly a year of education 
because she had reported being assaulted, and ensuring that the 
young man faced no accountability if he had raped her.
    These examples of student harm are merely two among 
countless. Chemawa's violations of Special Education law under 
IDEA have been so numerous that a former SpEd teacher was 
eventually fired as a troublemaker for reporting them--he won a 
wrongful termination suit and was paid restitution--and 
students with special needs have not historically received 
federally mandated services. It is my understanding from 
current staff that such violations continue today.
    Although Chemawa sits on several hundred acres that have 
been long rented out for various commercial uses, Chemawa's 
leadership has repeatedly refused to disclose where the money 
is going, despite repeated requests from staff, the media, and 
the school board. Not long after I left, I received information 
that Chemawa had been audited by the IRS and significant issues 
around misuse of student funding were found.
    One of the greatest barriers to accountability and proper 
oversight for schools like Chemawa is the lack of clarity 
regarding jurisdiction. Chemawa is federally funded, Oregon 
state-licensed, and loosely supervised by a line office in New 
Mexico. In my many attempts to report serious concerns, I was 
frequently unable to find out who was responsible for which 
area of accountability. I believe this is where the greatest 
opportunity for harm takes place. Because no one knows who is 
in charge of oversight at Chemawa, there is no meaningful 
oversight at Chemawa.
    In my nearly 15 years as an educator, I have rarely met 
students as resilient, thoughtful, creative, and capable as the 
students I had the privilege to teach at Chemawa. The current 
state of Chemawa is robbing these incredible youths of their 
promise, and sometimes even their lives.
    Bold organizational changes must be made so that a Chemawa 
run by ethical, culturally responsive educators focused on 
student good creates excellence in education, and begin to 
reverse the opportunity gap that currently exists for Native 
American students. This Chemawa is possible, and with your 
support and oversight, I have great hope that it will finally 
exist at last.

    [The prepared statement of Ms. O'Renick follows:]
  Prepared Statement of Joy O'Renick, Former Teacher, Chemawa Indian 
                                 School
    I have heard it said that institutions get the exact results they 
are organized to get. Nothing could be more true of Chemawa Indian 
School, an off-reservation boarding school for Native American students 
in Salem, Oregon. In many ways, Chemawa's boarding school status gives 
it the ideal situation to ensure outstanding education and opportunity 
for Native American youth. Unlike many schools, Chemawa doesn't face 
the challenge of educating students who go home to traumatic or 
unstable home environments each night. That is not to understate the 
difficulties that many Chemawa students bring with them to school, 
including chemical dependency, lack of previous education, family 
trauma, and legal troubles. Despite these complex circumstances, 
Chemawa truly can and should be a refuge for students where they can 
focus on creating opportunities for themselves through education. 
However, the low expectations and inconsistency of school 
administration and a murky accountability system have created an 
organization at Chemawa that repeatedly sets students up to fail--or 
worse.
    Students often come to Chemawa with drug and alcohol dependency. 
Many of my students shared with me that they had been in treatment 
multiple times before 9th grade. Because of this reality for students, 
it is the administration's responsibility to plan for needs by 
investing in counseling, medical support, and consistent supervision. 
None of these exist for Chemawa students, and administration sites lack 
of funding as the reason, though they spend freely on less urgent 
expenses. Instead of receiving needed support, students are expected to 
simply detox on campus, sometimes from years of daily use, and any 
behaviors that accompany this process can be used as strikes against 
them toward expulsion. Additionally, chemically dependent students are 
poorly supervised and faced with ever-changing rules, setting them up 
to fail and (often) to seek relief through accessing drugs or alcohol 
on campus. Even prescription medications, including for significant 
psychiatric and physical needs, go unfilled for weeks at a time each 
fall, endangering students and those around them. Ironically, though 
the administration refuses to support students in recovering from 
addiction, drug use is often the grounds used to send students home 
once the school receives a full year's funding for them on ``count 
day'' in late winter.
    Although Chemawa exists to provide a high quality education and 
``home away from home'' for Native American students, few students who 
start the year at Chemawa remain until May. In 2009, 36 percent of 
students were sent home before the end of the school year. In 2011, one 
of my English classes went from 28 students to 6 students between 
``count day'' and year's end. I find it difficult to imagine the 
backlash most public schools would receive if they expelled 36 percent 
of their students in one year. This begs the question--why is such a 
result acceptable at a Native school? Students are sent home for 
reasons that are unclear to students and staff, and without due 
process. In January 2011, one of my most promising students, Flint 
Tall, was sent home for arguing with the school counselor. This was 
despite his incredible gains in academics and behavior, and a recent 
nomination into Honors English. I and other staff advocated for Flint, 
but the administration ignored our pleas, and those of his mother. A 
few weeks later, we received word that Flint had been killed in a car 
accident. Later, I learned that he had not been allowed back in school 
at Pine Ridge, and had spent weeks aimless and intoxicated, until he 
finally lost his life in a drunk driving accident at 15. The response 
from many staff members: get used to it--this happens all the time.
    Students who experience harm while under Chemawa's care are treated 
with indifference. In my first 2 months at Chemawa, one of my Special 
Education students arrived to my class sobbing. When we spoke in the 
hall, she told me that she had been raped on campus the night before. 
Not only that, her attacker was the boy sitting directly behind her in 
my classroom. I later learned that she had reported her attack to the 
Chemawa administration the night before. Admin had not provided her 
counseling or medical treatment, had not separated her from her alleged 
attacker, and stated that they weren't giving credibility to her report 
because she was SpEd and probably confused. Amanda Ward and Ryan Cox 
(principal and counselor) quickly put her and her alleged attacker on 
planes back to their respective reservations rather than investigating 
or supporting the students, denying the young lady nearly a year of 
education because she had reported being assaulted, and ensuring that 
the young man faced no accountability if he had raped her.
    These examples of student harm are merely two among countless. 
Chemawa's violations of Special Education law under IDEA have been so 
numerous that a former SpED teacher was eventually fired as a 
troublemaker for reporting them (he won a wrongful termination suit and 
was paid restitution), and students with special needs haven not 
historically received federally-mandated services. It is my 
understanding from current staff that such violations continue today.
    Although Chemawa sits on several hundred acres that have been long 
rented out for various commercial uses, Chemawa's leadership has 
repeatedly refused to disclose where the money is going, despite 
requests from staff, the media, and the school board. Not long after I 
left, I received information that Chemawa had been audited by the IRS 
and significant issues around misuse of student funding were found.
    One of the greatest barriers to accountability and proper oversight 
for schools like Chemawa is the lack of clarity regarding jurisdiction. 
Chemawa is federally funded, Oregon state-licensed, and loosely 
supervised by a faraway line office in New Mexico. In my many attempts 
to report serious concerns, I was frequently unable to find out who was 
responsible for which area of accountability. I believe this is where 
the greatest opportunity for harm takes place: because no one knows who 
is in charge of oversight at Chemawa, there is no meaningful oversight 
at Chemawa, and unscrupulous or negligent behavior is never curbed.
    In my nearly 15 years as an educator, I have rarely met students as 
resilient, thoughtful, creative, and capable as the students I had the 
privilege to teach at Chemawa. The current state of Chemawa is robbing 
these incredible youths of their promise, and sometimes even their 
lives. Bold changes must be made so that a Chemawa run by ethical, 
culturally responsive educators focused on student good create 
excellence in education, and begin to reverse the opportunity gap that 
currently exists for Native American students. Chemawa is uniquely 
positioned to prepare the next generation of Native leaders, ensuring 
that highly qualified Native professionals are available to staff 
schools, medical clinics, and other high-leverage occupations in their 
communities and the Nation at large. This Chemawa is possible, and with 
your support and oversight, I have great hope that it will finally 
exist at last.

                                 ______
                                 

    Mr. Gallego. Thank you. Thank you again for that valuable 
testimony.
    The Chair will now recognize Members for questions, and 
under Committee Rule 3(d), each Member will be recognized for 5 
minutes. I will begin by recognizing myself for 5 minutes.
    Ms. Karzon, you noted in your testimony that students often 
suffer from depression, isolation, loneliness, and 
homesickness. When you noticed a student expressing or 
experiencing these behaviors, what policies were in place for 
you as a teacher to advocate for that student?
    Ms. Karzon. The policies in place for advocating for 
students were tenuous, cloudy, and not policy-driven. So, these 
were typically for each teacher on an individual basis--for us 
to do the work to find out what we could do for the student. 
Even though there were behavioral health services in place, 
there was no finite pipeline leading from need to help.
    Mr. Gallego. And I have a follow-up on that so you could 
clarify that more. In your opinion, were there adequate mental 
health services available on campus? Or were they there, but 
for that child or for that student to get access to it, was it 
cumbersome to get to them?
    Ms. Karzon. It is cumbersome to get to. The Indian Health 
Service is right there next to the campus, but the pipeline 
going back and forth is very confusing and there are no clear 
guidelines or policies and procedures in place for teachers to 
report concerns and have it followed up in a standardized way.
    Mr. Gallego. OK. Ms. Beatrice Willis, as a parent myself, I 
want to thank you for being here today to share your son's 
story with us.
    In your testimony, you explained how you were not informed 
of your son's medical issues, which I think any parent would 
understand is never OK. Can you describe if and when you were 
finally contacted with updates about your son from school other 
than for disciplinary actions?
    Ms. Willis. I was actually at the school after Marshall had 
his chest pains, and I had talked to the dorm supervisor and 
asked him why he had not called me to tell me about it. They 
said something about not being able to reach me or whatever and 
whatnot.
    Another time I was at the school, Marshall was being sent 
home. He was being suspended and he had not received his 
medications from the school for 5 days. He had lost his student 
ID and you have to have your student ID to have them disbursed 
to you from the medical cart.
    It was a couple days before I was getting paid, so he did 
not want to bother me with it. He did not tell me. He tried to 
do community service, which the school allows the students to 
do 4 hours of, but they had nothing for him to do. So, he went 
5 days without those meds, and I didn't know he had went that 
many days without them until I went down to the school.
    And we were in with the guidance counselor, and that is 
basically when they told me that they didn't have to tell me 
about medical concerns with my son, that all the students there 
at Chemawa are required to apply for Oregon State Medicaid, and 
that was so they could use the Indian Health Service clinic 
there and also be provided with any outside services.
    Apparently, there is a Children's Bill of Rights in Oregon 
that allows kids to apply for medical care and food stamps, to 
be able to get into housing, homeless shelters, and stuff like 
that, because of the large amount of homeless students up 
there. And although it is a Federal facility, they used that 
state law to say that they didn't have to tell me about things 
like that.
    I requested a lot of stuff after Marshall had died. I have 
been given unredacted versions. I have been told to contact the 
Bureau of Indian Education for any other things from the 
school, but I still have never received those. I have asked for 
the information on the results of his heart test from outside 
of the clinic, and I still have not received those. I mainly 
was never contacted about those things.
    Mr. Gallego. And just to be clear, so as these medical 
issues were popping up, or disciplinary issues pop up, you were 
not notified every time something came along?
    Ms. Willis. With the disciplinary----
    Mr. Gallego. Disciplinary, yes.
    Ms. Willis. Disciplinary issues they would try to contact 
you.
    Mr. Gallego. But not the medical?
    Ms. Willis. No.
    Mr. Gallego. OK. Thank you.
    Ms. Keith, thank you again for being here today and also 
sharing your daughter's story. I have a very similar question.
    Did you receive any updates about your daughter's health 
from the school while she was there?
    Ms. Keith. No. None at all. She had been to the eye doctor, 
the dentist, and the doctor and stuff, and she told me. I did 
not have the school contact me, ever.
    Mr. Gallego. So, as medical or mental health care 
occurrences occurred, you were not contacted and updated by the 
school?
    Ms. Keith. No. No.
    Mr. Gallego. Did any teachers reach out to you about your 
daughter's academic performance or experience while she was 
there?
    Ms. Keith. No.
    Mr. Gallego. Thank you.
    I recognize Ranking Member Cook for questions.
    Mr. Cook. Thank you very much for being here. I know this 
is very, very difficult. I am really, really concerned about 
the lack of oversight on some of these situations that seem to 
be repeated instances.
    And I have to be honest with you--I am from California, 
where we have a different set of rules and everything else. But 
as somebody that has been in a classroom, I am shocked. 
Normally the teacher's association, the faculty--I was academic 
senate president--and I will be honest with you, sometimes with 
the administration, we did not always get along. And sometimes 
we actually had to take action about one particular dean.
    I am going to ask you, and this might be very difficult, 
but I am looking for something that this Committee could do, 
and that is--If you had three things--real short, if you 
could--that you think this Committee could help you with in 
terms of correcting this, in terms of legislation, in terms of 
letters to and from certain individuals--under the auspices of 
this Committee, certain organizations that we should be in 
contact with, anybody on the Committee?
    Ms. Karzon. I could make a few recommendations I was not 
able to get to when I spoke to you earlier. I was----
    Mr. Cook. Excuse me. And by the way, if you do have 
recommendations that we cut off--because he always cuts me off 
on time--I would still be interested, and you can submit them 
afterwards for the record. And I would really, really like 
that.
    Ms. Karzon. OK.
    Mr. Gallego. For the record, we have a very good working 
relationship.
    [Laughter.]
    Mr. Cook. Yes, but you always watch the clock.
    Ms. Karzon. So, ensure that the supervisory chain of 
command has more physical proximity to the location of the 
schools. For example, we had our area offices located in 
Albuquerque. Our line officer was located in Seattle, I 
believe, and so their physical proximity to the school created 
several challenges that I think could be ameliorated by having 
more local jurisdiction over the school.
    That supervisors are more involved in the day-to-day 
operations of the school, and that they contribute to the daily 
operations of the school--that it will be a requirement for 
their positions.
    Mr. Cook. Anybody else?
    Ms. Willis. I think that if the school could be a little 
bit more open with us about the issues they are having with our 
kids, whether they be medical, mental health, behavioral 
health, or even just disciplinary issues, if we could be 
informed of what is going on with our children in the beginning 
and they could just be more open with us with the circumstances 
of events, then I think it would make a big change.
    Mr. Cook. How about us doing certain things, how we could 
help you?
    Ms. Willis. Our tribe, our tribal lawyers, are drafting 
what they are calling the Marshall Friday Plan right now, and 
they plan on bringing it back here to present it. It would make 
BIA schools inform us of the issues going on with our children. 
So, that is something I am really supportive of.
    Mr. Cook. Thank you. Thank you for being here.
    Ms. Willis. Thank you.
    Mr. Cook. Yes, ma'am.
    Ms. Keith. I just think holding the schools accountable for 
the negligence that is going on, and making sure that the 
policies get changed on the chain of command. And their 
communication--I mean, I am all about communication. I want to 
know how my child is doing. She is not home, and I just think 
that is important.
    Mr. Cook. Yes, ma'am.
    Ms. O'Renick. One recommendation that I would have would be 
the empowerment of the school board. The school board members 
are tribal members, typically, and have spoken out consistently 
with concerns about the things that are happening at Chemawa, 
from financial grey areas to student supervision.
    And it is my understanding that when they have requested 
information, that information has been denied repeatedly. And 
even though they are, in name, in charge of oversight of 
administration policies and staffing, they don't seem to have 
any real authority vested to make any changes. And certainly in 
the area of cultural responsiveness, they don't have the 
authority to really call things out that are taking place that 
should not be.
    I think another thing is that staff who are very dedicated 
to student good and have spoken out about these issues are 
typically not at Chemawa for very long because there is not a 
clear chain of command or a clear system of being able to 
report things. So, retaliation, specifically around pay cuts, 
is huge.
    Additionally, a common experience that we have had as 
teachers is that when we are hired at Chemawa, the pay that we 
are told that we will receive is not the pay that we actually 
do receive. This has gone on for years. And it does create 
significant financial hardships for teachers who want to be 
there and who would like to remain for many years, but possibly 
cannot afford to. And even though it is known that this is the 
case, that is never communicated, and it has created a 
longevity problem.
    Mr. Cook. Thank you very much. And I want to thank the 
panelists. I know it is very difficult to share those stories 
with us. Thank you.
    Mr. Gallego. Thank you, Ranking Member Cook.
    I would now like to recognize Representative Haaland.
    Ms. Haaland. Thank you, Chairman. Thank you so much for 
assembling this extremely important hearing. And thank you all 
so much for being here this afternoon, and essentially pouring 
your hearts out to us. It is important that we know and 
understand the emotion and the feeling behind it.
    And to the two teachers, I value you incredibly. I 
appreciate your dedication. And I just know how important 
teachers are in our society, and I am sorry that you didn't get 
the help you needed when you were there.
    So, thank you for being here today. I want to express my 
sincere condolences to the two moms who are here for the loss 
of your children, and the courage that it has taken for you to 
come here in front of Congress today. I understand how painful 
this must be. I also understand how expensive this trip to DC 
is, and thank you for coming to speak with us.
    In March, the Pueblo of Laguna, which is where I am 
enrolled, lost a high schooler, Darrian Diwayan, to suicide at 
Haskell Indian Nations University, which is a post-secondary 
school that the BIE oversees. This was a significant loss in my 
Pueblo of a young, vibrant person, and I have compassion for 
the pain that your families are experiencing.
    This morning, my office met with education advocates who 
also told us about suicides that have taken place at the BIE 
Crystal Boarding School on the Navajo Nation and at Dine 
College by students who lack mental health resources and 
integration programs in BIE schools. It is no secret that the 
BIE schools have historically under-performed, although it is 
the Nation's most expensive educational system that is failing 
183 schools for Native American children in 23 states.
    This is a department that continues to fail our children so 
substantially that a 2015 Politico article stated, ``BIE 
students performed worse than every major urban district in the 
country except Detroit.'' This is a failure of the Federal 
Government and completely unacceptable.
    The questions I will ask will help provide clarity on the 
issue to see what we can do. And first I would like to address, 
Ms. O'Renick, your comment about the school board because the 
school boards are--they are window dressing. Right? They are 
advisory boards who don't have any teeth at all. They can make 
all the recommendations in the world and nobody has to listen 
to them.
    And that absolutely has to change. I have experience with 
that, and I appreciate you raising that issue. And I am 
strongly in favor of working to make those changes. So, thank 
you for that.
    Ms. Karzon, thank you for your bravery in shining a light 
on these issues, especially while you were still employed at 
Chemawa. As a teacher there, you described a culture of 
punishment for speaking out on concerns. We kind of asked this 
already, but what is your recommendation for how BIE can 
provide an avenue for accountability to the boarding schools it 
runs?
    Ms. Karzon. I think there is a disconnect between a 
federally run organization and a school that is supposed to be 
ensuring children's futures. Those things sometimes do not mesh 
well together. So, in the structure of a school and in the 
structure of a Federal entity, something needs to change.
    There is so much talk about chain of command at Chemawa--
follow the chain of command, follow the chain of command--that 
sometimes problems don't get solved because the onus is put on 
that one supervisor to fix the problem. And if they are not 
able to do it, we are to go up the chain.
    And I think that is something that needs to be looked at, 
that we are educating youth. It is supposed to be a nurturing 
environment. Yet, we have this very sterile chain of command 
structure that we have to follow that doesn't always fit what a 
school should be. And I think that it is important to consider 
how we can bridge that.
    Ms. Haaland. How often did the line officer come to the 
school to just talk to people or see what was happening there?
    Ms. Karzon. I would say once every few months, so maybe 
twice a year, two or three times a year.
    Ms. Haaland. And did any of the concerns that you expressed 
to him--I am sorry, Chairman--did he ever follow up on any of 
those? I say ``he,'' but it could have been a ``she'' also.
    Ms. Karzon. Teachers were not typically able to get access 
to the education line officer.
    Mr. Gallego. Thank you.
    I will now recognize Representative Bonamici.
    Ms. Bonamici. Thank you, Chairman Gallego and Ranking 
Member Cook. Thank you, especially, to the witnesses.
    I request unanimous consent to enter into the record an 
opening statement that expresses many of the concerns about 
abuse, fraud, mismanagement, and lack of safety at Chemawa 
Indian School outlined by the witnesses and my colleagues. I 
request unanimous consent, Mr. Chairman.
    Mr. Gallego. So moved. Accepted.

    [The information follows:]
 Prepared Statement of the Hon. Suzanne Bonamici, a Representative in 
                   Congress from the State of Oregon
    Thank you Chairman Gallego and Ranking Member Cook, for holding 
this hearing, and thank you to our witnesses for being here today.
    In the fall of 2017, Oregon Public Broadcasting ran an 
investigative series about Chemawa Indian School in Salem, Oregon. The 
reports of abuse, fraud, and mismanagement were deeply troubling to me 
as a parent, as an advocate for equity in education, and as a policy 
maker.
    The series told the disturbing and heartbreaking stories of the 
deaths of three Chemawa students: Melissa Abell, Flint Tall, and 
Marshall Friday. Since the original OPB report, we've learned of the 
tragic death of Robert Tillman, another Chemawa student who died 
shortly after leaving campus near the end of 2018.
    My colleagues and I were alarmed by these reports and promptly 
sought answers from the Bureau of Indian Affairs and Bureau of Indian 
Education. An initial response from BIA raised more questions than 
answers, and my Oregon colleagues and I visited Chemawa. In a February 
2018 Education and Workforce Committee hearing, I also questioned BIE 
Director Tony Dearman about Chemawa's budget and BIE's efforts to make 
sure that students are prepared for life after graduation at Chemawa.
    Over the past 2 years we've sought to engage in a productive 
conversation with the leadership of Chemawa, the BIE, and the BIA with 
the goal of making sure that every student at Chemawa has a path to 
success.
    This must include efforts to make sure that all students receive an 
excellent and culturally informed education, are safe at school, and 
have access to needed health care and mental health care services. 
We've sought to make sure that staff and students are supported, and 
that the culture at the school is welcoming to all students. 
Importantly, the school must foster an environment where concerns--from 
staff, students, parents, and tribes--can be addressed and responded to 
without any fear of retribution.
    And we have advocated for BIA to increase recruitment of Native 
teachers and provide staff training that acknowledges the unique 
historical trauma experienced by Native communities. Chemawa is the 
oldest continuously-operating Native boarding school in the country and 
84 tribes are represented among the student body.
    Our oversight efforts have included a series of inquiries to BIE 
and BIA, and two meetings on-campus at Chemawa. At nearly every step in 
this process, my colleagues and I have been frustrated by a lack of 
transparency regarding Chemawa's finances, governance, and student 
safety. I am also deeply disappointed to see that BIA Principal Deputy 
Assistant Secretary John Tahsuda and BIE Director Tony Dearman are not 
here today to testify, despite an invitation from Chairman Grijalva and 
Chairman Gallego. Their absence only compounds the lack of transparency 
we've experienced.
    As we await answers to urgent questions about student well-being at 
Chemawa from the Administration, parents, current and former Chemawa 
staff, and leaders of Oregon tribes who share our concerns have 
contacted my office. I look forward to hearing some of their accounts 
today.
    The Federal Government has a responsibility to the school's Native 
students, and it is my hope that today's hearing will help us better 
understand what steps need to be taken to get Chemawa back on track so 
current and future students have every opportunity to grow and thrive 
academically in a safe, healthy, and supportive environment.

                                 ______
                                 

    Ms. Bonamici. Thank you. And I also request unanimous 
consent to enter into the record a copy of the Oregon Public 
Broadcasting five-part investigative report from Chemawa from 
2017.
    Mr. Gallego. Without objection, accepted.
    Ms. Bonamici. Thank you, Mr. Chairman.
    This was very powerful testimony. I want to start, Ms. 
Willis and Ms. Keith, thank you so much for being here and 
telling your stories. As a parent, I cannot imagine what you 
went through and what you are still going through. Thank you 
for your courage in being here. And your presence, I think, 
demonstrates your courage, and it will help other students.
    Ms. Willis, you talked about Marshall and how he had a 
tough relationship with Chemawa. You told a story about how he 
felt targeted by faculty, didn't get the support he needed, 
tried to leave but missed the camaraderie that the school was 
intended to provide.
    And you talked about how he struggled to get critical 
attention, especially mental health and addiction services. And 
he was sent home more than once. That separation, I could tell 
how it was devastating to him to be separated from the 
community. And his tragic death in Tualatin, Oregon, which I am 
quite familiar with in the district I am honored to represent, 
shortly after leaving school is just heartbreaking.
    And of course Flint Tall, who Ms. O'Renick discussed, and 
more recently Robert Tillman, both died shortly after leaving 
Chemawa, raising serious alarms about student safety. They were 
15 years old. And of course, Ms. Keith, thank you for sharing 
your story, too, about Melissa. You have raised some serious 
concerns.
    Ms. Willis, the concerns about sending students home--and I 
want to ask you and then ask Ms. Keith--what could Chemawa have 
done differently? How could they have helped Marshall and 
Melissa?
    Ms. Willis. With Marshall, I believe if they would have 
just informed our family of the behavioral health issues he 
had, what they really were--I have had another child that had 
some of the similar issues that Marshall had, and we got him 
the help he needed. We would have focused on making sure that 
Marshall would have gotten the right mental health plan, the 
right meds, while he was home. We didn't realize what his real 
mental and behavioral health issues were.
    And if they would have just been open with us and told us 
when he left from the school, what behavioral health plan he 
was on and what the medications were for, we could have 
followed through with everything at home.
    Ms. Bonamici. Did anybody at Chemawa ever explain why they 
didn't tell you that information?
    Ms. Willis. Because of the Children's Bill of Rights and 
the fact that kids can apply for Medicaid at the age of 15 in 
Oregon, and also because they said that when we allow our 
children to go to boarding school on our reservation, and I 
believe on most, you have to have a paper signed by your Tribal 
Social Services, Child Protection Services, that shows a need 
for your child to attend. And Marshall's was social. He just 
didn't quite fit in where he was because of who he was.
    Ms. Bonamici. And I am going to run out of time, but I 
wanted to ask Ms. Keith what they could have done differently 
to help Melissa.
    Ms. Keith. They could have been there.
    Ms. Bonamici. Been there for her? Yes.
    Ms. Keith. They could have been there. I don't know if they 
do their regular rounds or whatever. Apparently they are 
trained for CPR, but I was also told that just because you have 
CPR training doesn't mean that you have to use it, that you are 
obligated to use it.
    That needs to be changed. That kind of thought process 
needs to be changed because they're there, and if somebody 
needs medical attention--if I see somebody on the side of the 
street, I am going to stop and help them. This is their job.
    Ms. Bonamici. Thank you so much. And I want to ask in my 
remaining minute, Ms. Karzon and Ms. O'Renick, thank you so 
much for your willingness to speak candidly. And I know, Ms. 
Karzon, you talked about trying to go outside the chain of 
command because you were not getting answers.
    For both of you, what should the top priorities be for 
getting educators the tools and support they need to make sure 
that Chemawa students are safe? If you could just list off a 
couple, each of you, top priorities for educators. They need to 
recruit and train and hire more Native staff, for one thing. 
But what are your ideas?
    Ms. O'Renick. I think what you just spoke to is a large 
concern, some sort of requirement for having qualified 
administrative staff specifically. I think you heard in the OPB 
reporting about the history of nepotism and how even many of 
the current administration were hired without proper 
credentialing and had relatives there.
    They are non-Native, and there is not oversight about how 
that process was done. And it certainly doesn't seem like there 
was a true open search for those positions to be filled.
    Ms. Bonamici. Thank you. And Ms. Karzon?
    Ms. Karzon. There is a strong trend of reinventing the 
wheel each school year with the rapid changes in 
administration. So, how are we going to recruit administrators 
that are long-term administrators as well as educational staff 
and teachers? I think that is another issue that comes to light 
when you have a whole new era with a whole new administrator, 
and that happens every year.
    Ms. Bonamici. Thank you, and I see I am out of time. I 
yield back. Thank you, Mr. Chairman.
    Ms. Haaland [presiding]. Thank you.
    The Chair recognizes Mr. Cook for a follow-up question.
    Mr. Cook. Thank you. I won't take long. I just wanted to 
follow up on that question about the chain of command. And many 
people know that I was in an organization that believed in that 
very, very strongly, the United States Marine Corps.
    But even with that, one of the best mechanisms that we had 
was a request mass. And that means a private, PFC, could go 
right to the top and talk to someone about a problem, something 
that is going wrong, or what have you. No interference by 
anybody from the school, the military, or what have you.
    And since you mentioned that the chain of command was 
constantly--I think this is one way that businesses have the 
whistleblower and things like that. So, I would just throw that 
on the table as one of the considerations, perhaps. Sorry.
    Mr. Gallego [presiding]. Thank you, Ranking Member Cook.
    Now I would like to recognize Representative Schrader.
    Dr. Schrader. Thank you very much, Chairman Gallego and 
Ranking Member Cook. I really appreciate having this hearing 
and allowing me to waive onto the Subcommittee. I am really 
proud to represent Chemawa Indian School. It is in my district 
in Salem, Oregon. And its success, I think, is critical for 
Indian Country, just like the other BIE boarding schools around 
our country.
    I would like to request unanimous consent, as 
Representative Bonamici did, to enter my opening statement for 
the record, please.
    Mr. Gallego. Without opposition, so ordered.

    [The information follows:]
   Prepared Statement of the Hon. Kurt Schrader, a Representative in 
                   Congress from the State of Oregon
    Thank you, Chairman Gallego and Ranking Member Cook, for having 
this hearing and for allowing me to waive onto the Subcommittee with 
you today. I am proud to represent Chemawa Indian School in Salem, 
Oregon, and will speak specifically to my experience with the school. 
Chemawa is a culturally significant institution to my constituents and 
to our community, as the oldest continually operating Native American 
boarding school in America. Chemawa represents a place where Native 
youth from across the West can receive a high school education in a 
unique, culturally-appropriate setting.
    Before I get into concerns about the school's administration and 
performance, I want to thank our witnesses for being with us today. 
Many of you have traveled from Oregon to be here and taken valuable 
time out of the middle of your week to join us. I am grateful for the 
courage you are showing in your willingness to give us your 
perspectives from the Chemawa community.
    As our witnesses can attest, despite Chemawa's stated focus on 
academics and college preparedness, I am concerned that it is not 
properly equipping students to succeed, nor is it even providing them 
with a safe environment. I have been spearheading the Oregon 
delegation's efforts to shed light on the situation at the school for 
more than a year and a half. I am grateful for the chance to have this 
hearing to continue to bring awareness to the issue. But I am 
frustrated that it has taken us to this point to get basic information 
about the school.
    Our main priority is for Chemawa to be a safe place for Native 
students to thrive. But we cannot do that if the administration, both 
at Chemawa and at the Federal level, is undermining the school, 
refusing to cooperate with Congress, and not taking to heart their 
responsibility take care of these students.
    Our concerns about Chemawa are long-standing. This particular line 
of questions stems from a five-part investigative report published in 
the fall of 2017 by Oregon Public Broadcasting (OPB). The report 
detailed significant concerns about the school and made serious 
allegations about the governance of the school, student health and 
safety, academic achievement, and treatment of the school's staff and 
teachers. After this report broke, myself and my colleagues in the 
Oregon delegation began our years-long process to request information 
from the Office of the Assistant Secretary-Indian Affairs to address 
these allegations.
    Allow me to run through an abbreviated timeline of the events that 
followed.

    We sent a letter to Principal Deputy Assistant Secretary for Indian 
Affairs John Tahsuda on November 14, 2017, with a series of questions 
related to funding levels, academic standards, teaching standards for 
educators, staff trainings, avenues for staff to report issues and 
raise concerns, turnover in school administration, and transparency in 
the appointment of the school board and school administration.
    We waited more than 5 months for a response, and ultimately decided 
to convene a meeting at Chemawa. While we were in the process of 
setting up this meeting, we received a letter from Mr. Tahsuda on April 
16, 2018, that provided unsatisfactory answers to our questions.
    On May 3, 2018, myself, Congresswoman Suzanne Bonamici, Senator Ron 
Wyden, and Senator Jeff Merkley met with Bureau of Indian Education 
(BIE) Director Tony Dearman and Chemawa administrators at the school. 
Despite the promise of dialogue, I was frustrated and dismayed to be 
told at the meeting that Chemawa and BIE staff are prohibited from 
talking with us, their elected representatives without approval from 
Congressional Affairs in Washington, DC.
    The May 3 meeting left us with more questions than answers and so 
we wrote another letter to Mr. Tahsuda on June 8, 2018, with additional 
concerns, including questions about Chemawa's staff vacancy rate and 
lack of Native American teachers; trauma-informed policies and 
procedures to train teachers and support staff so that they are fully 
equipped to meet complex student needs; school board membership and 
authority; and facilities maintenance costs. Our letter was detailed, 
and we expected a similar level of detail in response.
    At the same time, we sent two other letters following up on our 
conversation at Chemawa. One went to the Department of Education 
requesting information about why the Department was withholding Title I 
funding from BIE. The second went to the Indian Health Service (IHS) 
requesting information about the relationship between IHS and Chemawa, 
and the health and safety of Chemawa students. We received responses to 
both letters within 3\1/2\ months.
    Still waiting for a response to our June 8 letter, on August 20, 
2018, I spoke with Assistant Secretary for Indian Affairs Tara Sweeney 
and Mr. Tahsuda. I emphasized that the prohibition on Chemawa staff 
talking to Members of Congress or other elected officials blocks my own 
constituents from talking to me. Mr. Tahsuda took full responsibility 
for this ``gag rule,'' but did not apologize for its negative effects.
    Several months later, we were made aware of the death of a student, 
Robert Tillman, who passed away less than 2 weeks after leaving 
Chemawa. His story joins the tragic stories of three other students 
from the OPB series: Melissa Abell, who died of cardiac arrest in her 
dorm room; Flint Tall, who died in an alcohol-related car accident 
shortly after being expelled; and Marshall Friday, who died after 
struggling to access medications and support at Chemawa.
    In light of Robert's death and after more than 9 months without a 
response to our letter, Congresswoman Bonamici, Senator Merkley, and I 
requested a second meeting at Chemawa on March 20, 2019, where we met 
with Mr. Tahsuda, Director Dearman, and school administrators. We were 
handed an answer to our June 8, 2018, letter as we walked into the 
meeting. Not only is that an unacceptable way to receive a response, 
but it was also unsatisfactory--it was light on details and did not 
address many of our questions. We are concerned that, had we not 
requested a meeting at Chemawa, we would not have gotten that response.
    The March 20 meeting at Chemawa prompted myself and Congresswoman 
Bonamici to request today's hearing, and I am grateful for the speed 
with which the Committee has responded. It has been exactly 18 months 
since we first sent a letter to the Office of the Assistant Secretary-
Indian Affairs, and we are still trying to gather the same basic 
information about Chemawa's finances, academic standards, health care 
for students, student safety, and support for teachers and staff.
    Throughout all of this, there are several specific themes that 
persist: the evasiveness and lack of cooperation from the agency; the 
gag rule and its effects; and the need to make Chemawa a safe place for 
Native students to get an excellent education.
    We are seeking basic information about the operation of a school 
that deserves to be taken seriously. In our pursuit of this 
information, we have repeatedly followed the proper channels for 
congressional inquiries and submitted numerous detailed questions to 
Congressional Affairs at the Bureau of Indian Affairs. Yet, we cannot 
get adequate answers. The evasiveness of Indian Affairs senior 
leadership is frustrating and disappointing. I am disheartened that Mr. 
Tahsuda and Director Dearman, both of whom were invited to testify 
today, chose not to come.
    Even more frustrating is the insistence of Indian Affairs senior 
leadership that staff at Chemawa are prohibited from speaking with 
Members of Congress and other elected officials. I have seen written 
communications to staff reinforcing this ``gag rule,'' but it is even 
more striking to see the gag rule in effect. Members of the Chemawa 
community have bravely shared their concerns with my office and those 
of my colleagues in the Oregon delegation and, in doing so, have made 
it clear just how worried they are about retaliation for talking to us.
    I know how much these community members--those who have reached out 
to my office and those who are here testifying today--are risking in 
order to talk with us about Chemawa. Not only do I find that to be 
entirely unfair and unjust, but I believe that it does a great 
disservice to the students and staff at the school. Indian Affairs' 
restrictive communication policy fosters a culture of secrecy where 
staff and students are afraid to speak up and discuss their concerns. 
It makes it difficult for me to do my job as their elected official and 
impedes on our ability to have the open dialogue that is necessary to 
make progress at the school.
    Members of the Chemawa community have many ideas to help the 
school, but they all require the cooperation of BIE, the Bureau of 
Indian Affairs (BIA), and the Assistant Secretary-Indian Affairs. And 
if they aren't willing to work with us to share the most basic school 
operational information, how can we count on them to cooperate when we 
need to talk about reworking and clarifying graduation standards? When 
we want to resolve maintenance conflicts between BIE and BIA about the 
campus and the cemetery? When we need to dive into the school's 
finances and propose increased funding?
    BIE and the Assistant Secretary-Indian Affairs have a 
responsibility to thousands of Native students, and I have a 
responsibility to my constituents and students in Oregon. It is my 
mission to ensure the safety and prosperity of the students entrusted 
to Chemawa, and in doing so, establish proper oversight of the school 
by the institutions designed to protect and guide it. I believe that 
BIE must be held accountable for their inaction in response to the 
concerns raised about Chemawa. The agency must prioritize the safety, 
security, and academic achievement of students at Chemawa and all BIE 
schools.
    We all have a common goal--to make Chemawa a place where Native 
students from across the West have the resources and support to get the 
best academic and cultural education possible in a safe and supportive 
environment, and that the BIE staff have the resources, training, and 
support to succeed in providing this education. I am hopeful that the 
conversations we'll have at this hearing today will help us move toward 
this goal, and I look forward to continuing our collaboration long 
after this hearing is over.

    Thank you.

                                 ______
                                 

    Dr. Schrader. I want to thank our witnesses for coming here 
today. Pretty heartfelt stories. Some tough times, very, very 
tough times, for everyone, and basically rounds out the 
experience that the Oregon congressional delegation had 
visiting the school and talking with some of the folks there.
    I think we all want to make Chemawa a safe and supportive 
environment for Native American students across the West, to 
make sure BIE has the resources, the staff, and frankly, the 
cultural change to do what we have asked them to do for many, 
many years.
    This is not new to this administration. This has gone on 
for 20, 30 years from my conversation with my folks back in 
Oregon. And it has just got to stop. It has just got to stop. I 
have never been so outraged in my congressional career, short 
as it may be, with the lack of information I could get from 
these folks.
    It meant that the teachers that want to talk to us, the 
students that want to talk to us, they cannot. They are just 
not allowed to talk to their elected members of the U.S. 
Congress who represent them. I mean, that to me is 
unconscionable and goes at the core of what this great country 
is all about.
    And as the Ranking Member talked about, we all have chains 
of command, and you do that to have an efficient organization. 
But when things are not working, you have to be able to get 
your point across without fear of retaliation. I am just a 
little old country veterinarian in the real world, but I 
counted on my line staff to tell me what was really going on.
    You guys, the parents, the teachers, the students, they are 
the front line. I am supposedly making some decisions, but I 
don't make good decisions unless I get good information from 
the folks that are detailing this every day.
    So, if I may, Ms. Karzon, Ms. O'Renick, a little bit more 
on that chain of command and how you found it blocked you from 
getting your concerns across to help these students and help 
the parents understand what was going on. Is there a more 
effective system you might devise?
    Ms. Karzon. I will just say briefly that both Ms. O'Renick 
and I--and I don't want to speak for Ms. O'Renick--but when we 
tried to follow the chain of command, we were still given a 
letter of reprimand because we went outside of the chain of 
command even though we followed the chain of command.
    So, that circular logic, there really was no pathway. We 
need to give more options to those who are being supervised 
under this structure of how to gather information and how to 
share information with supervisors.
    Dr. Schrader. Ms. O'Renick?
    Ms. O'Renick. I would agree with that. One of the documents 
or large chains of documents that we were able to submit to OPB 
during the course of the reporting on Chemawa's situation was a 
large number of e-mails back and forth to the principals that 
we sent during the time.
    Unfortunately, the academic principal was not on campus 
actually for months of the year the one year that I was there 
before needing to leave, and requested support, bringing issues 
to light. And the response was typically, ``It is out of my 
hands,'' or, ``I am not on campus. I will deal with it when I 
come back,'' or no response.
    So, out of desperation, seeing what was happening with the 
students, we eventually went to the next level, which was the 
superintendent, who told us that he was not allowed to 
supervise her per his orders from the line office. And it kind 
of continued from there until we eventually just sent it 
straight up the chain.
    But some sort of a transparency about who you go to next 
and that there is permission to do that, and just the assurance 
that that is not met with retaliation, I think, would----
    Dr. Schrader. The sad part is, if I may add onto that, is 
you are not going to get any help at the top because I asked--I 
had a phone conversation August 20, 2018, after repeated 
attempts to get information about who put this gag rule in 
place. And Secretary Tahsuda very honestly at one point said, 
``Well, it is me. I told people they are not allowed to talk to 
you.'' And made no apology for that.
    That is terrible. So, these poor people, trying to go up 
the chain of command, trying to find some way to get some help, 
there is no help. The culture at BIE is so messed up, and there 
is no goldarned school board out there, either. Representative 
Haaland is exactly correct.
    About a week before we got there, they put together this 
slapdash school board, supposed to represent--the majority of 
the school board represents the tribes with the most students, 
et cetera, there. There was no school board. They ran around 
with some of our local tribes to try to get people to actually 
be pro forma, just window dressing, as Representative Haaland 
said, to look at that.
    This is a horrible situation in need of a lot of help, and 
I think that it starts at the top, making sure we protect 
people from retaliation when they are concerned about what is 
going on at these BIE schools. I yield back, sir.
    Mr. Gallego. Thank you, Representative Schrader.
    Now I would like to recognize Representative Soto.
    Mr. Soto. Thank you, Chairman.
    I have often thought this Committee is here to right the 
historic injustices that so many Native American tribes have 
experienced over the history of this Nation and prior to it. 
And I first wanted to say to Ms. Willis and Ms. Keith, not only 
do you have our apologies but we will honor your losses with 
action, which I think is probably far more important today.
    We know the history of Native American education in this 
country. It is history of kidnapping, of cultural eradication, 
of Eurocentric brainwashing. And while we have gotten a little 
bit beyond that by the 1870s and beyond with the Chemawa Indian 
School, with some improvements, we see here there is a culture 
of silence and secrecy, with mismanaged funds, lack of 
accountability, struggles to provide the necessary services to 
keep students safe, and to mistreat staff. So, some of the 
ideas I heard today are very helpful.
    Ms. Karzon and Ms. O'Renick, if we had a confidential 
whistleblower process with incentives for teachers to come 
forward, do you think that would be helpful?
    Ms. Karzon. Most definitely. And I think you would have 
many more teachers coming forward.
    Mr. Soto. Ms. O'Renick?
    Ms. O'Renick. Agreed.
    Mr. Soto. And if we had an Inspector General answerable to 
Congress, would that be helpful, one beyond answering to the 
Bureau of Indian Affairs? Do you think that would be helpful?
    Ms. Karzon. Yes.
    Mr. Soto. Ms. O'Renick?
    Ms. O'Renick. I believe so, as long as there was an 
opportunity for them to be closely connected to the school.
    Mr. Soto. And Ms. Willis and Ms. Keith, if we had a parent 
advocate, someone that you could talk to directly, or other 
parents now in the future who face similar issues, and one that 
would have to provide you with basic information, do you think 
that would be helpful?
    Ms. Keith. Yes. If they could be fully communicated with 
what is going on academically, mentally, everything.
    Ms. Willis. If that person could give us progress reports 
of what is going on with our children rather than through e-
mail because a lot of people don't--we do, but a lot of parents 
don't have access to e-mail all the time, so they don't know 
what is going on with their kids. If we could get a phone call 
every now and then, just letting us know where our kids are at.
    Mr. Soto. Thank you. And with that, I yield the remainder 
of my time to the gentlelady from New Mexico.
    Ms. Haaland. Thank you, Mr. Soto.
    I have one question for Ms. O'Renick. Your testimony states 
that Chemawa expelled 36 percent of their students in 1 year. 
Can you tell us if the BIE or the school have provided any 
follow-up or support to these expelled students, and what the 
school administration and BIE can do to help avoid this from 
happening.
    Ms. O'Renick. I think the murky accountability systems and 
the nebulous processes that Chemawa operates under, that 
teachers are not privy to, prevents me from speaking fully to 
that question.
    But as far as I understand, and based on OPB's reporting, 
Flint Tall, as an example, returned to Pine Ridge Reservation 
after being expelled, and the reporting was that even because 
of Chemawa's negative report of his behavior, it created an 
additional barrier for him to get back into his tribal school. 
So, not only was there not support and follow-up, but in 
addition to that, another barrier was created so that he 
couldn't even attend school where he was.
    Ms. Haaland. Thank you. I have one last question, but I 
just want to say that every single person on this dais believes 
extremely strongly that every single child in this country 
deserves to have a quality education. So, I know that all of us 
here, and our colleagues who are not here, will do everything 
we can to make sure that this is solved and remedied.
    I just had one quick question of Ms. Willis and Ms. Keith. 
In your opinion, what is the cultural presence at the school? 
Is there a cultural presence at the school? Is there a cultural 
presence that helps the students feel like they are connected 
to their culture and that the school supports that?
    Ms. Willis. I, myself, don't think there was a strong 
enough cultural presence before. It is my understanding that 
this school year they have some new residential advisors that 
are really focusing in on providing more cultural things for 
the students and things that are more relevant to their tribal 
traditions and stuff. That is my understanding. That has never 
really happened until this school year.
    Ms. Haaland. Ms. Keith?
    Ms. Keith. For my experience, I had seen my daughter more 
excited about learning from the other students their culture, 
because it was interesting for her, so she would share her 
stories with me. But as far as participating in certain things, 
there wasn't a whole lot.
    Ms. Haaland. Thank you. And I have to believe that a 
cultural presence is needed at any Indian school, speaking from 
experience. Thank you.
    Mr. Gallego. Thank you to all our witnesses for coming and 
giving us your heartfelt stories. It really does have an 
impact, and it will make a difference.
    We will now be seating the second panel.
    [Pause.]
    Mr. Gallego. Good afternoon. Thank you to our witnesses 
that have just sat down.
    Our following panelists are going to be Mr. Mark Cruz, who 
is Deputy Assistant Secretary for Policy and Economic 
Development for Indian Affairs at the U.S. Department of the 
Interior; Ms. Sonya Moody-Jurado, former chair of the Chemawa 
Indian School Board; and Ms. Tiyana Casey, Youth Advocate for 
the Native American Youth and Family Center.
    We will start with your testimony, Mr. Cruz.

STATEMENT OF MARK CRUZ, DEPUTY ASSISTANT SECRETARY, POLICY AND 
 ECONOMIC DEVELOPMENT--INDIAN AFFAIRS, U.S. DEPARTMENT OF THE 
                    INTERIOR, WASHINGTON, DC

    Mr. Cruz. Good afternoon, Chairman Gallego, Ranking Member 
Cook, and members of the Subcommittee. Thank you for the 
invitation to appear today on behalf of Indian Affairs to 
discuss our off-reservation boarding schools. And I want to 
thank the panelists from Panel 1 and my fellow panelists here 
for their stories.
    I am Mark Cruz. I am a member of the Klamath Tribes of 
Oregon. I grew up in Klamath Falls, Oregon, so it is good to be 
here, Congressman and Congresswoman. I was appointed Deputy 
Assistant Secretary for Policy and Economic Development for 
Indian Affairs at the Department of the Interior last 
September.
    The Bureau of Indian Education directly operates four off-
reservation boarding schools in four states: Riverside Indian 
School in Anadarko, Oklahoma; Sherman Indian School in 
Riverside, California; Chemawa Indian School in Salem, Oregon; 
and Flandreau Indian School in Flandreau, South Dakota. 
Additionally, there are three tribally controlled boarding 
schools.
    I would be remiss in today's testimony if I did not mention 
the commitment of our teachers and school administrators across 
the BIE. I know them firsthand based on my own service, as I 
taught at Saint Francis Indian School in South Dakota. Every 
day the Department and my colleagues give our best to provide 
the highest quality education to all of our Native American 
students. We give everything to ensure that students have 
access to the holistic support necessary to develop positive 
and healthy lifestyles and have the academic skills to excel in 
the modern economy.
    Chairman Gallego, Ranking Member Cook, I will be quick with 
my statement as I would like to update the Subcommittee on a 
number of different actions the Department has taken to address 
some of the concerns noted in others' testimony. I want to 
thank you for holding this hearing, and I pledge to work with 
the Subcommittee and the Full Committee in finding resolutions 
and answers to the well-identified problems. I look forward to 
your questions. Thank you.

    [The prepared statement of Mr. Cruz follows:]
Prepared Statement of Mark Cruz, Deputy Assistant Secretary--Policy and 
 Economic Development--Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Gallego, Ranking Member Cook, and members 
of the Subcommittee. Thank you for the invitation to appear today on 
behalf of Indian Affairs to discuss our off-reservation boarding 
schools.
    I am Mark Cruz, a member of the Klamath Tribes in Oregon and Deputy 
Assistant Secretary for Policy and Economic Development for Indian 
Affairs at the Department of the Interior.
    The Bureau of Indian Education (BIE) directly operates four off-
reservation boarding schools in four states: Riverside Indian School in 
Anadarko, Oklahoma; Sherman Indian High School in Riverside, 
California; Chemawa Indian School in Salem, Oregon; and Flandreau 
Indian School in Flandreau, South Dakota. Additionally, there are three 
tribally-controlled boarding schools: Sequoyah Schools in Tahlequah, 
Oklahoma; the Pierre Indian Learning Center in Pierre, South Dakota; 
and the Circle of Nations School in Wahpeton, North Dakota.
    The BIE's directly operated off-reservation boarding schools were 
founded between 1871 and 1892. At the time, the primary goal of Indian 
education was assimilation of Indian children. Students were forbidden 
from speaking their languages and were not allowed to engage in their 
traditional cultural practices. However, the role of these and other 
BIE-funded schools was transformed with the passage of the Indian Self-
Determination and Education Assistance Act of 1975 (ISDEAA).
    Following the passage of ISDEAA, BIE's off-reservation boarding 
schools were no longer in the business of assimilation; rather, their 
purpose was transformed to support and respect tribal self-
determination and sovereignty. Today, the mission of our off-
reservation boarding schools is to provide Indian children with a high-
quality, culturally-relevant education and, to build within our 
students the knowledge, skills, and character needed to address and 
overcome the challenges of adulthood, while giving them the educational 
foundation to pursue their dreams. The BIE endeavors to provide 
students the necessary tools to be healthy and successful in their 
individual goals and life ambitions. Ultimately, we hope our students 
grow into positive, contributing civic members of their tribal 
communities and future leaders of their sovereign nations. To that end, 
the BIE's boarding schools focus on the foundations of quality grade 
school education and preparing students for college and careers in a 
safe and culturally-relevant setting.
    Admission to each of BIE's directly operated boarding schools is 
open to members of federally recognized tribes. Interested families and 
students submit an application to enroll and, upon admission, are 
provided free education, including room and board, as well as travel to 
and from campus at the beginning and end of each school year and at 
winter break. Students at our schools come from many different tribes. 
Oftentimes they travel hundreds of miles just to attend. The reasons 
for attending are as diverse as the students themselves--some attend 
because they want a school that is culturally responsive to Indian 
students, others may attend to avoid difficult environments and to find 
a safe learning space.
    In the past, the purpose of off-reservation board schools and their 
treatment of Native students was simply inexcusable. However, those 
prior policies could not be more antithetical to our goals for our 
children today. We still face complex issues, as any institution 
striving to provide the best-quality education will. But, the 
complexities we face should not detract from our ultimate goal, which 
is to give our students the tools they need for success.
    I would also be remiss if I did not mention the stalwart commitment 
of our teachers and school administrators. I know them firsthand based 
on my own service, as I taught at Saint Francis Indian School in South 
Dakota. Every day my colleagues and I gave our best efforts to provide 
the highest quality education with the resources available. We did 
everything we could to ensure students had access to the holistic 
support necessary to develop positive and healthy lifestyles. We built 
partnerships with the Indian Health Service and local first responders 
to ensure students had immediate access to behavioral and mental health 
support services should they be necessary.
    Our focus at Indian Affairs is no different, we strive to support 
our students at all our schools. The issues Native students face 
inevitably require direct response. I believe the best work we can do 
in DC for our students is to empower our teachers and administrators to 
address student needs as quickly as possible.
                               conclusion
    Chairman Gallego, Ranking Member Cook, and members of the 
Subcommittee, thank you for the opportunity to provide testimony today. 
I look forward to working with BIE leadership as we continue to provide 
opportunities for Native American students. I look forward to answering 
any questions you may have.

                                 ______
                                 

 Questions Submitted for the Record to Mr. Mark Cruz, Deputy Assistant 
      Secretary, Policy and Economic Development--Indian Affairs,
                    U.S. Department of the Interior
Mr. Cruz did not submit responses to the Committee by the appropriate 
deadline for inclusion in the printed record.

             Questions Submitted by Representative Bonamici
    Question 1. What steps are Chemawa, BIE, and BIA currently taking 
to proactively communicate to parents of Chemawa students that there 
are limits on what information about student health can be shared 
without a student's explicit consent?

    Question 2. What limitations--statutory or otherwise--currently 
prevent Chemawa, BIE, or BIA from notifying parents that their child 
has had a medical appointment? Are there any scenarios in which 
Chemawa, BIE, or BIA tells parents their child has sought health care 
and the school has knowledge of it? Are these policies consistent 
across physical health, mental health, and substance use? Does this 
process differ for treatment provided by IRS?

    Question 3. What steps are taken to make sure that students at 
Chemawa understand the limits on health information that will be shared 
with their families if the student does not provide a signed privacy 
release?

    Question 4. What steps are taken to encourage students and their 
parents to communicate about their health care and options to involve 
and inform the parents about health care diagnoses and treatments?

    Question 5. Are students given the option to fill out a privacy 
release form when they seek medical care or treatment? If not, why not?

    Question 6. In a letter from IRS to the Oregon Delegation received 
on July 10, 2018, IHS outlined a joint workgroup between Chemawa and 
the Western Oregon Service Unit (WOSU) established in 2016 to improve 
information sharing processes. We understand this includes 
collaborative case management meetings. Can you please provide an 
update on the work of this group and any new policies that the work 
group has adopted to improve information sharing? Is parent input 
considered in this group?

             Questions Submitted by Representative Schrader
    Question 1. I have heard repeated references to the ``chain-of-
command,'' procedures to resolve staff complaints at the lowest 
possible level, in my letters with Indian Affairs and in this hearing. 
In detail, please describe the chain-of-command procedures for 
addressing complaints made by staff.

    1a. What is the process for staff to report issues to BIE superiors 
outside of the school if a staffer feels their concern was not properly 
honored through the chain-of-command?

    1b. How does BIE address retaliation that may occur after a concern 
is submitted through the chain-of-command? When an employee needs to go 
to the external ombudsman or other avenues outside of the chain-of-
command?

    1c. Given that BIE supervisors may be hundreds of miles away from a 
school (for example, one of our witnesses from Chemawa cited 
supervisors in the chain-of-command in Albuquerque and Seattle), how 
does BIE plan to address this lack of proximity and familiarity within 
the supervisory structure?

    Question 2. It has been very difficult for myself and my colleagues 
to gain any information about the school board.

    2a. Please list the names, tribal affiliation, and term duration 
for all current school board members.

    2b. Please provide us with the Chemawa School Board's charter or 
other governing documents.

    2c. How does the Chemawa School Board coordinate with the Parent 
Advisory Board and Student Council?

    2d. In my latest letter with Indian Affairs, the agency said that 
Chemawa was forced to seat volunteers on the school board because three 
of the tribes with the highest enrollment did not seat board members. 
When the letter was written on March 15, 2019, three of the five tribes 
had responded and only two representatives had been contacted.

      i.  What is the updated status of the search for school board 
members?

     ii.  Is Chemawa's difficulty in recruiting school board members 
typical of BIE schools?

    iii.  What is BIE doing to have a more robust relationship with 
tribes who send their students to BIE boarding schools in order to 
avoid such recruitment delays?

    Question 3. I was disappointed that Lora Braucher, Chemawa 
Superintendent, did not participate in the hearing. I know that she is 
frequently detailed out to other BIE schools or BIE working groups to 
develop policies and practices, which requires her to be absent from 
Chemawa's campus for months at a time.

    3a. Please provide us with a full list of all the projects to which 
Ms. Braucher has been assigned during her time as superintendent, and 
the length of time each project kept her off Chemawa's campus.

    3b. Is this amount of off-campus work standard for a BIE boarding 
school superintendent?

    3c. What does BIE plan to do to reduce the amount of time the 
superintendent spends away from campus, and to alleviate the strain 
placed on other members of the school's administration when the 
superintendent is detailed out on a project?

    Question 4. In my correspondence with Indian Affairs, the agency 
described an annual staff survey and a thrice-yearly school climate/
improvement survey for staff and students to provide input and report 
concerns. The agency noted that some of the concerns raised in the 
surveys were a lack of parental communication; a lack of communication 
between residential life staff and academic staff; food quality; and 
peer behavior.

    4a. What specific actions is the school taking to remedy the areas 
of concern identified in the survey?

    4b. What specific actions is the school taking to implement 
suggestions from staff and students in the survey?

              Questions Submitted by Representative Bishop
    Question 1. Could you please clarify for the hearing record why the 
Bureau of Indian Education school superintendent at the Chemawa Indian 
School was unable to participate at the May 16, 2019 hearing on Indian 
Boarding Schools?

    Question 2. Are Bureau of Indian Education Superintendents required 
to work beyond the school year?

    Question 3. The Trump administration separated the Bureau of Indian 
Education budget from the Indian Affairs budget in the FY 2020 
proposal.

    3a. Can you discuss why the Administration chose to do this and how 
it will impact how the Bureau of Indian Education operates?

    3b. Are most BIE schools, and Chemawa specifically, experiencing 
staffing shortages?

    3c. What is the Department doing to address ongoing hiring and 
retention issues?

    3d. What can this Committee do to aid in the Department's work in 
this area?

    Question 4. Members of Congress have been seeking information on 
events that have occurred at Chemawa.

    4a. What challenges does the agency experience with releasing 
certain information to Members or to the general public relating to 
these events?

    4b. Are there certain liabilities of which the Department needs to 
be cognizant in cases where a school is acting in a parental capacity?

                                 ______
                                 

    Mr. Gallego. Thank you, Mr. Cruz.
    Our next panelist will be Ms. Sonya Moody-Jurado.

 STATEMENT OF SONYA MOODY-JURADO, FORMER CHAIR, CHEMAWA SCHOOL 
                      BOARD, SALEM, OREGON

    Ms. Moody-Jurado. [Speaking Native language.] Hello. My 
name is Sonya Moody-Jurado and I am here today to talk about 
Chemawa Indian School. Chemawa is a special place for me. Many 
of my family members have worked at Chemawa, including my 
mother for almost 30 years, and two of my aunts that were moved 
to Chemawa Indian School over 80 years ago.
    I am the immediate past Chair of Chemawa Indian School, 
serving in that position from 2015 to 2018. This year my 
position on the school board was not renewed.
    It is time for an honest discussion of the school's 
failures and, more importantly, how we can set Chemawa and its 
students up in a course of success. I am not here to place 
blame on any political party, administration, or on any 
individual. The problems at Chemawa are decades old, and many 
of them are endemic in the BIA system.
    But all of us here, Congressmen, administration officials, 
parents, and friends, we bear the responsibility to make that 
change. I am here because I care about the students and the 
Indian children that attend Chemawa and will attend Chemawa.
    Let me give you a symbolic example. Since last fall, the 
Siletz and Lummi Tribes have been working to place two 
commemorative totem poles at Chemawa, one at the school and one 
at the cemetery where students from over 100 years ago are 
buried and have never returned home.
    The totems sit in storage because the school is operated by 
BIE and the cemetery is owned by BIA. BIA has yet to approve 
the placement of the totems. The school has stopped mowing and 
taking care of the Chemawa cemetery because it belongs to BIA 
and not BIE. This is just an example of the total dysfunction 
of Chemawa.
    Indian children as young as 6 years old are buried in the 
cemetery. They should not be caught in a power struggle between 
BIA and BIE. They died alone, with no family, while in the care 
of the Department of the Interior, and their final resting 
place deserves to be treated with compassion and respect.
    As for the living, the situation is not much better. 
Chemawa has serious cultural problems that negatively impact 
students, their education, and their lives. Let me provide you 
some examples.
    The school board was presented with carefully worded 
PowerPoint presentation. Administrators occasionally hand-pick 
students to speak with us, but were given strict talking 
points. All other students and staff were forbidden from 
speaking to visitors.
    Employees at Chemawa are not respected in the same way that 
teachers and staff in public school systems are. Those at 
Chemawa are employed in single 9-month contracts, reviewed, 
renewed, or terminated every year. This makes it easier for 
administration to fire staff. Of course, it is not called 
``firing.'' The technical term is ``non-renewal of contract.''
    Staff are required to wear ``One Chemawa'' T-shirts. 
Repeated complaints were met with administrative staff wearing 
buttons that read, ``No Whining.'' This sends a message to 
staff and students that their opinions do not matter.
    Before protests from school board members and the union, 
staff were forbidden to wear traditional regalia to tribal 
graduation. That is an odd prohibition for Oregon's only all-
Indian school. Yet, if staff wanted to attend graduation, they 
had to take leave or check out for their half-hour lunch. 
Additional time to attend graduation must be taken from their 
vacation allotment.
    At a higher altitude, the school struggles with a larger 
system that is clearly broken. Neither the BIA nor BIE have 
been able to provide attention, fill positions, and support the 
students and staff that Chemawa deserves. It can take years to 
fill regional or administrative positions, such as BIE regional 
director in Seattle or even the school superintendent. This 
creates chaos.
    Of course, the serious challenge is the student safety for 
Indian children that have died at the school due to negligence, 
others from accidents, and suicide remains a serious risk.
    Any way you look at Chemawa, it is in total crisis. I 
respectfully offer you the first steps along that path to 
change. BIE needs to provide staff and students a venue to 
register concerns about the school without fear of retaliation. 
The school board needs to be empowered to independently review 
the administration of Chemawa.
    Additional resources should be allotted for 24-hour mental 
health services to meet the needs of the students. More 
culturally based training on historical and trauma-informed 
care for the students and staff should be made available. And 
BIE needs to conduct oversight visits to speak confidentially 
with students, academic, residential, and support staff on what 
is working at Chemawa and where improvements can be made. Thank 
you.

    [The prepared statement of Ms. Moody-Jurado follows:]
    Prepared Statement of Sonya Moody-Jurado, Education Specialist, 
                 Confederated Tribes of Siletz Indians
    Thank you for this opportunity to speak about the serious 
challenges facing BIE boarding schools. I will focus my testimony on 
the Chemawa Boarding School in Oregon, which is the oldest continuously 
operating off-reservation Indian boarding school in the United States.
    I am an education specialist for the Confederated Tribes of Siletz 
Indians, and am an enrolled tribal member with Siletz. Chemawa is a 
special place for me. Although I did not attend school there, many of 
my family members have worked at Chemawa--including my mother's 
employment there for 30 years. I am the immediate past chair of the 
Chemawa School Board, serving in that position from 2015-2018. This 
year, my position on the school board was not renewed.
    I want to thank the Subcommittee for holding this oversight 
hearing. It is time for an honest discussion of the school's failures 
and, more importantly, how we can set Chemawa and its students on a 
course to success. I am not here to place blame on a political party, 
one administration or another, or any individual. The problems at 
Chemawa are decades old and many of them are endemic in the BIE system. 
But all of us here--Congressmen, Administration officials, parents and 
friends--we bear the responsibility to make a change.
    I am here because I care about the Indian children who have and 
will attend Chemawa.
    My Tribe and the Lummi Tribe of Washington State worked together to 
build twin totems, carved of cedar logs from Siletz' ancestral lands. 
One was to be placed in the Chemawa cemetery--where students from 100 
years ago are buried, having never returned home. The other totem was 
to be placed at the school. The two were to face each other connecting 
the past and the present.
    But these totems have sat in a storage garage since last Fall 
because the school is operated by BIE and the cemetery is owned by BIA. 
BIA has yet to approve the placement of the totems. The school has 
stopped mowing the grass because it's BIA's cemetery, not BIE's. The 
cemetery is just one example of the total dysfunction at Chemawa. 
Indian children as young as 6 years old are buried in the cemetery that 
were brought to Chemawa to be educated. They should not be caught in 
the power struggle between BIA and BIE. They died alone with no family 
while in the care of the Department of the Interior and their final 
resting place deserves to be treated with compassion and respect.
    As for the living, the situation is not much better. My time on the 
Chemawa School Board proved that Chemawa has serious cultural problems 
that negatively impact students, their education and their lives. Even 
as chair of the board, the only tour of the school offered was of the 
grounds, not the school or classrooms themselves. The board was 
presented carefully worded PowerPoint presentations. We were not 
allowed to speak with students generally. Administrators occasionally 
hand-picked students to speak to us. But we later learned these 
children were given strict talking points and instructed not to deviate 
from them. All other students are forbidden from speaking with 
visitors, whether they are tribal leaders or Members of Congress.
    Employees at Chemawa are there because their heart is there. But 
they are not respected. Unlike teachers in the public school system, 
those at Chemawa are employed in single, 9-month contracts--reviewed, 
renewed or terminated every year. This makes it easier for the 
Administration to fire staff. Of course, it's not even called 
``firing''--the technical term is ``non-renewal'' of their contract.
    The school board is asked to approve these ``non-renewals'' but we 
were given no information about job performance and reasons for 
termination. This practice is highly suspect and led me to seek legal 
counsel from my own tribe's attorney. I refused to fire staff without 
reviewing the cause, at which point my own service on the school board 
was not renewed.
    Assimilative practices continue with the current ``One Chemawa'' 
campaign. Staff are required to wear ``One Chemawa'' T-shirts. Repeated 
complaints were met with administrative staff wearing buttons that read 
``No Whining.'' This sends a message to staff and students that their 
opinions do not matter.
    Despite the mandatory propaganda, staff were forbidden from wearing 
any form of tribal regalia at graduation. However, this policy has been 
changed after questioning by school board and the union. This attempt 
at prohibition would never have been allowed in public schools, but yet 
it was strictly enforced at Oregon's only all-Indian school.
    The residential staff form close friendships with Chemawa's 
students and help the hardship of being thousands of miles away from 
family. Graduation is a time for dorm staff to meet the families of the 
students. Yet if staff wanted to attend graduation they had to take 
leave or check out for their half hour lunch break. Additional time to 
attend graduation must be taken from their vacation allotment.
    Children attend Chemawa to embrace and find strength in Native 
beliefs and traditions. Yet cultural leaders are being asked to provide 
written manuals and ``proper'' procedure for cultural practices such as 
sweats proper procedure. Yet different tribes and practioners conduct 
sweats differently and it is culturally inappropriate to write this 
down in a manual in any way.
    These are just a few of specific examples of dysfunction I have 
seen at Chemawa. At a higher altitude, the school struggles within a 
larger system that is clearly broken. Neither the BIA nor BIE have been 
able to provide attention, fill positions, and support the students and 
staff that Chemawa deserves.
    It took years to fill the Education Director's position in Central 
Office. It took years to fill the Regional Director's job in Seattle, 
and even the Chemawa Superintendent's position previously sat vacant 
for over a year. Various individuals have been named as interim fill-
ins for the positions listed above; however, these people maintained 
full-time jobs elsewhere in BIE. They did not have the time, and in 
some cases the expertise, to administer in that capacity. A school 
without true leadership cannot continue to function. Moreover, there is 
no administrative review of staff on a regular basis.
    There appears to be little or no oversight of Chemawa by BIE. The 
prior school superintendent, for example, overspent the school's 
budget. He was terminated from his position, but the school staff and 
students paid the price. Students were sent home early, staff was laid 
off, and then graduating students were brought back to Chemawa months 
later for graduation ceremonies--with no staff.
    Of course, the most serious challenge is that of student safety. 
Indian children have died there because of negligence, others from 
accidents. Suicide remains a serious risk to many there as well.
    Any way you look at Chemawa--it is in total crisis. How many more 
media stories need to be written to raise our awareness? Do we need 
another GAO or Inspector General report? More letters and more 
responses to those letters?

    I believe what we need is compassion for the students. We need 
respect for the teachers. Care for the land and those buried there. I 
ask the Congress and the Administration to work together to find a path 
forward. Respectfully, I offer some first steps along that path:

    <bullet> BIE needs to provide staff and students a venue to 
            register concerns about the school without fear of 
            retaliation;

    <bullet> The school board needs to be empowered to independently 
            review the administration of Chemawa;

    <bullet> Additional resources should be allocated for 24-hour 
            mental health services to meet the needs of the students;

    <bullet> More culturally-based training on historical and trauma-
            informed care for the students and staff should be made 
            available;

    <bullet> BIE needs to conduct oversight visits to speak 
            confidentially with students, academic, residential and 
            support staff on what is working at Chemawa and where 
            improvements can be made. These staff work on a daily basis 
            with students and understand the needs of the students.

    I hope these suggestions are helpful. Even though I am no longer on 
the school board, I stand ready to help in any way to set Chemawa back 
on track. Thank you for inviting me here to speak today.

                                 ______
                                 

    Mr. Gallego. Thank you.
    And our final witness is Tiyana Casey.

  STATEMENT OF TIYANA CASEY, YOUTH ADVOCATE, NATIONAL INDIAN 
            EDUCATION ASSOCIATION, PORTLAND, OREGON

    Ms. Casey. Chair Gallego, Ranking Member Cook, and members 
of the Subcommittee, thank you for this opportunity to speak to 
you today.
    [Speaking Native language.] Good afternoon. My name is 
Tiyana Casey, and I am from Warm Springs. The language I am 
speaking is the Ichiskiin dialect of Sahaptin, a traditional 
language of my people.
    Today, I speak on behalf of the National Indian Education 
Association, the most inclusive national organization 
advocating for culturally relevant educational opportunities 
for American Indians, Alaska Natives, and Native Hawaiians. 
Through this testimony, I share my experiences working with 
Native students at Chemawa Indian School, and urge Congress to 
address ongoing risks impacting students at federally operated 
boarding schools.
    From August 2016 to February 2017, I had the honor of 
teaching an IHS-funded suicide prevention class called 
``Community Leadership'' at Chemawa Indian School, with 
curriculum focused on culturally specific trauma-informed care, 
historic trauma, outdoor science, traditions and culture, and 
experiential learning. Our new class offered the only culture-
based education option during school hours.
    In February 2017, our program suffered unexpected budget 
cuts to our IHS-funded grant. With 3 business days' notice, I 
was not provided adequate time to say goodbye to all of my 
students. Countless students reached out to me with confusion 
and concern regarding the loss of the program. As the only 
class utilizing culturally-relevant trauma-informed care to 
address students' needs, the loss of this class 
disproportionately impacted vulnerable students.
    In preparation for my testimony today, I spoke with a 
number of former students to gather their thoughts regarding 
their education at Chemawa. All students felt that Chemawa 
failed to prepare them for post-secondary success and exposed 
them to ongoing trauma, which contributed to low self-esteem 
and mental health issues. In light of these experiences and 
conversations, I would like to offer the following 
recommendations.
    First, Congress must provide oversight and guidance 
regarding student discipline and expulsion. I had the unique 
opportunity to teach most students in the school since each 
student was required to take my class unless they were 
receiving services through IHS or were facing disciplinary 
action. When a student was unexpectedly absent, this typically 
indicated that they would be expelled, an occurrence that 
became frequent enough that it caused anxiety.
    Harsh policies often sent students back to unsafe home 
environments for minor infractions. Zero-tolerance policies for 
student pregnancies or mental health crises, including suicidal 
ideations and attempts, exacerbated expulsion rates. This 
resulted in students hiding physical and mental health needs to 
continue their education. Such policies have resulted in 
terrible consequences, including the death of multiple students 
when they returned home after being expelled or even after 
graduation.
    Second, Chemawa must ensure culturally responsive trauma-
informed care and educator training. Educators and staff at 
Chemawa remain ill-equipped to address the ongoing impacts of 
historic trauma and unique cultural and academic needs of 
Native students. Due to low numbers of Native educators, very 
few staff have the cultural knowledge to support students.
    Students do not see themselves reflected in the curriculum 
or classrooms. From education models that prioritize 
Eurocentric interpretations of Pan-Indigeneity, to teachers 
that impose Christian religious beliefs on Native spiritual 
traditions, students feel alienated and misunderstood in the 
classroom.
    One student recalled a reflection paper in which they wrote 
that they would feel more self-confident if they saw more of 
their Indigenous identity in the classroom. At the time, the 
student was told, ``The school is not going to change this just 
for you.'' This is unacceptable.
    All core subjects have the potential to include Native 
content. Native students must have access to Native teachers 
and educators that have the cultural training and tools to 
support their unique needs in the classroom and beyond.
    Chemawa should form community and student advisory boards 
to build a school community that reflects the students' needs 
and the students who are being served. Native education systems 
have always included community, valuing the impact of each 
voice from youth to elders. There is no voice for either in 
Chemawa's education model.
    You may reference in my written testimony to students 
practicing their freedoms of speech. This was in reference to 
Marshall Willis leading students to practice that.
    Student engagement in their own education has the potential 
to define and achieve holistic academic and community success. 
Students at Chemawa often felt voiceless. Those that did speak 
out often feared retaliation from the administration, which 
contributed to an environment that discouraged students from 
being open or trusting. Many felt criminalized for their unique 
cultures, challenges, and their stories. Our students have 
powerful voices that highlight critical challenges and 
opportunities to improve school services and support.
    In closing, a fundamental cultural and social shift at 
Chemawa has the potential to create an environment where Native 
students can thrive. Thank you.

    [The prepared statement of Ms. Casey follows:]
  Prepared Statement of Tiyana Casey on Behalf of the National Indian 
                         Education Association
    Chair Gallego, Ranking Member Hern and members of the Subcommittee, 
thank you for this opportunity to speak to you today. Niix pachwai 
tl'aawxma. Inash wanisha Tiyana Richelle Casey. Kush wash nash 
Shitaiktkni. Kwala matash wiyanawi chna ku yiktsha Inmi snwitki. Good 
afternoon everyone. My name is Tiyana Richelle Casey. I am from Warm 
Springs. Ancestors through my father, they were light skin people from 
a far away land--meaning I am also of German and Irish descent. The 
language I am speaking is the Ichiskiin dialect of Sahaptin; a 
traditional language of my people.
    Today, I speak on behalf of the National Indian Education 
Association, the most inclusive national organization advocating for 
culturally relevant educational opportunities for American Indians, 
Alaska Natives, and Native Hawaiians. Through my testimony this 
afternoon, I seek to share my experiences working with Native students 
at Chemawa Indian School and urge Congress to address ongoing risks 
impacting students at federally operated boarding schools like Chemawa.
    Native education is a bipartisan effort rooted in the Federal trust 
responsibility to tribal governments. Congress must uphold this trust 
responsibility to ensure the development and maintenance of safe and 
healthy learning environments. Economic growth has placed pressure on 
educational systems to produce graduates who are competitive in global 
markets. However, many schools serving Native students on and near 
reservations or rural and isolated areas continue to fall short of 
fulfilling the obligation promised to our tribal citizens decades ago. 
Nowhere is this duty more critical than at federally operated boarding 
schools that disproportionately serve vulnerable Native students, 
including low income and foster care students, many of which suffer in 
silence. Students who attend such schools are looking for a safe, 
secure, and education opportunity rich experience protected from 
uncertain environments in their home communities.
    From August 2016-February 2017, I had the honor of teaching an IHS 
funded suicide prevention class called ``Community Leadership,'' which 
was provided through a joint community partnership with my employer at 
Chemawa Indian School. With curricula focused on culturally specific 
trauma-informed care, historic trauma, healthy relationships, outdoor 
science, traditions and culture, and experiential learning, our new 
class offered the only culture-based education option available during 
school hours. Through this program, our students were working with 
elders and community members to address historic and ongoing trauma 
with the vision of re-establishing the historic Chemawa talking circle, 
which was forcibly removed when the school was established. 
Unfortunately, my students never had the opportunity to see this 
historic circle re-established.
    In February 2017, our program suffered unexpected budget cuts to 
our IHS funded grant. At the time, I was not adequate time to say 
goodbye to all of my students and was forced to vacate the premises 
within three business days notice. In the following days, countless 
students reached out to me with confusion and concern regarding the 
loss of the program. As the only class utilizing culturally relevant 
trauma-informed care to address student needs, the loss of this class 
disproportionately impacted vulnerable students.

    In preparation for my testimony today, I spoke with a number of my 
former students to gather their thoughts regarding their education at 
Chemawa. All students felt Chemawa failed to prepare them for 
postsecondary success and exposed them to ongoing trauma that 
ultimately contributed to low self-confidence and mental health issues. 
In light of these experiences and conversations, I would like to offer 
the following recommendations to improve the health and safety of 
students at the school:
Provide Guidance Regarding Student Discipline and Expulsion
    I had the unique opportunity to teach most students in the school 
since each student was required to take my class unless they were 
receiving services through IHS or were under strict disciplinary 
action. I usually only had up to 300 of the 350 total students in 
attendance during a given week. When a student was unexpectedly not 
present, this typically indicated that they were to be expelled within 
the coming week, an occurrence that became frequent enough that it 
caused anxiety. Harsh policies often resulted in students being sent 
home to unsafe home environments for minor infractions, such as 
skipping class. Zero tolerance policies for student pregnancies or 
mental health crises, including suicidal ideations and attempts, 
exacerbated expulsion rates and resulted in students hiding physical 
and mental health needs in order to continue their education. Such 
policies have resulted in terrible consequences, including the death of 
multiple students when they returned home after being expelled 
prematurely and even after graduation. Congressional oversight and 
guidance regarding these policies is critical to ensuring that Native 
students have access to the health care they need without severe 
consequences.
Ensure Culturally Responsive Trauma-Informed Student Care and Educator 
        Training
    Educators and staff at Chemawa remain ill-equipped to address the 
historical trauma and unique cultural and academic needs of Native 
students. Due to low numbers of Native educators, very few teachers, 
staff, and administrators have the relevant cultural knowledge or 
background to support students, who do not see themselves reflected in 
their teachers or in their classrooms. From education models that 
prioritize Eurocentric interpretations of pan-indigeneity to teachers 
that impose Christian religious judgments on Native spiritual 
traditions, students feel alienated and misunderstood in the classroom. 
This practice was exemplified by the ``One Chemawa'' speech provided 
the administrative leadership each day. Administrators banned certain 
regalia and bandanas with designs from particular tribes on the basis 
they had connections to gang symbolism. One student I spoke with 
recalled a reflection paper on body image in which they wrote that they 
would feel more self-confident if they saw more of their indigenous 
identity in the classroom. At the time, this student was told ``the 
school is not going to change that just for you.'' This is 
unacceptable. Native students must have access to Native teachers and 
educators that have the cultural training and tools to support their 
unique needs in the classroom and beyond.
Form Community and Student Advisory Boards
    Student engagement in their own education has the potential to 
support students as they define and achieve holistic, academic, and 
community success. During my time at Chemawa, many students often felt 
voiceless regarding the school culture, programs, and services. Those 
that did speak out often came to fear retaliation from the 
administration. Students feared sharing personal details or concerns 
with faculty members, as this often resulted in a public call over the 
intercom to the office and disciplinary action. This contributed to an 
environment that discouraged students from being open or trusting and 
resulted in many feeling criminalized for their unique cultures, 
challenges, and stories. In particular, many students felt a keen lack 
of support from administrators that threatened severe consequences for 
students who walked out in support of family members during protests 
against the Dakota Access Pipeline. Though administrators did not act 
on these threats and instead rewarded students that remained silent 
during the student walkouts, staff members told students that they did 
not have constitutional rights to free speech because Chemawa is a 
federally operated school. From voicing concerns regarding their 
families to school policies and procedures, our students have powerful 
voices that highlight critical challenges and opportunities to improve 
school services and support. By instituting a community, and student 
advisory board, Chemawa would support student agency to build a school 
community that reflects the students served.

    In closing, I would like to once again thank the Subcommittee for 
this opportunity to provide testimony and urge Congress to take 
appropriate steps to address ongoing challenges to student safety, 
health, and success at Federal boarding schools. A fundamental cultural 
and social shift in the nature of Chemawa has the potential to create 
an environment where Native students can thrive. Our students deserve 
no less. For questions regarding this testimony, please e-mail or call 
Diana Cournoyer, NIEA Interim Executive Director.

                                 ______
                                 

    Mr. Gallego. Thank you to all our witnesses for your 
testimony.
    Now I will begin the question period. I will recognize 
myself for 5 minutes, and then go to the Ranking Member.
    Mr. Cruz, thank you for being here. What internal policies 
does your Department have about whistleblowers in BIE schools? 
And is there a process for you to receive and act on reports of 
negligence or wrongdoing?
    Mr. Cruz. Thank you, Chairman, for the question. We 
actually have the whistleblower protection on the BIE website, 
bie.edu. And it is also in the Interior Department's manual. 
So, all employees, including BIE teachers, adhere to that.
    Mr. Gallego. You just heard the testimony from our three 
previous witnesses and now two witnesses. What are the 
substantial and subsequent steps that your Department is going 
to take to fix this situation? Because this seems to be a 
structural problem that has been going on for many years, and 
is now creating a culture at this boarding school that is going 
to be extremely hard to change. I would like to hear what the 
actual--what are the plans to change this, to make change at 
last.
    Mr. Cruz. Yes. Absolutely. We have taken critical steps 
toward improving the situation. As I referenced, there are only 
a few boarding schools out of our 169 schools across 23 states, 
and most of those schools have chosen to go under tribal 
control, under the Tribally Controlled Schools Act.
    But for the remaining schools that have not, the four that 
I referenced, the three have very positive environments. 
Chemawa has unique challenges, though, just because it has a 
long legacy there. So, in terms of what the BIE and the 
Department are doing--we are doing a reorg to be more 
responsive.
    Additionally, the BIE created a strategic direction last 
year, where they went out for tribal consultation across the 
country. And that plan is actually on the website as well. And 
that actually has very specific steps with detailed plans of 
action that we are currently taking right now, and that is all 
the way from early childhood education services to wraparound 
services.
    Mr. Gallego. OK. What are you going to do right now? When 
Members of Congress that represent their area, their 
constituents, are worried about the school, the school board, 
the students, are trying to get information, there is this 
culture of everyone just be quiet and batten down the hatches.
    That creates mistrust. Right? When I hear from 
Representative Schrader, not just this year but last year, that 
he cannot get any answers, it tells me that there is something 
being hidden there. So, what are you guys going to do to change 
that culture?
    When a Representative of Congress asks questions, we should 
be able to get answers without us having to haul people into a 
hearing. I will do it again if I have to, and I will even 
include subpoenas. But this cannot be happening any more.
    Mr. Cruz. Yes. We take that seriously, and that was the big 
reason why we worked hard to get you answers in the letter that 
was sent last year. And that is our fault. When you are looking 
at 10 complex questions--and they are complex, and I look 
forward to explaining them in further detail--that is a lot of 
people where we have to funnel that up. And that is our 
internal clearance process.
    But, absolutely, we take all of these allegations and 
claims very seriously. But it starts at the school with strong 
school leaders, and I feel fairly confident in the current 
school leadership at Chemawa that things are changing.
    The Assistant Secretary and I visited in May----
    Mr. Gallego. We have a limited amount of time and I 
actually hold myself to the standards. We actually invited 
school leadership here and they did not come. Was that at the 
insistence of your Department, or what was the decision-making 
process there?
    Mr. Cruz. Well, it is a school day, and so we felt best 
that school leadership be at school.
    Mr. Gallego. OK. So, if I did this on a non-school day or I 
went to Oregon and had a field hearing, then they would be 
allowed to actually speak to us?
    Mr. Cruz. Yes. All of our employees with their First 
Amendment rights in their personal capacity can speak to 
Members of Congress.
    Mr. Gallego. So, if Representative Schrader goes to campus 
and tries to meet with teachers, school staff, and school 
leadership, there is not going to be any effort from your 
Department or anyone else to keep them from speaking to their 
duly elected Representative?
    Mr. Cruz. To clarify, there is a notification process that 
is under the Department manual.
    Mr. Gallego. Sure. We will go through the notification 
process.
    Mr. Cruz. But beyond that, yes. If it is in their personal 
capacity, they can speak to Members of Congress.
    Mr. Gallego. OK. So, even if it is not in their personal 
capacity, can Representative Schrader come to the campus, walk 
around, walk into the principal's office and have a 
conversation with the principal?
    Mr. Cruz. We look forward to your third visit.
    Mr. Gallego. OK. Thank you.
    Last question. You mentioned about the BIE reorg. Is that 
at all related to the DOI reorg, and can you explain what the 
BIE reorganization actually is? Mr. Cruz?
    Mr. Cruz. Excuse me. I missed that part.
    Mr. Gallego. Sure, no worry. You said something about the 
BIE reorganization. Right?
    Mr. Cruz. Yes.
    Mr. Gallego. That is not related to the DOI reorganization 
that we all know about.
    Mr. Cruz. Correct.
    Mr. Gallego. So, what are the specifics about that?
    Mr. Cruz. That is realigning a couple critical functions. 
Well-documented in the GAO reports is the fact that BIE did not 
have control over their procurement, school safety inspections. 
So, what we are doing is we are moving that toward BIE.
    Also, we have realigned our associate deputy directors, our 
ADDs, so Chemawa being a bureau-operated school would directly 
report to the bureau-operated ADD versus the ELOs that was in 
multiple people's testimony. That is the old system. So, we 
have an SES individual there that is more accountable.
    Mr. Gallego. I would like to see a report on that, then.
    All right. I now recognize Ranking Member Cook.
    Mr. Cook. I am not going to--yes, I will make this 
accusation. You guys have been hanging around with the military 
too much, or watching re-runs of the House Armed Services 
Committee, acronym after acronym after acronym. And this is a 
personal bias. Identify what you are talking about because the 
rest of us, everybody else, I am too stupid to get it. Sorry.
    Going back to the students and the board, do you have a 
student academic senate that is represented on the board? Is 
there a structure in place for that? In other words, students 
are elected among the students to participate. They represent 
the students.
    Mr. Cruz. Yes. I will go first. When the Assistant 
Secretary and I visited at the end of March, we visited with 
their student council.
    Mr. Cook. I understand that. But are they also as an ad hoc 
body to the main board?
    Mr. Cruz. Yes. I'm not sure in the case of Chemawa. But 
usually a student council member sits on the school board. I 
know that was the case at Saint Francis Indian School, so 
that's usually customary.
    Mr. Cook. OK. And the other question I had was about the 
academic curriculum committee. I am sure you have one for the 
school. And if I were a member of the tribes, I would want to 
ensure that the curriculum obviously included those tribal 
issues and history and things that are so important to the 
people at your school.
    Is that done? Or does anybody know? Because all boards are 
different--I am talking from experiences in California and the 
tribes that I have in my district.
    Ms. Moody-Jurado. As a school board member, we were never 
shown curriculum. We were given test scores on the standardized 
testing but not shown the direct curriculum that is used. I 
posed the question if they were going to be following Senate 
Bill 13, which the state of Oregon just passed, which mandates 
a tribal history of the Oregon nine tribes, and they stated 
they didn't have to follow it but that they would look at it.
    Mr. Cook. That is very disturbing to me as an educator and 
for somebody who is obviously very concerned about this. So, I 
would hope that we could correct that.
    Mr. Cruz. Congressman, if I may, the Bureau of Indian 
Education, in terms of accountability systems that are required 
by the U.S. Department of Education, they have to adhere to the 
standards and academic standards in the state in which they are 
geographically located.
    That actually changed under ASA, which passed in 2015, and 
we are undergoing a negotiated rulemaking. So, the team just 
commenced and has a draft regulation. We are about to announce 
our tribal consultation on that, but I will say for the record 
all of those members on that neg-reg team were tribal, and it 
was a considering factor. So, we look forward to additional 
input from tribes.
    Mr. Cook. OK. I don't mean to beat a dead horse, but I want 
to make sure there is a mechanism where some of the things that 
they come up with that are part of the curriculum, or 
everything you say is not correct. So, I won't get that excited 
about it.
    Once again, I am running out of time here fast. Some of the 
other things in terms of--we talked about the mechanism. But I 
think one of the take-away themes from here is that I think we 
all want to make sure that if students have an issue or 
problem, that it reaches the top.
    And I am sure that in any follow-up hearings, that is going 
to be one of the main issues. And I am sure it is going to be a 
main issue of our two Representatives that have joined us 
today. So, thank you very much for being here today, and I 
yield the rest of my time.
    Mr. Gallego. Thank you, Ranking Member Cook.
    I now recognize Representative Soto.
    Mr. Soto. Thank you, Mr. Chairman.
    Deputy Assistant Secretary Cruz, you had mentioned that the 
whistleblower information is on the website. And, obviously, it 
is not being widely disseminated or known, even though people 
can go on websites. I get that.
    What are your ideas to improve that knowledge among 
teachers and students? Would you commit to having training or 
potentially seminars at each of the schools for administrators, 
teachers, parents, and students so that everybody knows the 
chain of command?
    Mr. Cruz. Sir, I commit to that and will talk to the Bureau 
of Indian Education Director to do so.
    Mr. Soto. Great. I had also looked at the website of the 
Office of the Inspector General for the Department of the 
Interior. I used no acronyms in that sentence.
    [Laughter.]
    Mr. Soto. Is there a dedicated number of inspectors for the 
Bureau of Indian Affairs?
    Mr. Cruz. Let me get back to you on that if there is. But 
the way I understand it is, there is a very big Inspector 
General office, and any number of them can be assigned to any 
issue that comes before them.
    Mr. Soto. So, if you could please get back to the Committee 
how many inspectors, and if there are any dedicated to the 
Bureau of Indian Affairs.
    Mr. Cruz. Absolutely.
    Mr. Soto. Under their website, one of their 
responsibilities is to scrutinize any allegations involving 
contractors and other entities that they work with. Do you know 
if there are investigations ongoing at the Inspector General's 
office with regard to the children of both Ms. Willis and Ms. 
Keith?
    Mr. Cruz. Not to my knowledge.
    Mr. Soto. Can you go back and confirm for us whether there 
are?
    Mr. Cruz. Yes, sir.
    Mr. Soto. And if there are, can you provide our Committee 
with any documents related to that?
    Mr. Cruz. Yes.
    Mr. Soto. Thanks. What about the whistleblower concerns of 
Ms. Karzon and Ms. O'Renick? Are there files related to their 
concerns? Did they reach out to you all?
    Mr. Cruz. I don't know the specifics of that particular 
case. But if it is an HR matter, I wouldn't know that. If it is 
an IG matter, they would know that. There is kind of a firewall 
between the IG and ourselves, so----
    Mr. Soto. Would you commit to getting us those documents 
should they exist?
    Mr. Cruz. Yes. We can ask the Inspector General.
    Mr. Soto. Thank you. And we could maybe have an Act of 
Congress about it, but it would be greater if you all would 
look at having a parent advocate who would be available who 
could go along with these seminars and who parents can talk to 
as a go-between sometimes.
    Because we are seeing parents get lost in the shuffle here, 
and I know we all want to make sure that our parents have 
better communication. Is that something that you will look 
into?
    Mr. Cruz. Yes, absolutely. We will look into that. And it 
is my understanding a number of our BIE schools do have those, 
so----
    Mr. Soto. OK. Well, it goes back to having those things 
that may be very helpful for students, parents, teachers, and 
administrators.
    Ms. Moody-Jurado, do you think that the schools would be 
better served by having an elected school board?
    Ms. Moody-Jurado. I do. But I think it is very difficult 
because a lot of tribes know that the school board is just 
window dressing. It is hard to send someone. We are told right 
from the beginning that we are advisory only. So, we attend a 
full-day meeting and each manager goes over a PowerPoint, and 
that is all. So, I think it is difficult. I took issue with 
signing----
    Mr. Soto. But if we made you all elected with certain 
powers, then it would have some power and that would 
potentially help. Right?
    Ms. Moody-Jurado. Yes.
    Mr. Gallego. OK. Do you have any advice for us? Because 
there are 80 different tribes that make up some of these 
schools, how that could be allocated equitably. Like how many 
members there should be?
    Ms. Moody-Jurado. Well, I know currently the top five 
tribes are invited to sit on school board that have the largest 
number of students.
    Mr. Soto. And that structure works as far as 
representation?
    Ms. Moody-Jurado. No, because right now it is Arizona, and 
so they are not near the school. I think that having regional 
representation would work a lot better, like possibly one or 
two from each of the regions that service Chemawa.
    Mr. Soto. OK. And Ms. Casey, obviously, even though there 
is information on these websites, is it generally known where 
parents and students can go to lodge a complaint or seek 
reforms among our parents and students?
    Ms. Casey. Not to my knowledge, no.
    Mr. Soto. Do you think having seminars and trainings for 
parents, students, teachers, administrators, would be helpful 
on the subject?
    Ms. Casey. Absolutely. I feel as if--and not just myself, 
but this is also coming from my students, as I am a youth 
advocate by nature and elevate their voices. They have 
expressed that they do not have any say, really, in any of 
this. Even though there is a student council, they feel pretty 
voiceless and powerless. And that is really key to elevating 
and empowering students to learn--empower them, not limit them.
    Mr. Soto. Thank you.
    Ms. Moody-Jurado. Chairman Gallego, can I respond to one of 
the statements of Mr. Cruz?
    Mr. Gallego. Ms. Jurado, why don't we let Chairman Grijalva 
ask his questions, and we will give you some time at the end.
    Ms. Moody-Jurado. Thank you.
    Mr. Grijalva. Mr. Chair, thank you for the hearing. Very 
important as we exercise an increased role in this 
jurisdiction. I applaud you. These are the kind of hearings we 
need to, I think, provide us with a better look, and second of 
all, I think give us the motivation to go beyond just a hearing 
and follow up with some actions that I think need to happen, 
and happen rather quickly. So, thank you so much.
    Ms. Jurado, you wanted to say something in response to what 
somebody said? Please.
    Ms. Moody-Jurado. I just wanted to respond that Chemawa 
Indian School finished school on May 3, so there have been no 
students on campus since May 3. So, the end of the school year 
is complete.
    Mr. Grijalva. I was going to ask you, if I may, Mr. Cruz, 
it is my understanding that IHS and BIA have an interagency 
agreement to increase access to mental and behavioral health 
services for BIE students. Can you tell us about that 
interagency agreement and what programs will be implemented to 
address those two issues with students?
    Mr. Cruz. Yes. I don't know the specifics of that MOU. But 
from what I understand, in a couple of instances that I have 
encountered since being there, is that IHS immediately replies 
when there is an incident at one of our BIE schools.
    So, if there is an IHS facility nearby--say that a student 
is really sick or there is a suicide attempt or some other 
various health incident--IHS is pretty responsive in addition 
to providing behavioral health specialists, and then annual 
physical well-being inspection.
    Mr. Grijalva. And programming, programming with cultural 
capacity and competence, do you know in that memorandum of 
agreement if there is a consideration for culturally competent 
staff and programming, to deal with those mental and behavioral 
issues that BIE students might be encountering, with the 
capacity to do that?
    Mr. Cruz. Yes. I can point to one anecdote. There might be 
a behavioral health specialist that takes our students to the 
sweat ceremony on a weekly basis or on an as-needed basis. So, 
some of those cultural practices are included in some of the 
services that they provide.
    Mr. Grijalva. And last question, if I may, Mr. Chairman. It 
is both an institutional issue that we are dealing with and it 
is also a resource issue that we are dealing with.
    And part of the institutional issue, and if you can, Mr. 
Cruz, is for me the lack of transparency that gets information 
to parents' hands that they know, the kind of defensiveness on 
the part of the institution itself.
    How are you going to deal with those two, the need for the 
parents' right to know, the staff's ability to interact, the 
students' feeling that they have a place that they can redress 
whatever their grievances or concerns are, and the need to--I 
perceive it to be very protective institutionally.
    And that makes it defensive, and to some extent makes it 
difficult for people, particularly the tragedies that have 
occurred to families, to be able to get the kind of, not just 
empathy, but information that helps with closure, that helps to 
understand, and more importantly, if there is responsibility, 
to assess that responsibility. And without it, we don't get 
answers. And that has been the problem.
    Mr. Cruz. Yes. We look forward to working with the 
Committee on this because it is probably one of our weaker 
spots and probably one of those angles that has not been looked 
at as thoroughly. But it is such a big school system--not to 
make an excuse, but you are talking about facilities that the 
Bureau has to do.
    We are caring for 42,000 students across 23 states, so it 
is a very complex issue. We look forward to working with you on 
solutions.
    Mr. Grijalva. But there is also a history with the schools, 
from its inception historically to now, that there is a history 
of, to be kind about it, problems. There has been a history of 
misuse and abuse. There has been a history, and I think that 
that is no longer an excuse.
    I think that the times have moved such that we can deal 
with that forthrightly and make institutional changes that I 
think are really badly needed in the system as a whole. And I 
know that involves resources as well.
    Thank you, Mr. Chairman.
    Mr. Gallego. I now recognize Representative Bonamici.
    Ms. Bonamici. Thank you, Mr. Chairman. Thank you to our 
second panel of witnesses. Ms. Moody-Jurado and Ms. Casey, 
thank you especially for your concrete suggestions from your 
perspective. That is going to be really helpful to us going 
forward.
    Deputy Assistant Secretary Cruz, you talked about 
responding to our questions that we sent in a letter. We sent 
the letter in June 2018. We got the response when we walked 
into the March 2019 meeting with Deputy Secretary Tahsuda and 
Director Dearman. When we walked into the meeting--that is 9 
months.
    A woman can grow a baby in 9 months. It should not take 
that long to get answers to questions to Members of Congress 
who have a responsibility to make sure that these students are 
being safe. So, I just wanted to point out that that is 
unacceptable.
    I am also, Mr. Cruz--I am really concerned and alarmed 
about what happened, what appears to be a pattern of students 
at Chemawa who have struggled to get medical care, particularly 
for mental health and addiction.
    I am even more alarmed, or equally alarmed, about what 
appears to be a pattern of students being sent home, sometimes 
for supposedly disciplinary or ostensibly safety reasons, the 
legitimacy of which has been questioned by families and staff 
at Chemawa, often without due process, and then sadly with 
several students dying shortly after leaving Chemawa--Marshall 
Friday, Flint Tall, and more recently Robert Tillman.
    What steps have Chemawa, BIA, and BIE taken to prevent this 
situation from happening again? And how is the staff, student, 
and tribal input incorporated into all of that? You heard Ms. 
Casey talk about teaching a suicide prevention class that was 
interrupted. Obviously, that was an important class. So, can 
you address, what are you doing, other than ending a suicide 
prevention class that seemed to be benefiting the students?
    Mr. Cruz. Yes. Thank you for the question. I think it is 
not an easy topic to deal with, and the Assistant Secretary has 
made this a very big priority for student safety. So, part of 
that strategic direction I referenced, there are concrete steps 
for the BIE to try to be more responsive in that school safety 
environment and promote school safety.
    And the other part that makes this very complicated is the 
HIPAA. What I have been told from our school leaders is when we 
send a student off-site to an IHS clinic, they don't always get 
the full scope or understanding of what that student is going 
through on the medical side. So, there is that firewall.
    And we are told on a numerous amount of occasions that we 
don't always know what is happening on the health side. So, as 
you can imagine, there is that conflicting statute. So, I would 
look forward to working with Congress and identifying maybe a 
responsible way where there could be notification to school 
leaders.
    Ms. Bonamici. We look forward to that, too. And Mr. Cruz, 
you said this is not an easy issue. It is also not easy for 
Marshall's family or Melissa's family or Flint's family or 
Robert's family. And I submit that it is probably a lot harder 
for them to deal with this than it is for the Bureau of Indian 
Affairs and Bureau of Indian Education.
    Also, Mr. Cruz, you talked about the harmful history of 
assimilation of Native youth, and we are really concerned that 
the BIE schools are failing to meet the needs of students who 
have experienced historical trauma.
    We heard about Marshall feeling more at home with students 
at Chemawa because of that connection. Congressman Schrader and 
I have been working with the school. I know they are trying to 
recruit and retain Native teachers and staff. And we are 
calling on the BIE to provide more information about 
recruitment and retention efforts. But we have not received a 
sufficient response to that request.
    We know how important it is to preserve the expression of 
tribal traditions and customs. I am really disturbed at not 
even allowing students to wear tribal clothing. That baffles 
me. I don't understand that.
    We have heard that teachers and staff receive a culturally 
informed 3-day training. What is that? What is in that 
training? How can they learn everything in 3 days? And is there 
evidence it is effective? And what are you doing to improve the 
recruitment and retention of Native teachers and staff?
    Mr. Cruz. I don't know about that specific 3-day training. 
But I will say, across the board, Indian Affairs, in the two 
bureaus we have Indian preference. So, most of our employees 
need to be Native American. And then we try to do that at the 
teacher level as well as get as many enrolled Native Americans 
in front of the classroom. Education statistics show students 
do better if they have a Native American teacher in the 
classroom. So, that is definitely a priority of the BIE.
    I think where we could work together is within the 
significant backlog in the background checks over at OPM. Our 
teachers need to undergo the same security background check to 
be in the school. So, whether it is the teacher, whether it is 
a parent volunteer, BIE really struggles across the system with 
getting some of those other culturally relevant and specific 
services in the school because of those background checks.
    Ms. Bonamici. And quickly because the time is expiring, you 
said you don't know about the culture, you can't answer 
questions about the culturally informed 3-day training. Who can 
answer those questions if you can't, Mr. Cruz?
    Mr. Cruz. I will have the Bureau of Indian Education get 
you an answer for that.
    Ms. Bonamici. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gallego. I recognize Representative Schrader.
    Dr. Schrader. Thank you, Mr. Chairman. I request unanimous 
consent to enter into the record a series of letters from the 
Oregon delegation to Mr. Tahsuda at the Office of the Assistant 
Secretary, Indian Affairs, IHS, Department of Education, as 
well as the responses we received from those agencies.

    Mr. Gallego. Without objection, so moved.

    [The information follows:]

                     Congress of the United States,
                                             Washington, DC

                                                  November 14, 2017

The Honorable John Tahsuda III
Principal Deputy Assistant Secretary for Indian Affairs
U.S. Department of the Interior
1849 C Street NW
Washington, DC 20240

    Dear Mr. Tahsuda:

    We are writing in follow up to a recent series by Oregon Public 
Broadcasting (OPB) highlighting Chemawa Indian School in Salem, Oregon, 
and the significant allegations raised. OPB's investigation highlights 
serious concerns with the management, alleged abuse, lack of 
transparency, and fraud at the Chemawa Indian School.
    Specifically, we have concerns with:

    <bullet> Student safety and health, including an alarmingly high 
            report of incidents in recent years requiring involvement 
            from law enforcement;

    <bullet> Academic failings and high fluctuations in enrollment from 
            semester to semester, as well as debilitating staff 
            turnover rates and vacancies;

    <bullet> The staffs ability to report problems and concerns, and 
            alleged retaliation against whistleblowers;

    <bullet> Overall transparency from the school with regards to rules 
            and regulations for leadership and decision making.

    We support the school's mission to provide a high school education 
alongside an education in tribal heritage and vocational skills to 
Native American youth. It is our mission to ensure the safety and 
prosperity of the students entrusted to the school. We thank you for 
your attention to these questions and our concerns, and look forward to 
a swift response.

            Sincerely,

        Kurt Schrader,                Ron Wyden,
        Member of Congress            U.S. Senator

        Jeffrey Merkley,              Peter DeFazio,
        U.S. Senator                  Member of Congress

        Earl Blumenauer,              Suzanne Bonamici,
        Member of Congress            Member of Congress

                                 *****

                               ATTACHMENT

 oregon's congressional delegation questions about the chemawa indian 
                                 school

    <bullet> How does Chemawa compare in funding levels per student to 
            the three other boarding schools under BIE's jurisdiction?

    <bullet> Local tribes are worried that students are not meeting 
            academic standards. What are the benchmarks of success at 
            Chemawa and what structures exist to help students be as 
            successful as possible during their time at the school and 
            after?

    <bullet> Does the BIE hold educators at Chemawa to the same 
            standards as educators across the Oregon public school 
            system are held to by Teacher Standards and Practices 
            Commission (TSPC)? If not, what are the requirements to 
            become an educator at Chemawa, and what specific standards 
            are educators at Chemawa held to?

    <bullet> Students at Chemawa often come to the school from troubled 
            circumstances--their own communities are unable to support 
            them and Chemawa is often seen as a safer alternative for 
            them. Local tribes are concerned that staff at the school 
            are not equipped or willing to help these students 
            adequately. What are the school's policies and procedures 
            for training teachers and support staff to handle the 
            mental health, behavioral, legal, and academic problems of 
            these students? How does this compare to the three other 
            boarding schools?

    <bullet> Regarding concerns raised about the lack of safe avenues 
            for staff to report issues and raise concerns with 
            productive feedback and/or success:

          o  What is the school's policy for reporting problems?

          o  How does the administration intake such reports and 
        address potential problems?

          o  What policies does BIE have to protect whistleblowers?

          o  Does BIE involve itself is the above, or is this entirely 
        left to the school? And if so, how does this compare to the 
        other three boarding schools?

    <bullet> The devastating turnover rate at the administration level 
            is particularly concerning--nine superintendents in 11 
            years, excluding short-term interim superintendents. This 
            alarmingly high turnover creates an unstable leadership 
            environment that impacts the school on every level:

          o  How does this compare other schools and what is the cause 
        for such high turnover?

          o  What processes are in place to help transition incoming 
        superintendents to ensure smooth transitions and retention?

    <bullet> Transparency from the school and its governing structure 
            has been under scrutiny for years. What are the policies 
            and procedures around election of the school board and how 
            the administration team is hired?

                                 ______
                                 

          United States Department of the Interior,
                                 Office of the Secretary,  
                                             Washington, DC

                                                     April 16, 2018

The Honorable Kurt Schrader
U.S. House of Representatives
Washington, DC 20515

    Dear Representative Schrader:

    Thank you for your letter dated November 14, 2017, sharing your 
concerns highlighted by the recent Oregon Public Broadcasting report 
regarding the Chemawa Indian School (Chemawa) in Salem, Oregon.
    Concerning the comparison of per-student funding levels at Chemawa 
and the three other boarding schools under the Bureau of Indian 
Education's (BIE) jurisdiction, BIE allocates the same funding per 
weighted student unit (WSU) to all of its schools. The WSU is achieved 
by calculating a rolling 3-year average student membership. Formulas 
are defined using the Indian School Equalization Formula found at 25 
CFR 39.100 and 25 CFR 3 Subpart B.
    Your letter references local Tribal concerns regarding Chemawa 
students' abilities to meet academic standards. Chemawa, like all BIE 
schools, must comply with all statewide requirements for graduation and 
assessments. Chemawa requires an additional writing and culture cluster 
credit beyond Oregon's requirements. Many students arrive at Chemawa 
with existing credit deficiencies, so Chemawa has established a 
trimester schedule to provide those students with credit deficiencies 
an opportunity to attain additional credits to help bridge any gaps. 
Further, Chemawa's courses comply with Oregon's academic standards, and 
student academic growth is monitored 3 times per year utilizing the 
Northwest Evaluation Association's Measures of Academic Progress 
assessments.
    Chemawa is working to raise its standards for academic achievement 
and post-secondary success through a variety of methods. Students have 
opportunities to take classes at Chemketa Community College, where 
students can obtain both high school and college credit on campus 
through the Willamette Promise. Last year, Chemawa began a rigorous ACT 
preparatory program, which resulted in a 3-point increase in ACT 
composite scores overall. Chemawa expanded the program this year to 
serve more students. There are on-campus academic supports and 
interventions for Chemawa students to assist in addressing students' 
personal developmental needs through afterschool tutoring and college 
preparatory sessions.
    In addition, Chemawa holds a mandatory evening study hour Monday 
through Thursday in which peer tutors, staff, and student tutors from 
Willamette University assist students with academic needs. Each week, 
student achievement is monitored and those students requiring 
assistance are placed in an additional afterschool support program. 
There is a math lab during the academic day for those requiring one-on-
one assistance. Chemawa is an Advancement Via Individual Determination 
(AVID) school. This year, nearly all academic staff were trained in 
AVID strategies (organization, writing, inquiry, and rigor), which have 
been instituted across content areas. To help students prepare for 
careers, Chemawa provides students with employment and certification 
opportunities while in school. Chemawa trains and employs students to 
work with facilities, food service, student enterprise, and more. 
Students also receive food handler and lifeguard trainings that assist 
in employment following graduation.
    The BIE standards for education require all Chemawa teachers to 
hold Oregon licensure in their content area through Oregon's Teacher 
Standards and Practices. Teachers without licensure are not hired into 
teaching positions.
    Like any school, there are issues that can arise; but Chemawa, as a 
24-hour facility, exists to serve the many and varying needs of its 
students. To assist in retention, all staff are trained annually in a 
myriad of social, emotional, and behavioral supports for students, 
include suicide prevention and deescalation. As such, all staff, 
including academic and residential counselors, social workers, and 
special education staff, have been provided training regarding trauma-
informed care and positive-behavior support interventions. Over the 
past 5 years, the academic department has worked to develop a 
comprehensive school-based, trauma-informed care treatment and 
prevention program. Chemawa developed and implemented therapeutic 
services for students into the school day to minimize classroom 
disruption for students to attend offsite student support. Chemawa is 
also working closely with the Indian Health Service's Behavioral Health 
located nearby to provide such programs.
    In addition to Chemawa, BIE serves students with 7 off-reservation 
boarding schools (ORBS) within its school system. The BIE Director 
meets regularly with all ORBS leadership to discuss the policies and 
practices used and ensures necessary training is provided to increase 
consistency among the ORBS. Staff concerns are addressed through chain-
of-command procedures, and reporting includes efforts to resolve 
concerns at the level at which they occur. If a concern is not 
addressed or resolved at the lowest level, it is then elevated to the 
next line supervisor to address and resolve if possible. Staff are 
routinely reminded of these avenues to address concerns in an efficient 
manner. In addition to regular staff meetings, Chemawa issues an annual 
staff survey providing staff an opportunity to anonymously voice 
concerns and give input.
    For students in particular, Chemawa provides multiple avenues to 
report issues, including reporting a concern: (1) directly to a staff 
member or administrator; (2) through the Student Council to share at 
their monthly meetings with administration; and (3) submitting a 
confidential student concern form. In addition, a school climate/
improvement survey is administered 3 times per year for progress 
monitoring.
    Issues or concerns that arise regarding students at Chemawa are 
addressed and documented in appropriate proportion to their severity. 
All staff are mandated to report cases of suspected neglect; physical, 
emotional, sexual, and verbal abuse; and unprofessional behavior toward 
a student. This includes if the alleged offender is a staff member. In 
these cases, reports are handled directly by the superintendent 
(principal) to process and make notifications according to established 
BIE policy. Those concerns that do not fall under mandatory reporting 
protocols are addressed and documented at the lowest level.
    The Student Council and administration meet monthly to discuss 
concerns and provide feedback on the previous month's action items, and 
surveys are compiled and prioritized through leadership meetings and 
staff meetings. Concern forms are collected daily and submitted to the 
superintendent, who logs them and refers them to the proper departments 
to address and resolve the issues. The leadership team reviews survey 
results to determine areas of need for improvement and implements 
strategies to achieve such improvements. This is also completed when 
the team reviews academic and behavioral data.
    Since staff are Federal employees, they are covered under the 
Federal Whistleblower Protection Act. Employees undergo annual 
trainings in correlation to the No Fear Act. The training provides 
supervisors and staff with information on whistleblowing and reprisals. 
The No Fear Act training is monitored through data systems and the 
Department of the Interior's Office of Civil Rights. Supervisors are 
advised when training is available, notified when employees complete 
the training, and informed about employees who have not completed the 
training. All ORBS supervisors and staff are required to take the 
annual training.
    Similar to other BIE schools, leadership is aware of the high 
turnover rate at Chemawa and we appreciate your attention to this 
matter. Chemawa staff are hired under the Federal guidelines for 
employment. Vacancies are advertised through the BIE website but the 
recent superintendent's position was advertised and selected from 
USAJobs. Since there were no qualified Indian Preference applicants 
after advertising the position four times on the BIE website, it was 
determined that we would advertise on USAJobs and widen the area of 
recruitment. The BIE attributes the high number of interim 
superintendents at Chemawa to an inability to attract highly-qualified 
American Indian applicants to the position. It was for this reason that 
an unprecedented job search took place for the current superintendent.
    Superintendents generally experience high stress and are subject to 
accountability at ORBS. Superintendents are on call 24 hours a day for 
the full 7 days a week when students are on campus. They deal with 
large numbers of crises each year and must overcome serious challenges. 
This position requires many hours of work, leaving little time for 
outside activities and family. It is a unique, strong, and passionate 
individual that sustains this type of work for the long term. In the 
past 11 years, there were only 3 permanent superintendents in the 
position and 9 interim superintendents as some were detailed into the 
position to ensure service delivery.
    While issues still persist at many BIE schools, BIE is working to 
improve training and support for all school leaders. The current 
Chemawa superintendent was assigned a mentor from another ORBS to share 
best practices and set processes and procedures. In recent years, BIE 
has established face-to-face meetings with all ORBS leaders at least 
twice a year and provides additional training opportunities for school 
leaders throughout the year as they are needed.
    Finally, BIE's regulations concerning policies and procedures for 
the election of school board members are found at 25 CFR 38.3. Specific 
to Chemawa, the five Tribes with the highest student membership 
attending Chemawa are represented on the school board. The school board 
membership has staggered terms to ensure there are veteran members and 
new members present. Each time a member's service is concluding, 
Chemawa contacts the Tribe for a nominee to serve as a school board 
member. In some cases, the Tribe may renominate their current school 
board representative. The school board represents the Tribes and 
students, not the Federal Government.
    Chemawa leadership is committed to improving service delivery and 
ensuring BIB students have the support needed to succeed in school and 
beyond. We appreciate your support of BIE students and the school's 
mission. We look forward to working with you to improve educational 
opportunities for Indian students.
    If you have questions, please contact Mr. Tony Dearman, BIE 
Director, at (202) 208-6123 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="297d464750076d4c485b5b474847694b404c074c4d5c07">[email&#160;protected]</a> A similar letter 
will be sent to the cosigners of your letter.

            Sincerely,

                                              John Tahsuda,
             Principal Deputy Assistant Secretary--Indian Affairs  
exercising the authority of the Assistant Secretary--Indian Affairs

                                 ______
                                 

                     Congress of the United States,
                                             Washington, DC

                                                       June 8, 2018

The Honorable John Tahsuda III
Principal Deputy Assistant Secretary for Indian Affairs
U.S. Department of the Interior
1849 C Street NW
Washington, DC 20240

    Dear Mr. Tahsuda:

    On May 3, 2018, we held a meeting at Chemawa with Director of the 
Bureau of Indian Education (BIE) Tony Dearman, Chemawa Superintendent 
Lora Braucher, several Chemawa administrators, and tribal leaders from 
seven of the nine federally recognized tribes in Oregon. Our 
discussions were wide-ranging and covered many of the concerns raised 
in a letter we wrote to you in November 2017.

    We are heartened by the willingness Director Dearman and Chemawa 
administrators expressed to work with us. However, even with your 
written response dated April 16, 2018, and this meeting, many questions 
and concerns remain. In an effort to keep the conversation moving in a 
positive direction, we request that you allow staff at Chemawa as well 
as staff at BIE to speak freely with us. In the meantime, we request 
your timely response to the following questions:

  1.  In our meeting, we were told that the Office of the Assistant 
            Secretary-Indian Affairs (Indian Affairs) has a policy 
            prohibiting direct communication between the Congressional 
            delegation and Chemawa and BIE officials, which complicates 
            productive and meaningful communication. We request that 
            this policy be changed to allow BIE administrators and 
            staff to speak freely with Members of Congress, which would 
            make legislation to do so unnecessary.

  2.  The response dated April 16, 2018, from Indian Affairs referenced 
            a system of ``chain-of-command'' procedures to resolve 
            staff complaints at the lowest possible level. In detail, 
            please describe these chain-of-command procedures for 
            addressing complaints made by staff.

          a.  How does this system address complaints about direct 
        supervisors?

          b.   Is there a process for staff to report issues to BIE 
        superiors outside of the school if a staffer feels their 
        concern was not properly honored through the chain-of-command?

  3.  The April 16 response also described an annual staff survey and a 
            thrice-yearly school climate/improvement survey for staff 
            and students to provide input and report concerns.

          a.  What are the key areas of concern that arise from these 
        assessments?

          b.  What does the school do to address these areas of 
        concern?

  4.  We request a detailed copy of Chemawa's most recent school 
            budget.

  5.  What is the annual revenue of the student fund, comprising of 
            outside income from business ventures on the school's land?

          a.  How is the money used?

          b.  Who has oversight over it?

  6.  It is our understanding that there are no written audit records 
            of Chemawa's finances.

          a.   Is this in accordance with Indian Affairs regulations 
        for the management of federal funds?

          b.  How is financial oversight of Chemawa's funds conducted?

  7.  It is also our understanding that the majority of purchases and 
            acquisitions for Chemawa go through Indian Affairs, causing 
            delays and inefficiencies.

          a.  What is the procurement protocol for food and supplies at 
        Chemawa?

          b.  How can this be simplified and expedited?

  8.  We are concerned about the maintenance of Chemawa's old, historic 
            campus. A September 2016 report by the Department of the 
            Interior's Inspector General (OIG) found systemic facility 
            deficiencies at BIE schools, endangering student health and 
            safety.

          a.  How are these deficiencies being addressed, specifically 
        at Chemawa?

          b.   What is the estimated cost of the necessary renovations 
        and maintenance of the Chemawa campus?

          c.  Is this the responsibility of BIE or the Bureau of Indian 
        Affairs (BIA)?

  9.  The response from Indian Affairs stated that Chemawa has 
            established a trimester schedule, as opposed to a semester 
            schedule, to help students who arrive with credit 
            deficiencies gain additional credits.

          a.  Is this standard practice at BIE schools?

          b.   Have you analyzed the success of this move to 
        accelerated trimester-length curricula, in contrast to more 
        traditional semester-length classes?

  10. What changes to the recruitment process can be implemented to 
            increase Native American teachers at Chemawa?

  11. Please describe the policies and procedures to train teachers and 
            support staff to meet the mental health, behavioral, legal, 
            and academic needs of the students. How does this training 
            acknowledge the unique historical trauma experienced by 
            Native American communities?

  12. What is the current staff vacancy rate at Chemawa?

  13. We received a list of current Chemawa school board members, their 
            tribal membership, and their term dates. According to this 
            list and the most recent available student data, the school 
            board is not representative of the description we were 
            given in Indian Affairs' response to our initial letter: 
            comprising of members from the top five tribes with the 
            highest student membership at Chemawa, appointed to 
            staggered terms.

          a.   Please explain why the current school board is not 
        reflective of this description.

          b.   What is BIE doing in the anticipation of all five board 
        members terms ending on August 30, 2018?

          c.  Please also describe the school board's role, authority, 
        and responsibilities.

  14. What is BIE policy for the expression of tribal religions, 
            traditions, and customs at Indian schools, particularly 
            those with diverse student bodies like Chemawa where 84 
            tribes are represented among the student body? The letter 
            from Indian Affairs referenced a writing and cultural 
            cluster credit required for all Chemawa students--what is 
            the curriculum for this, and how does the school determine 
            what tribal customs are included?

    We support Chemawa's mission to provide opportunities for success 
to Native high school students from across the country, and their focus 
on academic and cultural education, college readiness, and work force 
training. We look forward to working with you, the Bureau of Indian 
Education, the staff and students at Chemawa, and our tribal leaders 
and thank you for your attention to our questions.

            Sincerely,

        Kurt Schrader,                Ron Wyden,
        Member of Congress            U.S. Senator

        Jeffrey Merkley,              Peter DeFazio,
        U.S. Senator                  Member of Congress

        Earl Blumenauer,              Suzanne Bonamici,
        Member of Congress            Member of Congress

                                 ______
                                 

                     Congress of the United States,
                                             Washington, DC

                                                       June 8, 2018

The Honorable Betsy DeVos
Secretary
U.S. Department of Education
400 Maryland Ave., S.W.
Washington, DC 20202

    Dear Secretary DeVos:

    We write today regarding the Department of Education's 
(``Department'') decision to withhold the Bureau of Indian Education's 
(BIE) fiscal year 2017-2018 Title I, Part A (Title I) funding.
    As part of the federal trust responsibility to American Indians, 
the BIE has a duty to provide American Indian children with a high-
quality education that honors tribal cultures and traditions. According 
to the National Indian Education Association, ``the federal trust 
responsibility includes a fiduciary obligation to provide parity in 
access to all American Indian and Alaska Native students, regardless of 
where they attend school.'' \1\
---------------------------------------------------------------------------
    \1\ http://www.niea.org/wp-content/uploads/2016/02/NIEAs-Written-
Testimony-for-the-Department-of-Education-Tribal-Consultation-on-the-
Bureau-of-Indian-Education.pdf
---------------------------------------------------------------------------
    Currently, BIE supports 183 elementary and secondary schools and 
dormitories in 23 states. In addition to funding from the Department of 
Interior, BIE receives funding from the Department in accordance with 
the Elementary and Secondary Education Act (ESEA) of 1965, as amended 
by the Every Student Succeeds Act (ESSA). Under ESEA, Title I funding 
is allocated to schools and school districts to help low-income 
students succeed in K-12 education and beyond. This funding is a vital 
resource to improve educational opportunities and outcomes for more 
than 40,000 American Indian and Alaska Native children attending BIE 
schools, including students at Chemawa Indian School in Salem, Oregon.
    In April 2018, the Department announced a tribal consultation 
regarding the BIE's oversight and administration of federal programs 
funded through the Department. The Department did not publish notice of 
the consultation in the Federal Register, as required.\2\ BIE was not 
in attendance and was not included in the planning of the 
consultation.\3\ In addition, the announcement for this consultation 
stated that the Department is withholding $1.6 million in Title I 
funding because the BIE missed the October 2, 2017 deadline for the 
ESSA negotiated rulemaking committee.\4\
---------------------------------------------------------------------------
    \2\ https://www.politico.com/newsletters/morning-education/2018/05/
03/continued-friction-over-indian-education-funding-202291
    \3\ http://www.niea.org/wp-content/uploads/2016/02/NIEAs-Written-
Testimony-for-the-Department-of-Education-Tribal-Consultation-on-the-
Bureau-of-Indian-Education.pdf
    \4\ https://www.politico.com/newsletters/morning-education/2018/05/
03/continued-friction-over-indian-education-funding-202291
---------------------------------------------------------------------------
    On October 26, 2017, the BIE completed the required action by 
submitting the names of the nominees for the negotiated rulemaking 
committee.\5\ Further, on April 17, 2018, the BIE announced the 
proposed members to form the negotiated rulemaking committee.\6\ The 
Department, however, continues to withhold BIE's Title I funding.
---------------------------------------------------------------------------
    \5\ Ibid
    \6\ https://www.federalregister.gov/documents/2018/04/17/2018-
07922/bureau-of-indian-education-standards-assessments-and-
accountability-system-negotiated-rulemaking

    The Department should be working with the BIE to adhere to the 
federal trust responsibility to provide all American Indian students 
the opportunity to learn and achieve academic success. We are concerned 
that the withholding of BIE's Title I funding will affect the BIE's 
ability to provide a high-quality education to American Indian 
students. In Oregon, American Indian students face many education 
challenges, including low graduation rates, low standardized test 
scores, and a widening achievement gap.\7\ Additionally, we are also 
concerned about the Department's lack of communication and consultation 
with the BIE and tribal leaders. To address our concerns, we request 
your response to the following questions:
---------------------------------------------------------------------------
    \7\ http://www.oregon.gov/ode/reports-and-data/researchbriefs/
Documents/Internal/American_Indian_Alaska_Native_Students_In_Oregon.pdf

  1.  Why is the Department continuing to withhold the BIE's Title I 
---------------------------------------------------------------------------
            funding?

  2.  How can the Department work with the BIE to meet the federal 
            requirements of the Title I program?

  3.  How has the Department engaged with BIE representatives on the 
            tribal consultation process?

  4.  How is the Department working to strengthen consultation with BIE 
            and tribal leaders to deliver federal resources and 
            programs to American Indian students?

    Thank you for your prompt attention to this issue; we look forward 
to hearing from you.

            Sincerely,

        Suzanne Bonamici,             Ron Wyden,
        Member of Congress            U.S. Senator

        Jeffrey Merkley,              Kurt Schrader,
        U.S. Senator                  Member of Congress

        Peter DeFazio,                Earl Blumenauer,
        Member of Congress            Member of Congress

                                 ______
                                 
                     Congress of the United States,
                                             Washington, DC

                                                       June 8, 2018

Michael D. Weahkee, Director
Department of Health and Human Services
Indian Health Service
5600 Fishers Lane
Rockville, MD 20857

    Dear Director Weahkee:

    On May 3, 2018, we held a meeting at Chemawa Indian School with 
Director of Indian Education, Tony Dearman, Chemawa administrators, and 
tribal leaders from seven of the nine federally recognized tribes in 
Oregon. A number of issues were discussed, including the health and 
safety of Chemawa students.

    As you are likely aware, there have been two student deaths on 
campus in the last 15 years and a number of other health and safety 
incidents. Our understanding is that Chemawa administrators feel like 
they lack the necessary health information about the students to keep 
them safe and healthy on campus. Because Indian Health Services' 
Western Oregon Service Unit is housed at Chemawa and is the primary 
source of healthcare for students, collaboration with IHS is critical. 
To this end, our offices would like to ask the following questions:

    <bullet> How can Indian Health Services' administration help 
            Chemawa improve the health, safety, and well-being of the 
            students that attend the school and reside on campus?

    <bullet> Are there healthcare supports that other Tribal Schools 
            receive that could assist Chemawa?

    <bullet> Are there medical, mental health, or substance use 
            screening tools that Chemawa could utilize to improve 
            health and safety?

    <bullet> What policies are in place regarding the sharing of 
            student medical information with Chemawa administrators, 
            particularly those in charge of residential services and 
            acting in loco parentis?

    <bullet> What processes or policies have other Tribal schools 
            implemented that have been successful?

    We believe that Chemawa Indian School wants to improve the health 
and well-being of their students and we support them in this effort. We 
look forward to working with you, the staff and students at Chemawa, 
and our tribal leaders as we work toward this goal together. Thank you 
for your attention to our questions, we look forward to your response.

            Sincerely,

        Jeffrey Merkley,              Ron Wyden,
        U.S. Senator                  U.S. Senator

        Kurt Schrader,                Peter DeFazio,
        Member of Congress            Member of Congress

        Earl Blumenauer,              Suzanne Bonamici,
        Member of Congress            Member of Congress

                                 ______
                                 
             United States Department of Education,
            Office of Elementary and Secondary Education,  
                                             Washington, DC

                                                 September 18, 2018

The Honorable Kurt Schrader
U.S. House of Representatives
Washington, DC 20515

    Dear Representative Schrader:

    Thank you for your June 8, 2018 letter regarding withholding the 
State administrative portion of fiscal year (FY) 2017 Title I, Part A 
(Title I) funds from the Bureau of Indian Education (BIE). A response 
will be sent to each signatory of your letter. I am pleased to report 
that our two agencies have worked together successfully and that the 
Department is in the process of releasing all of the FY 2017 Title I, 
Part A (Title I) funds previously withheld.
    On March 5, 2018, the U.S. Department of Education (the Department) 
notified BIE of the decision to withhold funds. The decision was made 
in response to BIE's failure to implement the requirements of Title I, 
Part A, and BIE's failure to comply with the statutory requirement in 
section 8204(c) of the Elementary and Secondary Education Act of 1965, 
as amended by the Every Student Succeeds Act (ESEA), which requires the 
BIE to develop standards, assessments and an accountability system for 
the BIE-funded schools through a negotiated rulemaking process in time 
for such requirements to be in place for the 2017-2018 school year 
(SY). BIE has had since December 2015 to comply with this requirement.
    The Department granted BIE an extension to meet these requirements 
until SY 2018-2019 in a July 2017 amendment to the Memorandum of 
Agreement (MOA) between the Department and BIE. The MOA amendment 
stipulates that the Department ``may take action if BIE does not meet 
these responsibilities, including withholding part or all of the State 
administrative portion of the Title I, Part A funds.'' The 
responsibilities referenced include ``complet[ing] the negotiated 
rulemaking . . . in time for new BIE regulations to be effective for 
school year 2018-2019.'' As you stated, BIE has started the negotiated 
rulemaking process. However, BIE remains in the initial stages, meaning 
that the established final regulations will not be complete by the 
agreed upon deadline, which is SY 2018-2019.
    Because the Department is committed to honoring its government-to-
government relationship with federally recognized tribes and to 
engaging in regular and meaningful consultation with Indian tribes, the 
Department held a Tribal consultation on April 22, 2018, consistent 
with our Tribal consultation policy, on the topics of how to direct the 
use of the withheld Title I funds and BIE's management of several 
Department programs. The Department received oral testimony and written 
comments from Tribes and other stakeholders urging the Department to 
direct the use of the withheld funds to complete negotiated rulemaking 
in a timely manner. We considered all feedback before we made a 
determination regarding the withheld funds. On July 3, 2018, the 
Department notified BIE of our intent to restore 50 percent of BIE's 
State administrative portion of Title I, Part A funds that were 
previously withheld. We conditioned receipt of the remaining funds on 
the completion of four key actions related to the negotiated rulemaking 
because BIE is significantly behind the timeline of having regulations 
in place for school year 2018-2019. BIE has now completed these items, 
as evidenced by a submission to the Department on August 10, 2018, and 
therefore we will be releasing 100 percent of the funds.
    As you may be aware, a number of Government Accountability Office 
reports since 2005 have identified issues with BIE's administration of 
federal education programs; in addition, BIE has been working with the 
Department under a Corrective Action Plan to address problems involving 
BIE's administration of both the Title I program and the Individuals 
with Disabilities Education Act (IDEA), Part B program. The Department 
has been working with BIE for a number of years to ensure that the 
funds the Department is statutorily required to provide to BIE are 
managed in compliance with the law and in the best interests of 
students. We remain committed to working with BIE to support improving 
its implementation of the ESEA and IDEA programs through technical 
assistance.\5\ In addition, the Department and the BIE held a joint 
listening session for Tribes on June 3, 2018, and a joint Tribal 
consultation on June 29, 2018, gathering input on ways to strengthen 
BIE's role in implementing the Title I and IDEA programs, as well as 
other topics related to the BIE-funded schools. We also meet with BIE 
on a regular basis to provide technical assistance.
---------------------------------------------------------------------------
    \5\ BIE has been receiving technical assistance from the 
Department's Comprehensive Centers supporting ESEA programs since the 
FY 2016 Consolidated Appropriation Acts, which granted to BIE the 
ability to access services from these centers. BIE has also been 
receiving assistance from Department-funded centers supporting IDEA 
programs including the National Center for Systemic Improvement, the 
IDEA Data Center, and the National Technical Assistance Center on 
Transition.
---------------------------------------------------------------------------
    I appreciate your letter and recognize the importance of ensuring 
that youth attending BIE-funded schools in Oregon, and across the 
nation, are afforded the opportunity to receive a high quality 
education and are prepared for postsecondary success. I look forward to 
continuing to work with BIE, Tribal leaders and other stakeholders.

            Sincerely,

                                              Frank Brogan,
        Assistant Secretary for Elementary and Secondary Education.

                                 ______
                                 

             Department of Health & Human Services,
                                   Indian Health Service,  
                                              Rockville, MD

                                                      July 10, 2018

The Honorable Kurt Schrader
U.S. House of Representatives
Washington, DC 20515

    Dear Representative Schrader:

    I am responding to your June 8 letter, which provides your concerns 
about the Indian Health Service (IHS) Western Oregon Service Unit 
(WOSU) and the Chemawa Indian School. Your letter specified five 
questions for IHS response. I appreciate the opportunity to respond to 
your questions and discuss Agency efforts to raise the physical, 
mental, social, and spiritual health of American Indians and Alaska 
Natives to the highest level.
    The WOSU provides health care to American Indian and Alaska Native 
people who reside within the area. The Service Unit serves Tribal 
members from more than 100 tribes, which includes the students at the 
Chemawa Indian School. We provide quality patient care at WOSU and 
continuously work to improve the level of care for patients served at 
our facility. In 2014 the American Academy of Pediatrics' Committee on 
Native American Child Health completed an onsite assessment and 
identified WOSU's programs and implementation approach as a best 
practice to be replicated within all boarding school health systems.
    The IHS is committed to working with staff at the Chemawa Indian 
School and other stakeholders to ensure the students receive quality 
care. Enclosed are our responses to your questions. I trust this 
information is helpful. I will also provide this response to the co-
signers of your letter.

            Sincerely,

                        RADM Michael D. Weahkee, MBA, MHSA,
                                        Assistant Surgeon General, 
                        U.S. Public Health Service Acting Director.

                                 *****

                     Indian Health Service Response

               Regarding the Western Oregon Service Unit

    Question 1. How can Indian Health Service's administration help 
Chemawa improve the health, safety, and well-being of the students that 
attend the school and reside on campus?

    IHS Response: The Indian Health Service (IHS) is dedicated to 
addressing health issues across Indian Country, with a special focus on 
Native youth. In 2016, the IHS and the U.S. Department of the 
Interior's Bureau of Indian Affairs (BIA) and Bureau of Indian 
Education (BIE) entered into an Interagency Agreement that will 
increase access to mental and behavioral health services for students 
attending BIE schools and youth detained in BIA Office of Justice 
Services facilities. This Interagency Agreement formalizes an important 
partnership and is a major step towards expanding access to quality 
health care for Native youth.
    The IHS Western Oregon Service Unit (WOSU) is focused on ensuring 
that the students at the Chemawa Indian School are healthy and receive 
quality care. The WOSU provides each student a primary care team that 
includes a public health nurse, dental services, and optometry. More 
importantly, each student is prioritized in scheduling for care. Within 
the past 6 years, WOSU increased student mental health visits from 
1,581 annual visits to 9,145 annual visits. The Service Unit has also 
expanded services to include individual treatment, group therapy in 
music and art, and prevention services with positive youth development. 
These expanded services support student retention with decreased 
discipline referrals, decreased substance abuse incidents, and 
increased graduation rates.
    As a reflection of WOSU's dedication to the Chemawa students, in 
2014 the American Academy of Pediatrics' Committee on Native American 
Child Health completed an onsite assessment and identified WOSU's 
programs and implementation approach as a best practice to be 
replicated within all Indian boarding school health systems.

    Question 2. Are there healthcare supports that other Tribal Schools 
receive that could assist Chemawa?

    IHS Response: In addition to the medical and behavioral health 
services that are provided to Native students, the IHS operates the 
Substance Abuse and Suicide Prevention Program (SASPP). The WOSU 
receives SASPP funding to promote early intervention strategies and 
implement positive youth development aimed at reducing risk factors for 
suicidal behavior and substance abuse for Native youth at the Chemawa 
Indian School. Through the initiation of a campus-wide Project Venture 
program, SASPP funding benefits the students by offering an evidenced-
based, culturally guided and experiential youth development program. In 
addition to providing direct behavioral health services via the WOSU, 
Project Venture supports ongoing cultural activities with the youth and 
community to build cultural identity.
    The IHS also provides recurring funding to 12 tribally and 
federally operated Youth Residential Treatment Centers (YRTCs) to 
address substance abuse and co-occurring disorders among American 
Indian and Alaska Native youth. The YRTCs provide a range of clinical 
services rooted in a culturally relevant, holistic model of care. 
Services include clinical evaluation; substance abuse education; group, 
individual, and family psychotherapy; art therapy; adventure-based 
counseling; life skills; medication management or monitoring; evidence- 
and practice-based treatment; aftercare relapse prevention; and post-
treatment follow-up services. Many schools serving Native youth refer 
students who are struggling with substance use to YRTCs to access more 
focused care, with the option for students to return back to their 
school once the treatment program is completed.

    Question 3. Are there medical, mental health, or substance use 
screening tools that Chemawa could utilize to improve health and 
safety?

    IHS Response: The WOSU screens all students attending the Chemawa 
Indian School within two weeks of attendance to assess medical, dental, 
optometry, mental health, and substance abuse risk factors. These 
screenings allow the WOSU to prioritize services and care coordination 
for all students. The WOSU uses current standard of practice screening 
tools in all areas of the initial assessments. At the end of each 
school year, the WOSU assesses those students that will be returning 
the following year in order for them to be immediately placed into IHS 
services upon arriving for the new school year.

    Question 4. What policies are in place regarding the sharing of 
student medical information with Chemawa administrators, particularly 
those in charge of residential services and acting in loco parentis?

    IHS Response: The WOSU follows IHS policy on patient rights and 
privacy, which includes compliance with the Health Insurance 
Portability and Accountability Act (HIPAA) and the Privacy Act, among 
other relevant requirements. Accordingly, the release of a student's 
protected health information to parents and authorized personal 
representatives, such as those acting in loco parentis, must follow the 
Agency's policies \1\ that take into account applicable laws.
---------------------------------------------------------------------------
    \1\ Indian Health Manual, Part 3, Chapter 3, Health Information 
Management.
---------------------------------------------------------------------------
    In 2016, WOSU and the Chemawa Indian School established a joint 
workgroup to improve information sharing processes. Throughout the 
school year, ongoing care coordination between WOSU and the Chemawa 
Indian School includes collaborative case management review meetings to 
increase availability and timeliness of communication for pertinent 
clinical information. In addition, the WOSU Chief Executive Officer 
initiated monthly leadership meetings with the Chemawa Indian School 
management to continue the work of sharing information and discuss key 
areas about student health care.

    Question 5. What processes or policies have other Tribal schools 
implemented that have been successful?

    IHS Response: The IHS recommends this question be referred to the 
Department of the Interior, Bureau of Indian Education for a response.

                                 ______
                                 

          United States Department of the Interior,
                                 Office of the Secretary,  
                                             Washington, DC

                                                     March 15, 2019

The Honorable Kurt Schrader
U.S. House of Representatives
Washington, DC 20515

    Dear Representative Schrader:

    Thank you for your letter dated June 8, 2018, to the Principal 
Deputy Assistant Secretary--Indian Affairs sharing your concerns 
regarding Chemawa Indian School (Chemawa) in Salem, Oregon. I 
appreciate your continued support of Indian students and the Bureau of 
Indian Education (BIE), and I apologize for the delay in response.
    To begin, Indian Affairs does not have a formal policy prohibiting 
teacher communication with members of Congress. However, it is 
important that all of our employees follow the proper internal 
notification procedures for external communications. As such, we work 
to coordinate our communications functions, as an agency, through 
Indian Affairs.
Employee Protections
    The BIE procedures to resolve staff concerns and complaints about 
direct supervisors are reported and addressed to their second level 
supervisor. The chain-of-command allows all employees to address their 
concerns to next level supervisors when they feel a concern was not 
honored or addressed. This includes engaging support from BIE Education 
Program Administrators, who provide technical assistance and support to 
schools and staff, if concerns are not resolved locally.
    In April 2018, the Department of the Interior (Department) issued 
the Prevention and Elimination of Harassing Conduct policy to address 
and prevent harassment in the workplace. The policy provides a clear 
definition of unacceptable harassing conduct and establishes required 
reporting procedures and accountability measures that all Indian 
Affairs employees must follow. The policy requires management to hold 
employees accountable at the earliest possible occurrence of 
inappropriate conduct and to intervene early to address such conduct.
    The BIE also utilizes the services of an ombudsman to assist in 
such circumstances of misconduct by managers, supervisors, and 
employees, including harassment, discrimination, and retaliation in the 
workplace. As we work to build a stronger BIE, employees have access to 
an independent, neutral, confidential and informal resource for 
conflict management. All BIE employees are encouraged to take advantage 
of this resource to create a healthy work environment that is inclusive 
to all.
Surveys
    Chemawa utilizes annual staff surveys to provide staff an 
opportunity to voice concerns. The most recent staff survey responses 
included requests for more formal collaboration time, and active 
engagement of students; and lack of parental communication and 
communication between residential life staff and academic staff. The 
school most recently administered the student survey in spring 2018. 
Over two-thirds of student responses cited food quality as a major 
concern, followed by concerns with peer behavior toward staff and 
teachers. Analysis of open-ended student responses resulted in four 
overall themes: more school activities; fewer check-ins; more off 
campus activities; and displeasure with the campus fence. Student 
survey responses are analyzed and discussed with school administration, 
school leadership, and with the Student Council. The Student Council 
has the opportunity to bring concerns to the school administration and 
are addressed in that forum. In addition to student surveys, 
administrators meet monthly with the Student Council to discuss student 
concerns that arise and problem solve together.
Chemawa Budget
    Enclosed is Chemawa's most recent school budget. The annual revenue 
of income from business ventures on the school land is approximately 
$90,000 per year. All funding generated from these ventures is utilized 
by the school for students, including but not limited to, funding 
student activities, student clubs, and for purchasing personal items, 
such as clothing and personal hygiene products for students in need. 
The BIE School Operations Budget and Finance Office oversees these 
funds through the Federal Business Management System (FBMS). The BIE 
Budget and Finance staff ensure collected funds are set up and posted 
correctly in the financial system and ensure funds are expended 
appropriately. Per 25 CFR section 31.7 and 62 BIAM 8, periodic 
administrative audits are conducted on school funds. Financial reviews 
are conducted on a quarterly basis by a School Operations Financial 
Analyst. The financial analyst monitors expenditures of all Chemawa 
funds and communicates with the principal and business personnel at the 
school on a regular basis. All of Chemawa's procurements and payroll 
are processed through FBMS. Chemawa also engages in monthly financial 
calls with specialists in the Education Resource Center in the 
Albuquerque, New Mexico BIE office. At the local level, two business 
technicians coordinate procurement needs, payroll, and financial 
management tasks for the school. Financial reports are shared at weekly 
school leadership meetings with department heads.
Procurement
    The procurement protocol for food and supplies at Chemawa is 
consistent with all other BIE-operated schools. For Chemawa, purchase 
requisitions are submitted to the Bureau of Indian Affairs (BIA) 
Acquisitions Northwest Region office located in Portland, Oregon. In 
the spring of 2018, BIA increased the micropurchase threshold to 
$10,000 for the purchase of items, such as textbooks, food (i.e. milk, 
bread, vegetables, dairy), office supplies, and other materials. 
Purchasing thresholds for construction services and other services are 
currently at $2,000 and $2,500 respectively. Any purchase that exceeds 
the defined threshold must go through the BIA Acquisitions Office, but 
BIE is currently analyzing the potential to improve internal 
contracting services to expedite the procurement process for our 
schools. For now, the school must create a purchase request, complete a 
scope of work, and submit the request to BIA contracting officers.
Maintenance
    Facility management at the schools are the responsibility of both 
BIA and BIE. The on-site BIE facility staff is responsible for creating 
an abatement plan that is based on annual inspections, performing the 
operations and maintenance functions at the school, identifying and 
entering maintenance and facility deficiencies into the MAXIMO system, 
and generating work orders. The BIA Northwest Region is responsible for 
conducting the annual inspection, providing facilities technical 
assistance, project management, and distributing funds for facilities 
improvement and repairs and other work. The estimated cost of necessary 
renovations and maintenance of the Chemawa campus is $3,318,000. The 
BIE and BIA are working together as well as across Indian Affairs to 
manage facilities and maintenance on the Chemawa campus and to ensure 
the safety of all students and staff.
Trimester Calendar
    Trimester schedules at the secondary level within the BIE is not a 
common practice. However, trimester schedules are popular in schools 
located in Oregon, so Chemawa utilizes a similar calendar. School 
leaders utilize the schedule to provide longer blocks of class time for 
enriching content.
Recruitment and Staffing
    Currently, Chemawa is staffed at 94 percent with 8 current 
vacancies and a total of 131 staff members. Further, BIE recently hired 
two talent recruiter positions located in Albuquerque, New Mexico to 
bolster recruitment efforts across the Bureau. As soon as a vacancy is 
posted on the BIE website or USAJobs website, the talent recruiters 
post the position to a number of external websites such as Teachers-
Teachers, JobZone, Handshake, and Team ND. To target Indian teachers 
and staff in particular, BIE posts all open positions on Jobvite, which 
is a website hosted by the National Indian Education Association 
(NIEA). The BIE talent recruiters are also working to establish a 
collaborative relationship with the American Indian Graduate Center 
(AIGC), which has a network of over 13,000 Indian alumni and 700 Indian 
students.
Trauma-informed Practices
    Chemawa has maintained a focus on trauma informed educational 
practices for the last six years. The school collaborated with the 
Chemawa Behavioral Health Clinic to provide embedded social emotional 
and therapeutic classes into the regular academic school day as part of 
high-risk student educational experience. The school also implemented 
positive behavioral systems across campus and every staff member in all 
departments across the campus receives professional development in this 
area. In addition, the school provides professional development 
opportunities that focus on culturally responsive practices specific to 
Indian populations. Academic and residential staff receive BIE mandated 
trainings each year per 25 CFR 36.86 and recommended training suggested 
by the Office of Inspector General. In addition, residential staff were 
trained and received a certificate for completing the Youth Mental 
Health First Aid training in summer 2018. Mental health, de-escalation, 
and trauma-informed care are emphasized at these annual trainings.
School Board
    Chemawa's superintendent worked diligently to meet the requirement 
to have the five tribes with the highest enrollment represented on the 
board. After over a year (in the fall of 2015) of providing written 
notice of vacancies to tribal councils in accordance with school board 
by-laws only two of the tribes with the highest enrollment seated board 
members. The other three members were volunteers and not from tribes 
with the highest enrollment at that time. Seating these volunteers was 
the only way Chemawa was able to have an active school board. School 
boards generally have the authority to waive education standards, may 
request closure or consolidation of a school, establish attendance 
areas; waive formal and degree qualifications for a tribal member 
teaching tribal culture and language; and make determinations on 
education policy that is not in conflict with public law, bureau 
regulations, union agreements, and/or tribal law; should be consulted 
and make a determination on contract renewal of employees, waive Indian 
preference; ratify, reject, or amend a school's financial plan. 
However, school boards may not direct, control, or interrupt the day-
to-day activities of BIE employees carrying out Bureau-operated 
education programs. School board member's terms are for three years. In 
anticipation of the end of term of all of its members at the same time 
Chemawa's administration began contacting tribes with current highest 
enrollment in October of 2017. Thus far three of the five tribes 
responded. However, one of the representatives from those tribes has 
not been able to be contacted. Board members have extended terms 
currently as Chemawa continues to elicit responses from tribes with the 
highest enrollment.
Cultural Inclusion
    The BIE follows 25 CFR 32.4(f), which supports the religious 
freedom of all students and to promote and respect the right to all 
cultural practices. Chemawa also instituted mandatory writing classes 
for all students. The writing curriculum for freshman and sophomores is 
through Sopris and the junior and senior writing curriculum is through 
Willamette Promise--Western Oregon State University (Writing 121 dual 
enrollment). As one example of cultural inclusion, the mandatory 
writing class culminates in a capstone ethnographically based cultural 
project that is comprised of three key components: a research paper; a 
presentation; and a physical project or demonstration. Each student 
must conduct research from an ethnographic lens based on their 
individual Tribal culture. Students are also required to select an 
individual from their respective Tribe that has made a positive impact 
in their community or for the student personally and conduct interviews 
as part of the research requirement.
    I appreciate your patience with our response as well as your 
continued interest and support of BIE students and Chemawa Indian 
School. I look forward to working with the entire Oregon delegation and 
tribal leaders to improve education opportunities and services for BIE 
students. Furthermore, Indian Affairs welcomes the opportunity to 
conduct a joint site visit in the future. If you have any further 
questions, please contact me at (202) 208-7163. A similar letter is 
being sent to the cosigners of your letter.

            Sincerely,

                                              Tara Sweeney,
                               Assistant Secretary--Indian Affairs.

    Enclosure: WebBP Organization BEM Report

                                 ______
                                 

                     Congress of the United States,
                                             Washington, DC

                                                     April 12, 2019

Hon. Raul Grijalva, Chairman,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515.

Hon. Rob Bishop, Ranking Member,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Chairman Grijalva and Ranking Member Bishop:

    We write to respectfully request a hearing in the House Natural 
Resources Committee on the four off-reservation Native American 
boarding schools operated by the Bureau of Indian Education (BIE): 
Riverside Indian School in Anadarko, Oklahoma; Sherman Indian School in 
Riverside, California; Flandreau Indian School in Flandreau, South 
Dakota; and Chemawa Indian School (Chemawa) in Salem, Oregon. Following 
a local media report's serious allegations of BIE neglecting the 
welfare of Chemawa students, we led several of our Oregon delegation 
colleagues in seeking answers from the Administration about the lack of 
accountability and transparency at Chemawa, running into many obstacles 
in doing so, not least of which is an order from Indian Affairs 
leadership restricting Chemawa staff from speaking with us. Chemawa is 
of particular interest to us and the communities we represent, and we 
continue to consult with Oregon tribal leaders about ways to hold BIE 
accountable.
    Chemawa is the oldest continuously-operating Native American 
boarding school in America, and now represents a place where Native 
youth from across the West can receive a high school education in a 
unique, culturally-appropriate setting. As an off-reservation school, 
students attend Chemawa from 17 states with more than a third coming 
from Arizona. Chemawa students belong to as many as 80 different tribes 
with the White Mountain Apache Tribe, Tohono O'Odham Nation, Gila River 
Indian Community, and the Navajo Nation representing the highest number 
of Chemawa students.\1\ We are troubled by circumstances at BIE and at 
the school, and we fear those circumstances interfere with their 
mission to ``provide opportunities for every Chemawa student to achieve 
success.'' \2\
---------------------------------------------------------------------------
    \1\ Chemawa enrollment facts, 2014-2015: http://chemawa.bie.edu/
quickfacts.html. Accessed March 7, 2019.
    \2\ Chemawa Mission and Vision: http://chemawa.bie.edu/
mission.html. Accessed March 11, 2019.
---------------------------------------------------------------------------
    A 2017 five-part investigative report by Oregon Public Broadcasting 
(OPB) made serious allegations and outlined significant concerns about 
Chemawa. These concerns ranged from a lack of transparency and 
accountability in the governance structure and management of the 
school, to alarming reports of the deaths of three students at Chemawa: 
Melissa Abell, who died of cardiac arrest in her dorm room; Flint Tall, 
who died in an alcohol-related car accident in South Dakota shortly 
after being expelled and sent home; and Marshall Friday, who died after 
struggling to access medication for a heart problem at school.\3\ In 
light of the OPB report, the Oregon delegation sent a letter to 
Principal Deputy Assistant Secretary for Indian Affairs John Tahsuda on 
November 14, 2017, outlining a series of questions related to our 
concerns about Chemawa. The letter we received in response on April 26, 
2018, provided unsatisfactory answers to our inquiries. This, in 
addition to the months-long delay in receiving the response, prompted 
us to convene a meeting at Chemawa.
---------------------------------------------------------------------------
    \3\ Full Oregon Public Broadcasting series on Chemawa: https://
www.opb.org/news/series/chemawa/. Accessed March 7, 2019.
---------------------------------------------------------------------------
    On May 3, 2018, we, along with Senator Ron Wyden and Senator Jeff 
Merkley, met with BIE Director Tony Dearman and Chemawa administrators 
at the school seeking answers to our questions. We were particularly 
dismayed and frustrated when we were told at the meeting that Chemawa 
and BIE staff are prohibited from talking with us, their elected 
representatives, without approval from Congressional Affairs in 
Washington, DC. Following insufficient responses to our questions in 
that meeting, we sent a second letter to Mr. Tahsuda on June 8, 2018, 
with additional concerns about Chemawa's staff vacancy rate and lack of 
Native American teachers; policies and procedures to train teachers and 
support staff so that they are fully equipped to meet complex student 
needs; and school board membership and authority. Concurrently, we sent 
a letter to the Department of Education requesting information about 
why the Department was withholding Title I funding from BIE, and a 
letter to the Indian Health Service (IHS) requesting information about 
the relationship between IHS and Chemawa to protect the health and 
safety of students. We received responses from the Department of 
Education and Indian Health Service within three months of sending our 
letters.
    On August 20, 2018, Congressman Schrader spoke with Assistant 
Secretary for Indian Affairs Tara Sweeney and Mr. Tahsuda. Mr. Tahsuda 
took full responsibility for the prohibition on Chemawa staff talking 
to Members of Congress, even after Congressman Schrader emphasized that 
this policy blocks his own constituents from speaking with him. Mr. 
Tahsuda reiterated that all queries must go through Congressional 
Affairs, but when pressed for an estimated timeline for the response to 
our letter sent to that specific department more than two months ago, 
he was unable to answer.
    While our letter was going unanswered at Indian Affairs, we learned 
of the tragic death of Robert Tillman, who was a student at Chemawa. 
Less than two weeks after leaving Chemawa, Robert died in Wyoming. We 
don't know any details surrounding the circumstances of his departure 
from the school, but are deeply concerned that this student death, 
along with the student deaths OPB reported on in 2017, signals that 
Chemawa and BIE are failing to keep students in their care safe, and to 
identify and meet student health and safety needs.
    After more than nine months without a response, and with fresh 
concerns about student safety, we, with Senator Merkley, requested a 
second meeting at Chemawa. We met with Chemawa administrators, Director 
Dearman, and Mr. Tahsuda on March 20, 2019, and received an answer to 
our June 2018 letter to Indian Affairs at the meeting itself. This 
response was unsatisfactory; it was light on details and did not 
address all of our questions. Additionally, we believe that had we not 
visited Chemawa in person a second time, we would still be waiting for 
a response.
    We have repeatedly followed the proper channels given to us by BIE 
and submitted detailed inquiries to Congressional Affairs at the Bureau 
of Indian Affairs. These are serious and specific concerns, and to 
receive delayed and vague responses from BIE and Indian Affairs is 
unacceptable. We have been repeatedly told that staff at Chemawa is 
prohibited from speaking with Members of Congress and have seen written 
communications to staff reinforcing that message. We believe that BIE's 
policy restricting communication between Chemawa and the Congressional 
delegation is a great disservice to Chemawa's students and staff and 
fosters a culture of secrecy where staff and students are afraid to 
speak up and discuss their concerns.
    BIE has a responsibility to thousands of Native students, and we 
have a responsibility to our constituents and students in Oregon. A 
hearing into BIE's oversight of Chemawa and other such off-reservation 
boarding schools would help us all to share the information that we 
need to accomplish our common goal of ensuring that Native students 
have the resources and support to receive the best academic and 
cultural education, college readiness skills, and work force training, 
in a safe and supportive environment, and that BIE school staff have 
the resources, training, and support to succeed in providing this 
education. Under the Committee's previous leadership, BIE was not 
called in to testify. There has been a significant lapse in oversight 
of BIE and these issues need to be investigated by Congress. We believe 
that BIE must be held accountable for their inaction in response, 
specifically, to the concerns raised about Chemawa, and that the 
Committee should make doing so a priority.
    We urge you to hold a hearing in your committee and appreciate the 
opportunity to work with you to provide oversight into this issue on a 
broad, bipartisan scale. Please do not hesitate to contact Julia 
Stafford in Rep. Schrader's office at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c8a2bda4a1a9e6bbbca9aeaea7baac88a5a9a1a4e6a0a7bdbbade6afa7be">[email&#160;protected]</a>, or 
Allison Smith in Rep. Bonamici's office at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84e5e8e8edf7ebeaaaf7e9edf0ecc4e9e5ede8aaecebf1f7e1aae3ebf2">[email&#160;protected]</a> 
should you have any questions. Thank you for your consideration of our 
request.

            Sincerely,

        Kurt Schrader,                Suzanne Bonamici,
        Member of Congress            Member of Congress

                                 ______
                                 

    Dr. Schrader. Mr. Cruz, I feel sorry for you, being the 
sacrificial lamb here. We asked Mr. Tahsuda and Mr. Dearborn to 
show up, and they did not have the intestinal fortitude, so it 
fell to you. I appreciate it. My comments are going to be 
pretty harsh. They are not directed at you, please rest 
assured. Well, maybe a couple might be.
    All due respect, you just stated a moment ago that the 
reason we don't have supervisors from Chemawa is because they 
are in school. And you just heard from Ms. Moody-Jurado that 
there is no school. They have been out of school since May 3. 
Why did you tell us that?
    Mr. Cruz. Sir, it is my understanding that Lora had a 
scheduling conflict----
    Dr. Schrader. All right. So, the bottom line is, you don't 
know what is going on and you are not telling the Committee the 
honest truth. Let's be honest.
    You stated that there is this whistleblower protection 
statute. It is not followed. It is window dressing. Your 
testimony, with all due respect, reads like the responses the 
Oregon delegation got back from BIA/BIE, a bunch of policies, a 
handbook that you have that dots all the I's and crosses all 
the T's, but is not followed, is not implemented, and puts 
these young people at horrible risk in Indian Country.
    It is a complete lack of management by your agency of these 
kids' precious lives. Totally inappropriate. We are taking 
steps. We have strategic direction plans. Ask Ms. Willis and 
Ms. Keith how good they feel about that. How does that help 
them? How does it help where we are going?
    I am concerned that we are asking for help and we are 
getting platitudes. That is not what this should be. Indian 
Country deserves the same opportunity every American kid in 
this country should have, and we are just not seeing it.
    I want to hear clearly from you. As I alluded to earlier, 
March 20, 2018--a little over a year ago--Tahsuda told me, 
``Hey, we have a gag rule. We are not allowing these folks to 
talk to you, Congressman, or anything else, for that matter, 
press, parents, whatever.'' You just indicated a moment ago--I 
don't know how accurate it is, given your previous statements--
that the gag rule is no longer in effect, that they can talk to 
me if I call them up tomorrow. Is that correct?
    Mr. Cruz. In their personal capacity, yes.
    Dr. Schrader. OK. In their personal capacity. What does 
that mean?
    Mr. Cruz. They have First Amendment rights to talk to 
whoever they would like.
    Dr. Schrader. I would like to think they do. And without 
fear of retaliation.
    Mr. Cruz. Yes, sir.
    Dr. Schrader. OK. So, can you commit to making sure all the 
Chemawa teachers, staff, students, and parents are aware of 
that? Because they don't know that now. That is not the rule 
right now.
    Mr. Cruz. Yes. We will make sure that communication is----
    Dr. Schrader. And when will that happen, sir?
    Mr. Cruz. I will talk to the BIE director to make sure that 
is done as soon as possible.
    Dr. Schrader. Sounds like chain of command to me, so that 
may or may not happen. I am a little concerned, given the 
testimony we have heard here. Can you commit to that happening 
within the week?
    Mr. Cruz. Sir, I can do that. Yes, sir.
    Dr. Schrader. All right. I appreciate that very, very much. 
I am just passionate about this school. I usually don't get too 
carried away, and I apologize for being a little on the muscle 
here. But it just bothers me that their First Amendment rights 
have been denied them up until, hopefully, this new 
opportunity. And with that comes, hopefully, an opportunity for 
some of the good practices that both of our witnesses here 
talked about putting into place to prevent some of the 
problems.
    Ms. Casey, you talked about the ``One Chemawa'' policy. I 
cannot think of a more dehumanizing policy for the vibrant, 
colorful array of Indian tribes we have in this country to be 
forced into one white man's view of how you're supposed to 
present yourself. Could you comment on that a little bit, how 
that affects the students?
    Ms. Casey. On a daily basis, it affects the students. That 
is how they begin their day. And I see it, and they comment on 
it. I believe it was first period, at the end of first period, 
they would always comment. If I had the whole classroom to 
myself, they were very trusting of me, and still many of them 
are.
    Dr. Schrader. And to the Committee, it is just so 
emblematic of the lack of sensitivity that BIA/BIE have toward 
Indian Country. And I really appreciate the opportunity to have 
the hearing today. And it sounds like a good bipartisan effort 
to hopefully come up with good ideas to fix some of the 
problems that are there.
    It is going to require some legislation because, obviously, 
the culture in BIA/BIE historically just cannot get it done. 
So, I look forward to working with everybody, and want to thank 
everybody for their indulgences, and all the witnesses for all 
their efforts.
    Ms. Casey. May I provide one more comment? Just in response 
to Mr. Cruz's comment on sweat lodges. The student sweat lodges 
are limited to community support, and that is including Federal 
background checks, so be it. So, therefore, they are not as 
diverse as the students' needs are.
    And students and past-supporting community members have 
reported breaches of privacy, that administrative leadership 
wanted to record or get documentation of what had been said, 
which is a complete no-go in our community.
    Dr. Schrader. Thank you, and I yield back.
    Ms. Moody-Jurado. Chairman Gallego, can I just make one 
clarifying point on my testimony?
    Mr. Gallego. Give me 1 second.
    Thank you, Representative Schrader. I am going to yield to 
myself 5 minutes as Chairman to follow up on a couple things 
that have come to light.
    Mr. Cruz, Mr. Schrader said he is not going to take it as 
an insult that you came here. But as Chairman, I do take it as 
an insult you came here and you lied to my face when you said 
that the reason why the superintendent could not be here is 
because they were in school.
    Now, you are trying to nuance this by saying, well, they 
are working and they have meetings, when in fact you are just 
being deceitful. I am not done yet--we tried to have a very 
good conversation here, a conversation that should have been 
productive, and all I have seen right now is you basically 
throwing out these procedural maneuvers to basically cover your 
ass, and then you lied to me, the Chairman of the Committee, 
about why the superintendent was not here. All right?
    So, why would I trust anything that you are saying from now 
on? Why would Representative Schrader trust you or 
Representative Bonamici trust you? They are not going to do 
anything if you are willing to come to this chamber and lie. 
You purposely were deceitful. Don't give me any BS that you 
were trying to be careful. Purposely deceitful. Now you may 
answer.
    Mr. Cruz. Sir, I apologize for that misunderstanding.
    Mr. Gallego. Do not apologize. Fix it. If I hear again from 
my two Representatives from Oregon that there have been no 
changes, I will haul everyone I can down.
    Last, did you or anyone in your Department order the 
superintendent not to appear?
    Mr. Cruz. I did not do that. I cannot speak for everyone 
throughout the Department.
    Mr. Gallego. OK. Second to last, I want to make sure that 
we are very clear. We have some people here that have family 
that work for the school system. They are fearful of 
retaliation. It is important that you, your Department, make 
sure that there is no retaliation for these families that are 
testifying, or that were employees of the families that are 
testifying. Is that correct?
    Mr. Cruz. What is the question?
    Mr. Gallego. That you will assure that there will be no 
retaliation for the families.
    Mr. Cruz. Yes.
    Mr. Gallego. I apologize, Ms. Jurado. You may now finish.
    Ms. Moody-Jurado. I just wanted to clarify to 
Representative Bonamici that students are permitted to wear 
regalia. It was staff that were told they could not because it 
was distracting, even though we are representing our individual 
tribes to graduation.
    Ms. Bonamici. Thank you for the clarification.
    Mr. Gallego. Thank you, Ms. Jurado. We will be moving on to 
closing statements. First I want to thank the witnesses for 
their valuable testimony and the Members for their questions. 
Thank you. It has been a long hearing.
    It is very disturbing to hear from our witnesses, and 
including the government witnesses, what is occurring in this 
school. When we take students into our schools, we take a very 
serious responsibility. We don't replace the parents, but we 
certainly are making decisions for them in their place.
    And the fact that we are still putting up walls of 
communication between teachers and medical staff, walls of 
communication between mental health experts and between parents 
and the administration, and to make matters worse, between 
students, parents, teachers, and their Members of Congress, is 
absolutely ridiculous.
    The reason why this school is having its problems is 
because it does have a culture of essentially stonewalling. And 
stonewalling means no one is ever held accountable. And when no 
one is held accountable, then everything goes out the window.
    I hope this administration recognizes that there is an 
urgency, a bipartisan urgency, to actually fix this. We want 
our students, no matter who they are or where they are from, to 
succeed. And we want to give them the tools that they need to 
succeed. And partly, and most wholly, is having an 
administration, a school administration, that feels 
accountable.
    So, I hope we take away from this that this is an 
opportunity for us to work together. I hope, Mr. Cruz, you have 
an opportunity to actually work with Representative Schrader on 
this. We want to have a good working relationship. It is in the 
best interests of our kids. And I hope to be proven wrong from 
what I have seen so far.
    Without objection, we don't have anybody from the Minority 
to discuss, so I close this hearing. Thank you to all the 
witnesses.

    [Whereupon, at 4:01 p.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    Good afternoon, everyone. I will also keep my statement short, so 
we can allow our witnesses time to tell their stories, which I can 
imagine may be difficult for them to say at times.
    As a former school board member, education is one of the policies I 
am passionate about. I understand that not all school systems are 
perfect, but as Members of Congress it is our responsibility to uphold 
a high standard for education, generally; but for Indian education as 
well.
    Since this is the only Subcommittee for Indigenous Peoples in this 
chamber, I think it is also the purview of this Subcommittee to ensure 
that Indian education is held at a high standard.
    I look forward to hearing the testimony of the parents and former 
staff. I hope that we can resolve some issues surrounding this school, 
and we can work to ensure that Native students feel safe, and continue 
to thrive as healthy education students.

                                 ______
                                 
               Testimony for the Record by Anita Espino,
                 Former Chemawa Indian School Employee

    To Whom it May Concern:

    I used to be an employee at Chemawa Indian School for 28 years 
(1988-2016). During that time I worked in several different 
departments: Food service, Residential and Academic, as well as being 
detailed to Sickbay and after school behavior programs. I put in a lot 
of extra hours, supporting the school due to staffing shortages, in 
Residential, as well as Academic.
    In 2016, I was awarded Employee of the year. Several times I was 
Employee of the Month during my time at Chemawa. I had also been 
awarded ``Employee of the Year,'' in the past.
    Originally, I was hired as a Teacher's Assistant for the Special 
Education Dept. My duties were divided 50/50 between the Attendance 
Office and Special Programs. Later I went back to school and received 
my AA in 2004 and was promoted to Education Tech. I had almost 20 years 
in the Academic Dept. For a couple of years I ran Sickbay. I also have 
subbed in classrooms, ran detention as well as after-school study 
programs. After my usual shift, I would report to Residential for duty 
due to staff shortages. I would cover the front desk, work in dorms, 
patrol or report to wherever I was needed. Since I had prior experience 
in the dormitories it was an easy duty. I knew the students, staff and 
requirements.
    In 2014, Ryan Cox decided to implement a program that was a 
behavior support program. He requested that I work under him. I 
protested. I had filed an informal complaint that was resolved for 
sexual harassment in the past. Even though he said there were no hard 
feelings I felt there was. I stated with my seniority and that I was 
hired under special programs I did not want to change job duties. It 
was a program that was not set up, nothing in writing regarding duties 
and expectations. I felt it was a set-up.
    The program never got off the ground due to staffing shortage. I 
was the only person under him that was not allowed to return to my 
original position. Not only were my shift hours changed dramatically, 
so were my duties. My new shift was 11:30 am-8 pm. Half my shift 
required me to patrol outside during the last half of my shift. For the 
next 2 years I worked in a very hostile environment while he proceeded 
to document me out of a job. My union could not help me. They said as 
long as I am given 30 days noticed I can be transferred anywhere.
    If I talked to anyone I would be called into impromptu meetings. 
People would be questioned about our conversations. His goal was to 
establish gossip. I wasn't even allowed to state my feelings or how I 
was affected if I did it would be deemed gossip.
    I was given a group of students with academic failure problems. 
Even though I did my best to have the students succeed and pass courses 
it was never recognized. Past record of ``Employee of the Month, 
``Employee of the Year'' or all the previous years of successful 
employment did not count.
    He harassed, humiliated and made it so difficult to even do a shift 
without some type of accusation. Guiding him through this was Rea 
Reynosa. She even changed my timesheet without cause.
    They could do whatever they chose. I had no recourse. I was alone. 
I was disciplined for contacting the HR person in New Mexico. They said 
I had to follow chain of command and that my HR person was Ryan Cox's 
supervisor. She was guiding him though out all this. I couldn't seek 
assistance without his approval and he refused to allow me. Keeping the 
situation between him and I.
    I loved my job. I loved my students. ``There are no bad kids. Only 
poor choices and children are allowed to make mistakes.'' I believed in 
them. Treated them with respect and in return they worked hard for me.
    The class of Academic Failures that I was assigned to I would meet 
with each student and set up an assessment for success. I would set up 
meeting to reassure that they would succeed. What worked is that I 
worked with the students, Residential staff, as well as Academic and 
CBHC. Together as a team we succeeded. My kids became the F-club 
standing for Fun once they succeeded. I even had the two students with 
the most failing classes to become president and vice. It was the first 
time they had ever been honored and were very happy to return and 
motivate the new students that came in.
    Currently Chemawa has a gag order. You cannot go above your 
supervisor. They decide your fate. They can decide to ignore your work 
ethics and successes and create a file to have you removed. They have 
done this many times. One person quit instead of working in such a 
hostile environment. She was a veteran, previous boarding student and 
native. She lost her retirement and was accused of threatening admin. 
She is not allowed on property. Her threat was ``Karma has a way of 
working things out in the end.'' A teacher who was supposed to get his 
job back, (Ordered by a Federal Judge) was told his position was 
terminated and was never allowed to return. Those against him lied in 
court and destroyed files to avoid getting caught.
    Promotions are by whom you know not experience. In last few years, 
we have lost a lot of good staff, most of them Native. If you stand up 
for what is right it makes you a target and soon you will be gone. The 
current Business manager has a high school diploma, when most tech jobs 
require a 2-year degree. Her position is exempt from formal training.
    I have an EEO file for the school year 2015-16. If you would like 
to have a copy I am willing to send it. It shows the hostile work 
environment I was subjected to.
    I hope you can help. The students need positive, respectable Native 
staff to look up to and follow in the path of higher education, greater 
expectations and goals. If I can help, please contact me.

            Sincerely,

                                               Anita Espino

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submissions for the Record by Rep. Bonamici

  --  ``Life And Death At Chemawa Indian School,'' Oregon 
            Public Broadcasting. (October 30, 2017) https://
            www.opb.org/news/series/chemawa/chemawa-indian-
            school-student-safety-salem-oregon/

  --  ``What's A Chemawa Diploma Really Worth?,'' Oregon Public 
            Broadcasting. (November 3, 2017) https://
            www.opb.org/news/series/chemawa/indian-school-
            oregon-test-scores-graduation-rate/

  --  ``Former Chemawa Staff Say Concerns Were Met With 
            Retaliation, Bullying,'' Oregon Public 
            Broadcasting. (November 13, 2017) https://
            www.opb.org/news/series/chemawa/staff-bullying-
            retaliation-teachers/

  --  ``Chemawa Staff, Students Question Hiring Practices and 
            Non-Native Administration,'' Oregon Public 
            Broadcasting. (November 20, 2017) https://
            www.opb.org/news/series/chemawa/indian-school-
            oregon-native-administration-hiring/

  --  ``Behind The Fence: Chemawa's Culture Of Secrecy,'' 
            Oregon Public Broadcasting. (November 27, 2017) 
            https://www.opb.org/news/series/chemawa/indian-
            school-oregon-finance-history-board-future/

Submissions for the Record by Beatrice Willis

  --  ``Unmarked Graves Discovered at Chemawa Indian School,'' 
            Al Jazeera US & Canada. (January 3, 2016)

  --  ``Oregon Lawmakers Promise Reforms for Chemawa Indian 
            School,'' Oregon Public Broadcasting. (May 4, 2018)

  --  ``Oregon Deputy Filmed Striking Restrained Man Worked As 
            School Resource Officer,'' Oregon Public 
            Broadcasting. (June 6, 2018)

  --  ``Oregon Delegation Expands Inquiry Into Chemawa Indian 
            School,'' Oregon Public Broadcasting. (June 11, 
            2018)

  --  ``Life and Death At Chemawa Indian School,'' Oregon 
            Public Broadcasting. (October 30, 2017)

  --  ``What's A Chemawa Diploma Really Worth?,'' Oregon Public 
            Broadcasting. (November 6, 2017)

  --  ``Chemawa Staff, Students Question Hiring Practices And 
            Non-Native Administration,'' Oregon Public 
            Broadcasting. (November 20, 2017)

  --  ``Behind The Fence: Chemawa's Culture Of Secrecy,'' 
            Oregon Public Broadcasting. (November 27, 2017)

  --  ``Behavior Expectations,'' U.S. Department of the 
            Interior, Bureau of Indian Education, Chemawa 
            Indian School Correspondence, Assistant Principal 
            Ryan Cox to Student. (March 1, 2016)

  --  ``Administrative Leave from School,'' U.S. Department of 
            the Interior, Bureau of Indian Education, Chemawa 
            Indian School Correspondence, Assistant Principal 
            Ryan Cox to Student. (April 25, 2016)

  --  ``Due Process Hearing,'' U.S. Department of the Interior, 
            Bureau of Indian Education, Chemawa Indian School 
            Correspondence, Assistant Principal Joel Chavez to 
            Student. (November 29, 2016)

  --  ``Appeal of Student Incident Report of November 24, 
            2016,'' U.S. Department of the Interior, Bureau of 
            Indian Education, Chemawa Indian School 
            Correspondence, Assistant Principal Joel Chavez to 
            Ms. Willis. (December 2, 2016)

  --  ``Acceptance for Admission,'' Central Wyoming College. 
            (February 2, 2017)

  --  ``Prom Guest Application Denial,'' U.S. Department of the 
            Interior, Bureau of Indian Education, Chemawa 
            Indian School Correspondence, Superintendent Lora 
            Braucher to Ms. Willis. (April 10, 2017)

  --  ``Re-Admission,'' Northwest Youth Corps. (May 8, 2017)

  --  ``Request for Cause of Death,'' Paddock Legacy Health. 
            (May 30, 2017)

  --  ``Oregon Leaders Plan Congressional Hearings On Troubled 
            Chemawa Indian School,'' Oregon Public 
            Broadcasting. (March 21, 2019)

  --  ``HIPAA Release of Mental Health Records,'' U.S. 
            Department of Health and Human Services 
            Correspondence to Ms. Willis. (March 7, 2018)

  --  ``HIPAA Release of Medical Records,'' U.S. Department of 
            Health and Human Services Correspondence to Ms. 
            Willis. (April 26, 2018)

  --  ``Clinic Visit Records,'' Chemawa Health Center. (July 
            27, 2015)

  --  ``Analytical Report,'' Clackamas County Medical 
            Examiner's Office. (July 11, 2017)

  --  ``Medical Records,'' Legacy Meridian Park Medical Center. 
            (April 1, 2017)

  --  ``Medical Records,'' Peace Health. (December 17, 2014)

  --  ``Medical Records,'' Salem Health Heart and Vascular 
            Center. (March 3, 2016)

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
